<html>
<title> - NOMINATION OF ROBERT E. LIGHTHIZER, TO BE UNITED STATES TRADE REPRESENTATIVE, WITH THE RANK OF AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY, EXECUTIVE OFFICE OF THE PRESIDENT</title>
<body><pre>[Senate Hearing 115-164]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-164

                   NOMINATION OF ROBERT E. LIGHTHIZER

=======================================================================

                                 HEARING

                               BEFORE THE

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                 ON THE

                             NOMINATION OF

 ROBERT E. LIGHTHIZER, TO BE UNITED STATES TRADE REPRESENTATIVE, WITH 
  THE RANK OF AMBASSADOR EXTRAORDINARY AND PLENIPOTENTIARY, EXECUTIVE 
                        OFFICE OF THE PRESIDENT

                               __________

                             MARCH 14, 2017

                               __________


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

            Printed for the use of the Committee on Finance
            
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-798 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a2d3a250a293f393e222f263a6429252764">[email&#160;protected]</a>            
            
            
            
            


                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    DEBBIE STABENOW, Michigan
PAT ROBERTS, Kansas                  MARIA CANTWELL, Washington
MICHAEL B. ENZI, Wyoming             BILL NELSON, Florida
JOHN CORNYN, Texas                   ROBERT MENENDEZ, New Jersey
JOHN THUNE, South Dakota             THOMAS R. CARPER, Delaware
RICHARD BURR, North Carolina         BENJAMIN L. CARDIN, Maryland
JOHNNY ISAKSON, Georgia              SHERROD BROWN, Ohio
ROB PORTMAN, Ohio                    MICHAEL F. BENNET, Colorado
PATRICK J. TOOMEY, Pennsylvania      ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina            CLAIRE McCASKILL, Missouri
BILL CASSIDY, Louisiana

                     Chris Campbell, Staff Director

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hatch, Hon. Orrin G., a U.S. Senator from Utah, chairman, 
  Committee on Finance...........................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     4
Brown, Hon. Sherrod, a U.S. Senator from Ohio....................     8
Portman, Hon. Rob, a U.S. Senator from Ohio......................     9

                                WITNESS

Dole, Hon. Robert, former U.S. Senator from Kansas...............     7

                         ADMINISTRATION NOMINEE

Lighthizer, Robert E., nominated to be United States Trade 
  Representative, with the rank of Ambassador Extraordinary and 
  Plenipotentiary, Executive Office of the President, Washington, 
  DC.............................................................    11

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Brown, Hon. Sherrod:
    Opening statement............................................     8
Dole, Hon. Robert:
    Testimony....................................................     7
Enzi, Hon. Michael B.:
    Prepared statement with attachment...........................    43
Hatch, Hon. Orrin G.:
    Opening statement............................................     1
    Prepared statement...........................................    45
Lighthizer, Robert E.:
    Testimony....................................................    11
    Prepared statement...........................................    48
    Biographical information.....................................    48
    Responses to questions from committee members................    52
Portman, Hon. Rob:
    Opening statement............................................     9
Roberts, Hon. Pat:
    Submission for the record....................................   117
Wyden, Hon. Ron:
    Opening statement............................................     4
    Prepared statement with attachments..........................   118

                             Communications

International Corporate Accountability Roundtable................   129
Motion Picture Association of America (MPAA).....................   132

                                 (iii)

 
                  NOMINATION OF ROBERT E. LIGHTHIZER,
                  TO BE UNITED STATES TRADE REPRESENTATIVE, 
                  WITH THE RANK OF AMBASSADOR EXTRAORDINARY
                     AND PLENIPOTENTIARY, EXECUTIVE
                        OFFICE OF THE PRESIDENT

                              ----------                              


                        TUESDAY, MARCH 14, 2017

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:14 p.m., 
in room SD-215, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch (chairman of the committee) presiding.
    Present: Senators Grassley, Crapo, Roberts, Cornyn, Thune, 
Portman, Toomey, Heller, Scott, Cassidy, Wyden, Stabenow, 
Cantwell, Nelson, Menendez, Carper, Cardin, Brown, Bennet, and 
Casey.
    Also present: Republican Staff: Chris Campbell, Staff 
Director; Everett Eissenstat, Chief International Trade 
Counsel; Douglas Petersen, International Trade Counsel; Shane 
Warren, International Trade Counsel; Tony Coughlan, Tax 
Counsel; Rory Heslington, Professional Staff Member; and 
Nicholas Wyatt, Tax and Nominations Professional Staff Member. 
Democratic Staff: Joshua Sheinkman, Staff Director; Elissa 
Alben, Senior Trade and Competitiveness Counsel; Jayme White, 
Chief Advisor for International Competitiveness and Innovation; 
Michael Evans, General Counsel; Greta Peisch, International 
Trade Counsel; and Ian Nicholson, Investigator.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
              UTAH, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The hearing will come to order.
    Welcome, everyone, to this afternoon's hearing. Today we 
will consider the nomination of Mr. Robert Lighthizer to be the 
U.S. Trade Representative.
    The last time this committee considered a nominee for USTR 
was in July of 2015. Unfortunately, under the last 
administration, failure to promptly nominate appointees to 
leadership positions at USTR became the norm. As a result, it 
is a sad truth that the office of USTR has not had a fully 
confirmed bench of nominees since Ambassador Kirk resigned in 
January 2013. That is pathetic. The difficulty USTR had during 
the past 4 years in advancing an ambitious pro-growth trade 
agenda was in no small part due to the lack of leadership.
    As chairman of this committee, I hope that we will be able 
to change that starting today. All told, this committee must 
consider and report six positions at the Office of the U.S. 
Trade Representative. Unfortunately, as with most of President 
Trump's nominees, we are off to a slow start. I hope that with 
today's hearing we can begin the process of moving these trade 
nominees more quickly.
    Mr. Lighthizer is indisputably qualified to serve as USTR, 
and I believe he has a strong base of bipartisan support. If we 
keep this process focused on Mr. Lighthizer and the position he 
has been nominated to fill, there is no reason he should not be 
approved by this committee and confirmed by the Senate in short 
order.
    Unfortunately, there have been suggestions that extraneous 
issues, issues that are entirely unrelated to Mr. Lighthizer, 
might be attached as conditions to the Senate's consideration 
of the nominee. Let me address this briefly before returning 
the discussion to the nominee's qualifications and the sizeable 
agenda and challenges facing the next USTR.
    Mr. Lighthizer has spent almost his entire career in public 
service, including as staff director for this committee and as 
Deputy USTR, and in private practice, fighting against unfair 
imports. In 1995, Congress passed an amendment that prohibits 
an individual from serving as U.S. Trade Representative or 
Deputy U.S. Trade Representative if that person has ``directly 
represented, aided, or advised a foreign entity'' in ``any 
trade negotiation or trade dispute with the United States.''
    While in private practice, Mr. Lighthizer represented a 
small number of foreign clients in the late 1980s and early 
1990s, well before passage of the 1995 amendment. Because of 
this work, some of our Democratic colleagues have argued that 
Mr. Lighthizer requires a waiver to serve as USTR.
    Mr. Lighthizer does not believe that his work falls within 
this statute, nor do I. The Office of Legal Counsel at the 
Department of Justice has indicated that they share that 
opinion, so it is not at all clear that a waiver under the 1995 
statute is necessary in Mr. Lighthizer's case.
    This is not the first time the committee has had to deal 
with this type of question, and in the past we have always been 
able to work through it. In 1997, President Clinton nominated 
Deputy U.S. Trade Representative Barshefsky to serve as USTR. 
This committee was chaired by Senator Roth, and Chairman Roth 
and the Republican majority worked constructively to support 
President Clinton's nominee.
    Chairman Roth was not certain that this statute applied to 
Ms. Barshefsky, but he agreed to work with Senator Moynihan to 
consider a waiver so that Ambassador Barshefsky might assume 
her position as U.S. Trade Representative without controversy.
    As far as the record shows, there were no extraneous 
conditions attached to the waiver, and it passed on the floor 
by a vote of 98-2.
    Similarly, in 2007, President Bush nominated Deanna Tanner 
Oakun for the position of Deputy U.S. Trade Representative. 
Although neither she nor the General Counsel at USTR believed 
that the statute covered her prior work, Chairman Baucus and 
Ranking Member Grassley worked in a bipartisan fashion to 
advance a waiver through this committee in order to ensure that 
all necessary bases were being covered. No extraneous 
conditions were demanded in exchange for approving the waiver, 
and it was approved by the committee by voice vote.
    Today we are faced with very similar circumstances. Once 
again, it is not clear that the statute applies to Mr. 
Lighthizer's work in the 1980s and 1990s. In fact, we have what 
appears to be a well-researched opinion from OLC that it does 
not.
    Nevertheless, Democratic committee members are asserting 
with absolute certainty that Mr. Lighthizer needs a waiver in 
order to be confirmed, and at the same time these same members 
are refusing to approve a waiver unless the committee also 
moves a piece of legislation that is entirely unrelated to Mr. 
Lighthizer or the Office of USTR.
    Now, this kind of legislative hostage-taking certainly is 
not unheard of in the Senate, but in the context of 
consideration of a nominee for the Office of U.S. Trade 
Representative, it is totally unprecedented. I have stated 
publicly that I am willing to work with Ranking Member Wyden 
and others on the committee who believe a waiver is necessary, 
but I will be honest, at this point it appears that my 
colleagues' insistence on the waiver at the committee level has 
more to do with their demands for an unrelated ransom than any 
concern about the applicability of the statute.
    I hope I am wrong about that. Let me be clear what is at 
stake here. By statute, the U.S. Trade Representative is the 
lead official for developing, coordinating, and implementing 
U.S. international trade policy, serving as the principal trade 
advisor to the President, leading international trade 
negotiations, and serving as the President's primary 
spokesperson on international trade. Moreover, the statute 
creating the position makes it clear that the Trade 
Representative is accountable not only to the President, but 
also to Congress.
    There is a lot of debate today about the direction of U.S. 
trade policy. In fact, the President is currently considering 
some of the most significant trade policy decisions in decades, 
including whether and how to upgrade the North American Free 
Trade Agreement, whether and how to launch additional trade 
negotiations with parties to the former Trans-Pacific 
Partnership, and whether and how to continue negotiations for a 
Trade in Services Agreement, an environmental goods agreement, 
and an agreement with the European Union, and he is doing so 
without the advice of his chosen USTR, not because the nominee 
is unqualified, but because some Democratic Senators see the 
nomination as an opportunity to advance a wholly unrelated 
legislative priority.
    Moreover, at a time when Congress is demanding greater 
input into trade policymaking and stronger enforcement, our 
principal liaison in the administration is being blocked from 
even assuming the office. I do not think anybody has any real 
objections to Mr. Lighthizer, so it seems crazy to keep playing 
this game.
    Once again, this is unprecedented. It is time to move this 
nomination. Actually, to be blunt, it is well past time. It has 
been more than 50 days since Mr. Lighthizer was nominated by 
the President. This is the longest gap between nomination and 
committed consideration of a USTR since at least 2001.
    Before concluding, let me briefly touch on some trade 
priorities I expect the next USTR to address. It will not be 
surprising to many of you, but I expect a nominee in this 
administration to be a strong advocate for U.S. intellectual 
property rights. Intellectual property is the backbone of our 
economy. It affects large and small companies across America. 
It is a key part of our economic growth. In my home State of 
Utah, for example, half a million jobs and 67 percent of our 
exports are connected to intellectual property. It must be a 
higher priority.
    Second, I expect quick and effective use of Trade Promotion 
Authority, or TPA. President Trump benefits significantly by 
coming into office with TPA already in place. As a country, we 
have a unique opportunity to lock in strong trade agreements 
that meet the high standards of TPA, but trade negotiations are 
long-term endeavors, and, to be successful, we need to begin 
soon.
    As the administration updates existing agreements and 
negotiates new ones, I hope that they will be able to re-
balance the Obama administration trade agreement template. In 
my view, President Obama continually sacrificed U.S. commercial 
interests at the negotiating table in favor of a liberal social 
agenda.
    Some of the areas that I believe need higher priority 
include the need to reflect a standard of protection for U.S. 
intellectual property rights, similar to U.S. law; seek the 
elimination of price controls; work for better market access 
for our farmers and ranchers, including stronger provisions on 
sanitary and phytosanitary measures; include enforceable 
provisions ensuring greater transparency and accountability in 
government reimbursement regimes; negotiate strong and 
enforceable provisions on anti-corruption; provide greater 
protection for trade secrets; and include provisions that help 
strengthen good governance, transparency, the effective 
operation of legal regimes, and the rule of law.
    Finally, we must do a better job of holding our trading 
partners accountable. More effective monitoring of our trading 
partners' existing commitments, along with full implementation 
of these commitments, is critical to maintaining political 
support for a robust trade agenda here at home.
    Mr. Lighthizer, I want to commend you on a stellar career 
in international trade. It is my hope that you would use your 
expertise to advance a strong U.S. trade agenda that can help 
grow our economy and instill faith in the American people in 
the ability of international trade and trade agreements to 
provide new opportunities for working Americans. I look forward 
to hearing your testimony today.
    So with that, I will turn to my friend, the ranking member, 
Senator Wyden, for his opening statement.
    [The prepared statement of Chairman Hatch appears in the 
appendix.]

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. Mr. 
Chairman and colleagues, after several weeks, during which the 
only insight the public has gotten into Trump trade policy has 
come in head-scratching 140-character bursts, today's hearing 
gives us a chance to get some specifics. I had a good 
conversation with Bob Lighthizer in the office, and I want to 
welcome him today as his nomination is considered.
    I hope that by the end of this hearing Americans will have 
heard more detail about how the Trump administration plans to 
meet the extensive promises that were made in the 2016 
campaign.
    Before digging into policy issues, there is another issue 
the committee has to address. As a legal matter, Mr. 
Lighthizer's previous work for foreign governments makes him 
ineligible to be appointed as the U.S. Trade Representative, 
pursuant to the Lobbying Disclosure Act. The facts are clear, 
but as was the case with Secretary Mattis, this administration 
and others before it has worked with the Congress, when 
appropriate, to make exceptions.
    Speaking for Democrats, we are willing to work with 
Republicans to provide a statutory exception for Mr. 
Lighthizer, but we also insist that Republicans work with 
Democrats to provide a lifeline to America's hard-working 
miners who are now facing the possible loss of health care and 
retirement benefits.
    Mr. Lighthizer has an understanding about the impact of 
unfair trade on America's manufacturers and workers that, in my 
view, could be a valuable asset to the country. The country 
needs a USTR who is going to stand up for our rights on behalf 
of our workers and our businesses at the World Trade 
Organization, who is going to partner with U.S. Customs and 
Border Protection, the Department of Commerce, and the full 
range of agencies that are responsible for trade enforcement, 
to crack down on the rip-off artists, the cheats, who hurt our 
workers and our businesses here at home.
    After a campaign of shouting that the North American Free 
Trade Agreement could be the worst deal ever, the President 
came into office and said our trade relationship with Canada, a 
NAFTA member, only needed, in his words, ``tweaking.'' The 
President spent the campaign talking tough about China, but his 
administration has largely been quiet on their plans when it 
comes to China's flagrantly unfair trade practices.
    So when I say that our trade policy needs to deliver 
results and not just talk, that is why we need to get into 
specifics today. My own view is that the agenda has to start, 
particularly in this season of March Madness, with a vigorous, 
full-court press for tough trade enforcement.
    In my view, there are two prongs to effective trade 
enforcement. The first is to fully enforce the trade laws here 
at home. Foreign subsidies and dumping that harm American 
workers have to be identified quickly and remedied, and that 
requires strong enforcement at the border by Customs officials. 
Goods made with forced labor have to be barred from entering 
our country. Trade in stolen timber and other natural resources 
that damage the environment and edge out hard-working Americans 
in the forestry sector have to be stopped.
    I particularly want to thank a whole host of my colleagues 
who are here today who pushed very hard for toughening our 
country's trade remedy laws, because now we are in a position 
to have trade remedy sanctions that are more responsive to our 
American producers who have been besieged by trade cheats.
    The second prong of effective trade enforcement is holding 
other countries to their commitments under deals that are 
already on the books. That means enforcing labor obligations, 
protecting the environment, or stopping countries from applying 
discriminatory policies that block out our digital goods and 
services.
    So when it comes to aggressive trade enforcement, the U.S. 
Government cannot deploy a full-court press with only half a 
team. That is why a number of Senate Democrats have thought 
that the hiring freeze was so short-sighted, because it leaves 
resources on the sideline and suggests that the tough talk on 
trade is not going to be much more than talk. So I hope that 
the forthcoming budget does not put more trade enforcers on the 
sidelines, because doing that would endanger good-paying 
American jobs just to fund more than a $50-billion give-away to 
defense contractors.
    In order to maximize economic opportunities for our 
exporters, our trade policy cannot end with effective 
enforcement of existing rules. It also has to reach overseas to 
dismantle foreign trade barriers that prevent American goods 
and services from competing on a level playing field.
    Here are the stakes: 140 million people are joining the 
middle class every year, many of them in Asia. The fact of the 
matter is, trade jobs in that part of the world provide us an 
opportunity to pay better wages. They reflect a higher level of 
productivity and value added.
    What we say is--and I have heard many of my colleagues here 
say it--what we are doing is growing things here, we are making 
things here, we are adding value to them here, and then we ship 
them somewhere. These opportunities are missed if we stay on 
the sidelines while other nations negotiate trade deals that 
advantage their exporters over ours.
    This is especially true now in the Asia-Pacific region. 
That is exactly what happens as we sit here this afternoon. As 
we sit here today, Pacific Rim countries meet in Chile to 
discuss trade in the region. The question is: where is U.S. 
leadership?
    With that said, whether it is through re-negotiating NAFTA, 
looking to Asia, or working on any other trade deal, 
transparency with the public and the Congress is essential. The 
previous Congress passed a law that requires critical actions 
to ensure that the public and its representatives in Congress 
are active partners in efforts to negotiate and implement 
future trade agreements.
    But with the American people sitting in the dark with 
respect to the specific actions the President intends to take 
on trade, the first months of this administration leave Mr. 
Lighthizer, if confirmed, with a steep hill to climb on 
transparency. It is critical that the American people know 
whether the President is advocating for trade policies to 
create red, white, and blue jobs or, very frankly, to help his 
own business interests. That is why I introduced, with a number 
of colleagues from both chambers of Congress, the Presidential 
Trade Transparency Act. The bottom line is, the administration 
has talked mightily when it comes to trade, and so we have now 
reached the time for action. That means more transparency, a 
full-court press on trade enforcement, and playing offense 
every single day in the tough global markets that we are 
facing.
    Mr. Lighthizer, I look forward to your testimony. I enjoyed 
our meeting.
    I thank you, Mr. Chairman.
    The Chairman. Thank you.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    The Chairman. Today I am being relieved of the duty to 
introduce our nominee, although I think very highly of him. 
Instead, we have two current Finance Committee members, both 
from the State of Ohio, who will introduce Mr. Lighthizer. 
However, before that we will hear from a very distinguished 
friend and former chairman of this committee. I want to welcome 
our good friend, former Finance Committee Chairman and Senate 
Majority Leader, Senator Bob Dole. Good to see you today, 
Senator Dole. We are glad to have you here.
    [Applause.]

                STATEMENT OF HON. ROBERT DOLE, 
                FORMER U.S. SENATOR FROM KANSAS

    Senator Dole. Jiminy, maybe I will take the job, I do not 
know. [Laughter.]
    Well, 35 years ago I was chairman of this committee when we 
passed the 1981 Reagan tax bill, and Bob Lighthizer was by my 
side. I would say to my fellow Kansan Ron Wyden, and of course 
Pat Roberts, if you need somebody who is aggressive and a 
bulldog, he is seated on my right. His name is Robert 
Lighthizer from the great State of Ohio, also the State of my 
great-grandfather, who was raised on a farm in Montpelier, OH.
    But I want to thank the committee for this hearing. I have 
had the honor a number of times of introducing people to 
various committees, and it has been bipartisan. I remember 
introducing Vice President Senator Mondale to be Ambassador to 
Japan. We both served on the Finance Committee, and we had 
different views, but we were friends. It made a big difference.
    So I am particularly honored today to introduce--he does 
not need any introduction--someone I have worked with and 
someone I know. I have watched his children grow up, and I know 
him to be a man of complete honesty and integrity and, as I 
said, a bulldog when it comes to getting things done.
    He made me look good--hard to do, but he did it--because of 
his work as director of this committee's staff in the late 
1980s and the early 1990s. We had great success on many 
difficult issues, and most of them--I would say 90 percent--
were resolved in a bipartisan way.
    Bob Lighthizer did not work for me. No one worked for me; 
they worked with me, for the people of our respective States. I 
am certain that is the way you consider the outstanding members 
of your staff. But this is a singular honor for me. I am older 
than the total age of all of the committee. [Laughter.]
    So I have been around a while. I have listened to arguments 
and debates, and we have political parties, and certainly we 
have different views. Neither party has all the wisdom. But I 
think in this case, if you are looking for someone who really 
understands what he is about to enter into, with your approval, 
that is a fellow named Robert Lighthizer. So I thank the 
committee for permitting me to be here and to say a good word 
about my friend and my staff director.
    So I hope that any--I do not understand some of the 
problems raised, but I hope they can all be resolved, because 
trade is important. I come from a farm State, Kansas, as Pat 
Roberts knows, who is seated next to Senator Grassley. I know 
all of you--I think most all of you--there are farmers in every 
State. I do not care what crop it is, whether it is vegetables, 
cotton, or wheat.
    We would be lost without a strong advocate for agricultural 
trade. Bob Lighthizer has listened to that speech for 40 years, 
I think--not quite 40--so he understands the importance, but it 
is not only agriculture, it is steel, which is important to the 
Ohio delegation, both on the committee here, and other States, 
whatever State it is.
    Bob was a Deputy USTR, as the chairman has pointed out. He 
was very successful. Many times when the Trade Representative 
was then Senator Bill Brock from Tennessee, Bob Lighthizer 
would attend Cabinet meetings. I have always felt that the 
Trade Representative was a little underrated when it came to 
the pecking order in the Cabinet, because none of us can say we 
do not need trade in our States.
    What we need is someone, as Ron Wyden has pointed out and 
the chairman pointed out, who will hustle and get things done 
and work out the differences. Again, that is my friend Bob 
Lighthizer. Thank you.
    [Applause.]
    The Chairman. Well, thank you, Senator. Thank you, Senator 
Dole.
    Mr. Lighthizer, you could not have a better person come and 
refer to you and support you than Senator Dole. We all love and 
respect him.
    We will turn to Senator Brown now at this point, then to 
Senator Rob Portman.

           OPENING STATEMENT OF HON. SHERROD BROWN, 
                    A U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman.
    I am not sure why Rob and I are doing this after the 
distinguished Senator Dole did such a good job of introducing 
him. Senator Dole, thank you so much. It was a pleasure to get 
to hear about Montpelier, OH. Rob and I were both hoping we 
would get to mention it first, that your great-grandfather was 
born in Montpelier.
    I appreciated the comments of the ranking member, and I 
want to take a moment, before introducing Mr. Lighthizer, to 
acknowledge the coal miners in my State and across the country 
who are on the verge of losing their health care and the 
retirement they earned over a lifetime of back-breaking work. 
What have we done about it in Washington? Pretty much nothing. 
Many of these miners were scheduled to be in this room today 
until the snowstorm hit. These are the people we work for.
    Right now, Congress is failing them. Two and a half months 
into this year, this committee has yet to hold so much as a 
hearing on this mine worker issue; I know it matters to Senator 
Portman, Senator Toomey, Senator Casey, and Senator Warner on 
this committee. These miners cannot afford to wait. We must act 
sooner rather than later.
    Today we are here to consider Robert Lighthizer's 
nomination to be a U.S. Trade Representative. Mr. Lighthizer is 
eminently qualified, as Senator Dole said, for this job. He has 
a long history of fighting on behalf of American manufacturers 
and, I would add, American workers. Mr. Lighthizer is a native 
of my wife's hometown of Ashtabula, OH. Somehow, Bob Dylan, in 
a song, rhymed Ashtabula and Honolulu. [Laughter.] But Bob 
Dylan can do things like that, I guess.
    Mr. Lighthizer is familiar with the industrial heartland 
America; he knows the steel industry, as Senator Dole said, 
inside and out. He understands how critical manufacturing is to 
our economy. He knows that for too long, failed trade policy 
hurt Ohio communities and left too many workers all over this 
country behind. I look forward to working with him to chart a 
new trade agenda that puts American workers first.
    In addition to his time as a staffer on this committee and 
for the USTR, Mr. Lighthizer has represented the U.S. steel 
sector. He has defended American steel companies and their 
workers against unfair trade practices, and I considered it an 
honor to work with him on behalf of them over the years.
    He understands the kind of trade policy we need, not only 
to help our steel companies, but all American manufacturers and 
their workers. Steel over-capacity must be a top priority for 
the USTR. We note China has the capacity to make about half the 
world's steel. It is something the administration has yet to 
address; I am confident that Mr. Lighthizer will.
    Mr. Lighthizer is the man to do this job, to design a new 
trade policy that keeps President Trump's promises to American 
manufacturers and American workers. The issue of his waiver 
needs to be addressed. I hope this issue is resolved before the 
mark-up.
    As a fellow Ohioan, I am honored to introduce Robert 
Lighthizer to this committee. Bob, thank you.
    The Chairman. Well, thank you, Senator Brown.
    Last, but not least as a witness, I will call on Senator 
Portman, our distinguished colleague on this committee. So, 
Senator Portman, if you will proceed.

            OPENING STATEMENT OF HON. ROB PORTMAN, 
                    A U.S. SENATOR FROM OHIO

    Senator Portman. Thank you, Mr. Chairman. I too join my 
colleague, Sherrod Brown, in being very pleased to be 
introducing you, Bob, along with the Honorable Senator, Leader, 
Chairman Bob Dole. I thought it was particularly fitting that 
everybody in the room applauded, Senator Dole, when you said 
you thought USTRs were underrated. That is right, you did not 
say all of them. [Laughter.]
    But as a former USTR, I am delighted that Bob Lighthizer is 
willing to step up and take this job. I know we will have to 
work out something, it sounds like, but we need him. I actually 
think that the ranking member made some good points about the 
urgency of this task, so I am glad that you are willing to do 
it.
    I am glad that we are here. You are a guy--although you are 
a Floridian now--who does hail from the Buckeye State, and 
Ashtabula is one of those parts in Ohio that has been hit hard 
by unfair trade. You stood up, both in your roles in government 
and in the private sector.
    There are a lot of reasons that you would be good. One is, 
you bring the experience that is needed right now. So you have 
the Hill experience. You also have the experience at USTR and 
the experience of working with the private sector on some of 
these tough trade issues.
    You are a Georgetown Law graduate, which we will not hold 
against you, and you launched yourself into quite a respectable 

private-sector career. I know you were at a big law firm here 
when Senator Dole called up and said, ``Hey, I am looking for a 
young, bright conservative to come join me here on the Hill.'' 
You have been Deputy U.S. Trade Representative under Ronald 
Reagan and USTR Bill Brock, one of the great USTRs. He was 
underrated.
    In that role, you got the whole view, because at that time 
the deputies at USTR really had a broad panoply of 
responsibilities, where now it is divided more in geographic 
areas; there is a separate deputy for agriculture and so on. 
But when you were there, you had to look at all the issues, and 
I think that is a great experience.
    You have been an advocate for balanced trade--and the 
importance of trade exports was talked about today, and that 
trade expansion is critical to middle-class jobs in my home 
State of Ohio. Twenty-five percent of our factory workers have 
export jobs; we want more of them. They are better-paying, 18 
percent on average more, with good benefits. But you have also 
understood the importance of having balance: in other words, 
rigorously enforcing our trade laws and trade enforcement. I 
think that is the right balance now. Your work, particularly on 
behalf of our steelworkers, I think, gives you that sensitivity 
to know that we have the best workers in the world; we can 
compete, but it has to be on that level playing field. I think 
that experience is critically important right now.
    It is a difficult issue, trade; lots of politics around it. 
And even around this committee, looking at who is here today, 
there is a different point of view represented by every seat 
here. Obviously it is an issue that came up during the 
campaign. It comes up in every campaign. There is a lot of 
misinformation out there, in my view, about trade.
    Again, someone who has experience and credibility in 
enforcing trade laws and stepping up for people, like those 
steelworkers you stepped up for, I think, has some credibility 
to be able to promote the right kind of trade policy.
    I have also noticed that members of the new administration 
have some strong views on trade. Sometimes those views are not 
always the same, I have noticed too. Frankly, I think in my 
view, they are going to benefit from having someone with your 
experience and your perspective to be able to help coordinate 
that effort and be a better bridge to Capitol Hill, because 
that is a critical part of this job. USTR was created by this 
committee, the Ways and Means Committee, and by the Congress. 
It has a unique relationship and responsibility to these 
committees, including being able to pass trade agreements.
    I know you have negotiated a few yourself and have had to 
negotiate also, therefore, with Capitol Hill. So Bob is 
tenacious, he is creative, he is seasoned, he is knowledgeable, 
and I very much look forward to working with him as our next 
U.S. Trade Representative.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you, Senator.
    Welcome, once again, Mr. Lighthizer. Before giving your 
opening statement, would you like to introduce any family 
members who are here with you today?
    Mr. Lighthizer. Well, thank you, Mr. Chairman. I actually 
have my daughter and my brother here today.
    The Chairman. Well, great. We welcome then.
    Mr. Lighthizer. I would say, when I was before this 
committee a long time ago to be Deputy USTR, my daughter was 
about 18 months old and spent part of the hearing sitting in my 
lap. She heard me sitting there and walked up and crawled into 
my lap.
    Senator Dole. Bob, would you yield?
    Mr. Lighthizer. Absolutely.
    Senator Dole. Mr. Chairman, I am going to excuse myself, 
but put your money on the Jayhawks. [Laughter.]
    The Chairman. Senator Dole, it has been a privilege to have 
you here, as always. So, God bless you. It has been a blessing 
to have Senator Dole once again up here in the Senate. We all 
respect him.
    Mr. Lighthizer, you can proceed.

   STATEMENT OF ROBERT E. LIGHTHIZER, NOMINATED TO BE UNITED 
   STATES TRADE REPRESENTATIVE, WITH THE RANK OF AMBASSADOR 
  EXTRAORDINARY AND PLENIPOTENTIARY, EXECUTIVE OFFICE OF THE 
                   PRESIDENT, WASHINGTON, DC

    Mr. Lighthizer. Mr. Chairman, Ranking Member Wyden, members 
of the committee, it is a great honor for me to appear before 
you today as President Trump's nominee to be the U.S. Trade 
Representative.
    I am particularly pleased to be in this hearing room, where 
I have so many fond memories, and to be here with my former 
boss. It is fair to say that I had my formation working for 
Senator Dole and this committee in the 1970s and 1980s. I was 
able to work for truly exemplary U.S. Senators on matters of 
great importance.
    In addition to trade, I assisted on tax policy, Social 
Security reform, budget cuts, welfare bills, and much more. I 
would be remiss if, in addition to Senators Dole and Grassley, 
I did not mention Senators Long and Moynihan--all truly great 
men.
    After I left here, I became Deputy U.S. Trade 
Representative. I worked for President Reagan and Senator Bill 
Brock, another wonderful boss. I have often thought how lucky I 
am to have had such mentors and role models.
    While at USTR, I worked on agricultural issues, industrial 
issues, services, and trade policy. I negotiated several trade 
agreements. Yes, mostly they were bilateral. Those also were 
exciting times.
    For the last many years, I have practiced international 
trade law. The vast, vast majority of my work has been 
representing U.S. manufacturing companies opposing unfair trade 
in this market and opposing the non-economic expansion of 
production capacity around the world.
    As many of you know, I have written and talked often about 
the challenges facing U.S. companies and workers and have 
espoused strong enforcement of our trade laws. I have also 
worked to preserve U.S. policies at the WTO and the OECD.
    I agree with President Trump that we should have an 
``America first'' trade policy and that we can do better in 
negotiating our trade agreements and be stronger in enforcing 
our trade laws.
    I further believe we need an international trading system 
that functions the way it was negotiated and that the United 
States must be ready to work with like-minded trading partners 
to ensure fair trade and to encourage market efficiency.
    If confirmed, I hope to work with this committee, with the 
Ways and Means Committee, others in Congress, President Trump 
and those in the administration, and all stakeholders to 
develop and implement a policy that increases trade, grows the 
economy, and makes trade freer and fairer, but most 
importantly, that improves the economic well-being of our 
workers, farmers, ranchers, and businesses, large, medium, and 
small. If confirmed, I hope in the end to be judged by whether 
I aided all of you in accomplishing this goal.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Lighthizer appears in the 
appendix.]
    The Chairman. Thank you, Mr. Lighthizer. We appreciate your 
willingness to take on this really difficult assignment.
    Now, I have some obligatory questions that I ask of all 
nominees.
    First, is there anything that you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Lighthizer. There is not, Mr. Chairman.
    The Chairman. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Lighthizer. I do not, Mr. Chairman.
    The Chairman. Do you agree, without reservation, to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of Congress, if you are confirmed?
    Mr. Lighthizer. I do. I do.
    The Chairman. Let me just ask one other question. Finally, 
do you commit to provide a prompt response in writing to any 
questions addressed to you by any Senator of this committee?
    Mr. Lighthizer. I do, sir.
    The Chairman. Well, thank you, sir. I appreciate it.
    Let me begin the questioning. In the 28 years USTR has 
published the Section 301 report, India has received the worst 
or 
second-worst designation every year. Similarly, the U.S. 
Chamber's International IP Index has ranked India worst or 
second-worst every year it has been published. Now, what can 
you do differently to secure real intellectual property rights 
protection in the country of India?
    Mr. Lighthizer. Mr. Chairman, let me say first of all that, 
if I am confirmed, I promise a very robust protection for 
intellectual property rights. I realize this is very important 
to the chairman and the members of this committee. I think 
anything less stifles innovation and science and really 
compromises what is a competitive advantage of the United 
States, that is to say, innovation and science. I think we need 
a policy that is as aggressive as we can have.
    There are a whole lot of areas where we are at risk in 
intellectual property protection, including with India: slow 
and inefficient patent protection, theft of intellectual 
property, short patent protection, insufficient property 
protection. I expect to work with the committee in any way I 
can with respect to India. Specifically, I would like the 
thoughts of the committee and the staff. I realize the 
importance of the issue, and I am fully committed to protecting 
intellectual property rights.
    The Chairman. Well, thank you. I remain disappointed that 
under the last administration not a single intellectual 
property case was brought under the WTO or our bilateral 
agreements, despite well-documented examples of failures by a 
number of trading partners to live up to their commitments. If 
confirmed, will you commit to finally taking steps to not only 
identify, but effectively address these trade violations?
    Mr. Lighthizer. I absolutely will. I expect that we are 
going to have a very rigorous enforcement policy. I expect to 
bring as many actions as are justified, both at the WTO and in 
our bilateral agreements. I mean, this will be a point of 
emphasis. I think the President asked me to do this job, in 
part, because of my enforcement background. I expect to do it 
across the board.
    The Chairman. Well, thank you. It is well documented that 
Canada refuses to enforce intellectual property rights for the 
in-transit cargo destined for the United States. In fact, the 
USTR's most recent national trade estimate has documented this 
issue as well. Do we have your commitment to address this issue 
in your discussions with Canada, and will you ensure that other 
U.S. departments and agencies are made aware of the importance 
of the issue in their engagements with Canada, including the 
ongoing discussion between Canada and the Department of 
Homeland Security regarding cargo pre-inspection?
    Mr. Lighthizer. Absolutely, Mr. Chairman. I am totally 
committed. I really do believe that innovation is the central 
nervous system of the modern economy, and I am fully committed 
to bring every action that is justified across the board. I 
will certainly make sure that other departments in this 
government realize how committed we are to this area.
    The Chairman. Well, thank you.
    Senator Wyden?
    Senator Wyden. Thank you very much, Mr. Chairman.
    Let me start, if I could, with lumber and forestry, Mr. 
Lighthizer. As you know, and as we talked about in the office, 
this has been the longest-running battle since the Trojan War. 
It has gone on for decades and decades. The Canadians have 
subsidized their stumpage, they have used special procedures to 
force our trade agencies to weaken trade remedy orders on 
softwood lumber.
    I would like to hear specifically--and 25 Senators, equally 
divided between Democrats and Republicans, have joined in 
efforts to get the executive branch to be serious about this. I 
will tell you, I thought it was unfortunate that the President-
elect missed an opportunity when Prime Minister Trudeau was 
here when he said, gee, all we need with Canada is a tweak. How 
are you going to get tough with Canada with respect to softwood 
lumber and finally ensure that our workers in these key 
industries that pay good wages get a fair shake?
    Mr. Lighthizer. Well, Senator, first of all, I would say 
that I have heard a variety of issues with respect to Canada 
that have been raised by Senators as I have gone around and 
spoken with them, and certainly this is at the top of the list, 
but there have been a variety of things. I think there are a 
number of issues we have to address with respect to Canada.
    Senator Wyden. I want to make sure I heard that right. Did 
you say this would be at the top of your list as it relates to 
Canada?
    Mr. Lighthizer. That is what I did say.
    Senator Wyden. I like that answer. Go ahead, please.
    Mr. Lighthizer. Right now, as you say, there is a long 
history of this. There is a long history of litigation and 
memorandums of understanding and trying to work it out 
temporarily. It is a very serious kind of intractable sort of 
problem. It has enormous political consequences on both sides 
of the border.
    Right now we are in the process of litigation, which is at 
the Department of Commerce, of course, not at USTR. But I 
expect to be involved. I expect to try to work out a solution. 
I know the basic parameters of it. I know that quantitative 
restraint is what the domestic industry wants, and wants in 
both parts of Canada. I certainly will work with the Senator 
and with his staff on that. I know the priority, I know the 
importance, and I know the history of it.
    Obviously, if this litigation goes forward and if we have a 
negotiation, another negotiation, on this subject--I do not 
want to pre-judge how the negotiation will come out, but I know 
in my mind that it is very important and that the last 
agreement really did not work the way it was supposed to work, 
and that we have to have a new one, either litigation or a new 
agreement, that does work.
    Senator Wyden. Let me get in one other question. I am going 
to be in rural Oregon this weekend having town hall meetings, 
and being able to tell them that the person who is being 
considered as the nominee for our U.S. Trade Representative has 
this at the top of the list makes a difference, and I 
appreciate it.
    Let me turn to the question of digital trade, because the 
Internet sector alone accounts for more than 5 million American 
jobs. Here the challenge--and I think we touched on it in the 
office--is we have to tackle these foreign efforts to require 
American companies to store data where governments want the 
data stored, not where it makes sense for the private economy, 
not where it makes sense for economic or technological reasons.
    I would like to hear your thoughts about how you are going 
to help this sector that accounts for 5 million American jobs 
get a fair shake in the digital arena overseas. As you know, 
these are not just cloud-based services, but a variety of other 
services. What are you going to do to make sure that digital 
trade, American digital trade, gets a fair shake in global 
markets?
    Mr. Lighthizer. Well, Senator, first of all I would like to 
commend you for your long, long-term commitment in this area. I 
talked about innovation being the central nervous system. One 
wise U.S. Senator once referred to the Internet as ``the 
shipping lane for 21st-century goods and services.'' Does that 
sound remotely familiar to you?
    Senator Wyden. I know that guy! [Laughter.]
    Mr. Lighthizer. I say that by way of emphasizing how 
important I think this area is. I think there has been headway 
that has been made, and Ambassador Froman gets credit for that.
    In terms of the negotiation--and you and your colleagues in 
terms of putting pressure on it--it is essential to moving 
forward that we have free flow of data and that you can store 
the data where it makes sense economically. So I am fully 
committed. I expect to use trade agreements to pursue this goal 
and the WTO, where appropriate. So I understand. I think it is 
very important, and it is the sort of thing that we have to 
include in our trade agreements.
    When we talk about NAFTA and other agreements that need 
updating, this is something that did not even exist when these 
agreements were first negotiated. So I really do think this is 
important. I commit to you that it will be something that we 
will prioritize.
    Senator Wyden. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Stabenow?
    Senator Stabenow. Thank you very much, Mr. Chairman.
    Mr. Lighthizer, welcome. I enjoyed very much our 
conversation in the office. It is good to see you again. I look 
forward to seeing your waiver worked out on a bipartisan basis. 
I am very appreciative of your work and comments you have made 
in the past. We have some important issues on trade to address 
that affect our workers.
    We talked about Michigan and both making things and growing 
things: agriculture, manufacturing, all of our businesses. I 
have a saying that, as we talk about trade, we should export 
our products, not our jobs. I think that is something that you 
would agree with, so I appreciate that very much.
    I have to say, though, I think you have a very tough job, 
and I want to talk to you about that, because as USTR you are 
responsible for coordinating, monitoring, and enforcing trade 
issues, existing trade agreements, future trade agreements.
    We in Michigan want a level playing field on trade, from 
intellectual property rights--as the chairman talked about with 
China--or trade barriers with Japan, or currency manipulation, 
which you have spoken extensively about in the past.
    But here is where I am deeply concerned right now. You are 
out, fighting for American workers and businesses, if you are 
confirmed. But your future boss, President Trump and his 
family, have business interests all over the world.
    My constituents and I are very worried about what happens 
when the interests of American workers and businesses, in terms 
of enforcing our trade laws, are put at odds with the business 
interests of our President or his family. I wonder if you might 
speak about how you stand up for American workers and 
businesses in that kind of a situation.
    Mr. Lighthizer. Well, thank you, Senator. First of all, in 
all my conversations with the President--I have been honored to 
have several--he speaks very strongly on enforcement and 
getting the best possible deals for American workers, American 
farmers and ranchers. His own business interests are never 
remotely referred to. I really do not personally know what they 
are. The President is completely committed to the ``America 
first'' agenda, which I subscribe to and which I believe the 
Senator subscribes to.
    So I mean, I am honored to have this President nominate me 
for this job, and I think that working together, all of us and 
President Trump, we have a reasonable likelihood that we can 
change the paradigm and have it be better for all of our 
workers and all of our farmers. I have never seen any hint in 
any way of anything to the contrary. I think his motivations 
are absolutely spectacular.
    Senator Stabenow. And I appreciate that very much. Here is 
my concern, and it is a very real, sincere concern. The 
President said on day one he would label China a currency 
manipulator. You have made very strong comments in the past: 
China engages in currency manipulation, China is by far our 
biggest trade problem. This is an issue that I have been 
working on for years, both with China and with Japan and other 
countries.
    We have seen the President say that the grand champion of 
currency manipulation is China. But then we see, on February 
24th, Secretary Mnuchin signals the White House is not sure 
what they are going to do on currency manipulation. But here is 
the concern that I have on that.
    Last week, China, after 12 years in court, back and forth 
with Donald Trump and his family, has given provisional 
approval, in an uncharacteristically swift manner, to 38 new 
trademarks for the Donald J. Trump brand to be put on 
businesses, construction businesses, all kinds of businesses, 
all kinds of products in China, and we hear now that it is not 
clear what our administration is going to do about China.
    So maybe one has nothing to do with the other, but it is 
very concerning to me. We have, in my judgment, a need to be 
very tough on China and what they have done. We have lost close 
to 5 million jobs in our country as a result of currency 
manipulation and related practices.
    A good number of those were in my State of Michigan, and 
now we have a situation where the President is benefitting by 
business deals and new trademarks to put his name on businesses 
and products in China. How do you move forward on that? I mean, 
how do you make those calculations as to what to do? As you 
have said--and I appreciate very much and agree with the 
statements you have made in the past about China being a 
currency manipulator. So what do we do with this?
    Mr. Lighthizer. Well, Senator, first of all, in the past it 
is my judgment that China was a substantial currency 
manipulator, and I think we have lost a lot of jobs in the 
United States because of it. And by the way, it is not just 
China. There are other countries that have done it, as you know 
well and have experienced through your constituents.
    Senator Stabenow. I agree, yes.
    Mr. Lighthizer. Whether China is manipulating the currency 
right now to weaken it is another question, so that is up to 
the Treasury Secretary. So I----
    Senator Stabenow. And I understand that. I guess my 
question is, as you move forward in a very tough job--and I 
believe you are equipped to do that--how do you handle the 
situation at this point in time where we have the President, 
his family, with business interests in countries where we need 
to be tough on that country in order to protect American jobs?
    Mr. Lighthizer. Well, Senator, I do not know anything about 
the President's businesses or anything about trademarks or 
anything like that.
    Senator Stabenow. Would it help if you did? I mean, in all 
sincerity there are proposals--Senator Wyden has one--that 
would require making that known. If you knew that, would it 
make it easier to be able to, from your perspective, do your 
job and make sure there was not a conflict?
    Mr. Lighthizer. Absolutely not. I do not want to know 
anything about it. I think, to be honest, with the time I have 
spent with the President, any suggestion at all that he would 
do anything that is not in the national interest first, middle, 
and last, is just not correct.
    I would like, if I could, to have you and the ranking 
member, whatever things you have to worry about--and my job is 
tough; your job is tougher, to be honest. Your job is tougher, 
your responsibility is greater. This idea that this President 
would do anything untoward is so far out of the realm of 
possibility. I say this, and I mean it sincerely: it is an 
honor for me. This is a person who is completely committed to 
nothing but helping America and the American workers and 
farmers and ranchers. It is just----
    Senator Stabenow. And I know my time is up, and I respect 
and understand. I would just say, he promised on day one that 
China would be labeled a currency manipulator. It is after day 
one, and that has not happened yet, but other things affecting 
his business have, and that is deeply concerning to me.
    The Chairman. All right.
    Mr. Lighthizer. Let me say--if I could just say, Mr. 
Chairman, I believe that if your concern is that the President 
would somehow not defend America against China because of 
trademarks, I wanted to let you be assured that that is not the 
case.
    I would also say that I will bet you, you and I will sit 
down in your office between now and the time I leave, and you 
will say, ``Bob, you were right; he really is going to change 
the paradigm on China.'' I believe he is going to change the 
paradigm on China. If you look at our problems, China is right 
up there. So let me assure the Senator, this is not going to be 
a problem.
    Senator Stabenow. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Roberts?
    Senator Roberts. Thank you, Bob, for coming in to my office 
and having a nice visit. Thank you for the work that you have 
done on this committee. Thank you for your good work on behalf 
of a Kansas legend, a national legend, Senator Dole.
    Last month, members of the Senate Finance Committee met 
with Mr. Peter Navarro and Mr. Steven Greenblatt. They are new 
members of a new White House Trade Council. They read to us the 
administration's marching orders for trade. They had four goals 
and 13 policy objectives. Since that meeting, the list has now 
grown to 24. On this list of goals, agriculture was listed as 
#3. Given the rough patch that we are in today, given a 16-year 
low in prices and other considerations, I believe it should be 
#1.
    Mr. Chairman, before I ask a question, I would like to 
submit the administration's list of 24 trade priorities for the 
record.
    The Chairman. Without objection.
    [The list appears in the appendix on p. 117.]
    Senator Roberts. I think you have the experience; you know 
this. Most trade agreements I have worked on since I have had 
the privilege of public service have been over-criticized and 
they have been over-sold and somewhere in between, while we 
tried to work them out. But on this list of 24, there are 
several I could mention, but the one that really stuck out to 
me was Country of Origin Labeling.
    That is a tough issue in the Agriculture Committee and in 
the agriculture issue list. But we have been down this road 
before. We fixed the issue of COOL in 2015. We do not need to 
go down that road again. We narrowly escaped about $4 billion, 
somewhere between $3.5 and $4 billion, in retaliatory tariffs 
against the United States.
    I do not think that we need a constantly changing list of 
key elements of a model trade agreement. That may be a good 
thing to talk about if we had time to talk about it. We do not. 
What we need is a U.S. Trade Representative confirmed--that is 
you--and in place who will embark on a robust trade policy. 
That is you. You have the experience, you have the talent, and 
you have the commitment.
    Now, the U.S. has withdrawn from TPP and the President has 
expressed major concerns with NAFTA. The administration stated 
it plans to start to negotiate bilateral trade agreements that 
you refer to. It seems to me that we need to move very quickly. 
I want to make it very clear to you and to the administration: 
agriculture must be a key part of these conversations.
    When I met with you last January, you assured me that you 
would defend agriculture as trade problems arise. I would like 
to remind you that I told you, just take it a step further: be 
the champion of agriculture from the start so we do not get 
into these problems.
    Now last month, as chairmen of the Agriculture Committee, 
we--Senator Stabenow and myself--chaired a field hearing. We 
had 21 witnesses. Every one brought up the issue of trade. Last 
year, the U.S. exported over $103 billion in agriculture goods. 
In 2016, agriculture exports accounted for approximately 20 
percent of the agricultural production. Agriculture had a 
global trade surplus of $20 billion.
    Understanding the importance that trade has on the 
agriculture industry and the rough patch we are in, will you be 
a champion for agriculture and get commodities moving on the 
global market?
    Mr. Lighthizer. Yes, Senator, I will. I have a long history 
with agriculture. I worked on it when I was at USTR. As the 
Senator knows, I negotiated the Reagan administration grain 
agreement with the Soviet Union in 1983. You will also recall 
that President Carter cut off grain sales to the Soviet Union, 
and President Reagan decided to re-implement those sales, and I 
was called on to negotiate that agreement and did do it.
    My 30- or 40-year contact with Senator Dole is some 
indication--and I had a variety of very memorable meetings with 
Senators, and it was a joy to go around and meet so many 
Senators and talk to them about the issues that matter to them.
    But I heard one very memorable comment that one Senator 
made, which was, ``As you go through doing your job, remember 
that you do not eat steel.'' That is something that stuck with 
me. So I assure you that we will prioritize steel. We will 
prioritize agriculture, both in terms of maintaining what we 
have and in terms of getting additional market access.
    Senator Roberts. I cannot imagine the Senator actually 
stating that to you. I just cannot imagine who that might be.
    We have grain on the ground out in Kansas. If we do not 
sell agriculture commodities over the next several months--we 
are at a 16-year low in prices--we will have a problem on our 
hands. We all will have a problem on our hands.
    If you are confirmed, can you tell us right now what 
countries you will be having conversations with to sell not 
only what our country makes, but also what we grow?
    Mr. Lighthizer. Well, I think that there are a variety of 
priorities in terms of what our negotiations are, but it is 
clear that agriculture would have been a beneficiary of TPP.
    I think that as we move forward and negotiate new 
agreements, we have to go to those countries, among others, and 
I would list, of course, Japan as being a primary target for a 
place where increased access for agriculture is important.
    It is hard for me to understand why we tolerate so many 
barriers to agriculture trade when America is the number-one 
producer of agricultural products. We are the best in the 
world. If you believe, really, in trade and market efficiency, 
you just have to believe agriculture should be even more of a 
positive than it is. It is market distortions that are keeping 
that from happening, so I think opening up markets, more 
markets for agricultural sales, is a very high priority for us.
    Senator Roberts. I appreciate that.
    My time has expired, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Menendez, Senator Cardin was here and has agreed to 
allow Senator Toomey, who has to leave, to question. Would you 
be willing to do that?
    Senator Menendez. Yes.
    The Chairman. Senator Toomey, then. Thank you. Thank you 
for your kindness. I appreciate it.
    Senator Toomey. Thank you, Mr. Chairman. I want to thank 
the Senators from Maryland and New Jersey for their kindness. I 
do appreciate that.
    Mr. Lighthizer, welcome, and thank you. I enjoyed our chat 
earlier. There is no question, you have a terrific background 
for this job and a great deal of expertise and knowledge. I 
would like to focus very briefly on a couple of narrow, 
specific issues and then on a big macro issue that I think is 
important and I am concerned about.
    The former are the two primary reasons that I was not able 
to support TPP in the form that it had. One was the lack of 
protection for intellectual property, especially of biologics, 
an incredibly important new field, an area where we need to get 
this right. Intellectual property is a form of property that 
should not be stolen, like any other kind of property, so I 
hope we will do a better job in the future on that.
    I would like you to add an item to your list of Canadian 
priorities, and that is, as I am sure you know, the Canadians 
are very resistant to allowing in American dairy products. 
Pennsylvania is a big dairy-producing State, and we could do 
quite well selling dairy products to Canada, so I would just 
ask you to consider putting that on your list.
    The macro thing I would like to address is some worrisome 
signals that I perceive from the administration. I think Peter 
Navarro, who is the Director of the National Trade Council, has 
been pretty clear that one of, if not the primary goal of trade 
policy, is going to be to reduce trade deficits.
    Now, if you become the U.S. Trade Representative, of course 
you will be responsible for negotiating the deals that 
accomplish whatever these goals are. I am concerned that this 
is the wrong top priority. I am concerned because I do not 
believe that trade deficits are inherently a serious problem.
    I think if you choose to address reducing deficits by 
expanding American exports, that is great, and I am sure that 
will be one of your goals. We certainly want to tear down 
barriers to American products.
    The problem is, we have also gotten very clear indication, 
at least from Mr. Navarro, that there will be an effort also to 
reduce imports, which is another way to reduce the size of the 
trade deficit, and I think that would be a big mistake, for 
several reasons.
    One is, it would invite retaliation. It would almost 
certainly result in retaliation that would diminish American 
exports, and that would certainly be very bad for us. Second, 
whatever mechanism one uses to reduce imports, whether it is 
quotas, tariffs, or bureaucratic hurdles that foreign exporters 
cannot get over, the net result is fewer choices for American 
consumers--higher costs, fewer choices, fewer options.
    Finally, I would just stress that the fact is, 
historically, trade deficits do not harm manufacturing, broadly 
speaking, and they do not cause unemployment. I have a chart 
here that illustrates this point, I think, pretty well.
    The red line is the line of U.S. manufacturing output, 
adjusted for inflation. And as you can see on the far right, 
the red line is back up to its all-time high, which is to say 
that the United States of America is manufacturing more today 
than we ever have in the history of the Republic.
    Now, we do it with fewer people, which is mostly a function 
of automation, but manufacturing is at an all-time record high. 
What is even more stunning, though, is that there is no 
correlation between a reduction in manufacturing and an 
increase in the trade deficit. In fact, it is the exact 
opposite.
    The blue line on this graph, as it descends from the upper 
left, reflects increasing deficits. As you can see, it happens 
at the same time that manufacturing output is going up. Then 
when the blue line reverses and the deficit gets smaller, as 
the blue line goes up, the red line of manufacturing output 
goes down.
    So there is this pretty consistent inverse relationship, 
actually, between the size of our trade deficit and 
manufacturing output. I think it is probably because when the 
economy is strong, we are manufacturing more, and when the 
economy is strong we are also buying more products.
    The second chart I want to show illustrates a similar point 
with respect to unemployment. Again, you notice it is the exact 
same blue line. That is the trade deficit line, again, the 
deficit getting larger as the line goes downward to the right.
    As you can see from the period from 1992 to roughly the 
recession around 2001, as the trade deficit was growing, the 
unemployment rate was declining. Again, the relationship 
continues: when the trade deficit has diminished, as it did 
significantly in 2009, unemployment went through the roof. Then 
once again, the unemployment rate has declined in recent years 
while the trade deficit was roughly level.
    So we have learned there is a way to reduce the trade 
deficit: have a recession and you will reduce the trade 
deficit. I know that is not what you want. I know that you do 
want to increase our opportunities to export and sell our 
products overseas.
    I would just urge you to consider making the higher of the 
priorities not the reduction in the deficit, but rather the 
mutual elimination of trade barriers, the expansion of trade, 
and certainly, of course, opening up foreign markets for our 
products.
    The Chairman. Thank you, Senator. Your time is up.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman. Ambassador 
Lighthizer, congratulations on your nomination. Let me ask 
you--I am one who believes that we should not compromise our 
values in order to get a trade agreement. If anything, we 
should be using those agreements to further our values 
internationally.
    As you may know, when this committee was debating Trade 
Promotion Authority legislation 2 years ago, it passed my 
amendment that barred fast-track procedures for any trade 
agreement with a country on Tier 3 of the State Department's 
Trafficking in Persons Report, a group of countries that fail 
to take any action to combat sex trafficking and forced labor, 
and that was a bipartisan vote on the amendment.
    Now, following that amendment, from my view, we saw an 
unprecedented politicization of the TIP report, where countries 
were upgraded based on unrelated factors, one of those being 
trade, in my opinion, instead of their efforts to combat human 
trafficking.
    Can you commit to us that, if confirmed, you will not take 
any action to attempt to influence the Trafficking in Persons 
report?
    Mr. Lighthizer. Well, I would say first of all, Senator, I 
obviously condemn human trafficking. I know that you have been 
involved with this. I know that Senator Cardin has also been 
involved with it. I believe it will be the strong policy of 
this administration--although it is not in my area--to do what 
they can to stop human trafficking.
    In terms of what priorities I have in negotiating trade 
deals, I can guarantee that I will work with you and with 
Senator Cardin and other interested members of the committee to 
make sure that as we move forward, your specific views on this 
issue are reflected in the sorts of things that I----
    Senator Menendez. I appreciate that. Let me, since my time 
is limited and I have several topics, pose a very narrow 
question: will you commit to the committee that you will not 
use your position as the U.S. Trade Ambassador to try to affect 
the Trafficking in Persons Report?
    Mr. Lighthizer. I will make that commitment.
    Senator Menendez. All right. Thank you.
    Do you believe that the administration will seek to 
negotiate trade agreements with a country currently or recently 
on Tier 3 of the TIP report?
    Mr. Lighthizer. I do not know the answer to that. I will be 
guided by the opinions of this committee and the Ways and Means 
Committee, as well as the President, on what our targets are 
for negotiations.
    Senator Menendez. Well, the reason I asked that question is 
because the law is clear: we are not supposed to be engaging 
with a country that is on Tier 3. So if there is an intention 
to do so, it would be in violation of the law, unless again the 
report is manipulated to allow a trade agreement to take place, 
even in the face of human trafficking going on in that country 
to the level of a Tier 3. So I would hope that that would not 
be the case.
    I know that the chairman raised the issue of India with 
you, and I want to echo his concerns. I think that there is a 
great opportunity for us to build greater economic ties with 
India, but I have a real problem with their lack of protection 
of intellectual property rights, and for the United States that 
is a critical element, whether in the technology field or in my 
home State of New Jersey, which is the medicine cabinet to the 
world in terms of a growing biotech and pharmaceutical 
industry. So in that regard, on multiple occasions I have 
raised the issue of ensuring regulatory protection of biologics 
in our trade agreements.
    The Trade Promotion Authority requires U.S. trade 
negotiators to ensure ``that the provisions of any trade 
agreement governing intellectual property rights reflect a 
standard of protection similar to that found in the United 
States under U.S. law.''
    Such a level of protection enjoys strong bipartisan support 
from Congress, as our highly innovative biopharmaceutical 
industry, as well as the broader high-tech industry, supports 
millions of high-quality jobs, including hundreds of thousands 
in my State of New Jersey.
    Will you ensure that any U.S. free trade agreements meet 
this Trade Promotion Authority requirement, raising global 
standards to those of the United States?
    Mr. Lighthizer. I am familiar with the issue, and that 
certainly is my position. I will do everything I can to have 
new trade agreements reflect that standard, that objective.
    Senator Menendez. I appreciate that answer. Given that the 
U.S. law provides for 12 years of data protection for 
biologics, would you commit to pursuing an equivalent level of 
protection in future trade agreements?
    Mr. Lighthizer. I have had conversations with several 
members. I know that there is a split on this. I am certainly 
with the chairman on this issue, which is to say, yes, that 
would be my objective.
    Senator Menendez. And I would just simply say that in my 
view that is in line with what Trade Promotion Authority says 
under the law, to bring it up to a standard under U.S. law, 
which is 12 years. So, thank you for your answers.
    The Chairman. All right. Let me just see here. I think it 
is Senator Cardin next.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Lighthizer, welcome. Mr. Chairman, I have known Mr. 
Lighthizer for a long period of time. I have a great deal of 
confidence in his ability to negotiate and to stand up for 
enforcement of American trade laws. So I thank you for your 
willingness to take on this extremely important public service. 
I know it is a sacrifice, and we thank you very much for being 
willing to do this.
    I will comment that we do need a strong USTR to enforce our 
antidumping laws and to deal with illegal subsidies. Although 
you cannot eat steel, it does provide good jobs. If we had more 
steel jobs, our entire economy would be stronger, including the 
agricultural sector.
    So I thank you for your efforts on behalf of American 
steel, and I hope that you will use that talent to deal with a 
fair trading system for all of America's producers, 
manufacturers, and farmers.
    I would also point out in that regard--and I would say one 
other thing, if I might, Mr. Chairman, on a personal basis. 
Bob's brother Jim is here. Jim Lighthizer is a distinguished 
public servant in Maryland. He held the office of county 
executive in Anne Arundel County, one of our largest counties, 
so it is a family of public service, and it is wonderful to see 
his family members here.
    The Chairman. Well, we certainly welcome the family, every 
member.
    Senator Cardin. As Senator Portman pointed out, the USTR 
and our trade laws are a delegation by Congress to your office, 
and we express ourselves through TPA. And we announce several 
principal negotiating objectives, and we expect the USTR to 
comply with the delegation and the objectives given to you by 
Congress. Let me go over a couple of those.
    In the most recent Trade Promotion Authority bill, we put, 
as a principal negotiating objective, compliance with anti-
corruption commitments. Of course, we were negotiating TPP. We 
were dealing with countries that are not democratic countries, 
and we were very concerned about good governance and anti-
corruption.
    We now have seen a spread of corruption among many 
countries in the world. Do you commit to carry out the Trade 
Promotion Authority direction that in trade agreements we will 
carry out anti-corruption commitments within the trade 
agreement?
    Mr. Lighthizer. Absolutely.
    Senator Cardin. Thank you.
    We also passed, in the Trade Promotion Authority, an 
amendment that was offered by Senator Portman and me as it 
relates to our European partners. It is called the anti-BDS 
provision, which requires the Trade Representative to get 
commitments from our trading partners in Europe that they will 
not sponsor any boycott, divestment, or sanction efforts 
against the state of Israel.
    Do you also commit that you will comply with that principal 
negotiating objective that was included in the congressional 
act?
    Mr. Lighthizer. Absolutely, Senator.
    Senator Cardin. Thank you for that.
    Third--and this has been commented on by many of us--there 
is now currently an effort to try to change our tax code so 
that we can get a border adjustment which would be fairer to 
American manufacturers. We have always included in our Trade 
Promotion Authority an effort by the USTR to get border 
adjustment comparable to what our trading partners have on 
products that enter their market for our products entering 
their market. The difficulty, of course, is that we have not 
harmonized with the international community in the use of a 
consumption tax.
    I have introduced a progressive consumption tax that is 
patterned after what is accepted internationally as a border-
adjusted tax. It is difficult to see us winning too many cases 
in the WTO with something that is an income tax that we call a 
consumption tax, so I just urge you in your position to give a 
realistic assessment to those of us in Congress as to what is 
likely to be border-adjusted so that at long last we can try to 
set up a level playing field for American manufacturers and 
producers in the international marketplace as it relates to tax 
burdens.
    Mr. Lighthizer. Right. Thank you, Senator. Yes, I have 
spent a lot of time on this issue over the years. I was 
involved in DISC and FSC and all these things at various times. 
I do not know what the right answer is, but it is a problem, in 
my judgment, this disequilibrium between direct and indirect 
taxes.
    I do not view it as having any real economic or legal 
basis. I think it is so serendipitous and unfortunate from the 
point of view of the United States, so I would look forward to 
working with you.
    Senator Cardin. I appreciate that.
    The last point I would make, Mr. Chairman, is that we do 
not do so well in the World Trade Organization on a lot of 
these legal cases. We have not done well on border adjustment 
with the manufacturing credit that you referred to, and I do 
not know how well we could do on the tax proposal we are 
talking about.
    I do know, though, on enforcing our antidumping laws, it 
would be very helpful if, in the bilateral agreements, we had 
specific references to the enforcement of U.S. law in that 
bilateral rather than relying on a case within the WTO. So I 
would just encourage you, as you do these trade agreements, 
knowing your reputation for enforcement, that we include 
enforcement sections in these bilateral agreements.
    Mr. Lighthizer. I agree completely with you, Senator.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Grassley?
    Senator Grassley. Sorry I missed your opening statement, 
because I had to go to the floor to speak about the Supreme 
Court justice hearing we are having next week.
    So I thank you, Mr. Chairman, for holding this hearing, and 
I am glad that we are moving forward with Mr. Lighthizer's 
nomination. We need to get him in place at the USTR, because it 
is a very important job and a lot of negotiations are coming 
up. I have enjoyed working with this agency over the years and 
respect their unmatched expertise on trade issues.
    As everyone on this committee knows, Congress set 
negotiating objectives for trade agreements when we passed TPA 
2015. It is a very important piece of legislation for getting 
our trade agreements through the Congress, so I have just a few 
questions--and I was told that Senator Roberts touched on part 
of what I was going to ask.
    So with your many years of experience in trade, I have no 
doubt that you appreciate the requirements in TPA to keep 
Congress informed on negotiations and the need for agreements 
to meet negotiating objectives set by Congress that enable 
agreements negotiated by this administration to receive a 
single up-or-down vote.
    Now, following on what Senator Roberts asked you, as you 
know, I represent a State that has tremendous agricultural 
production. Exports are extremely important to Iowa 
agriculture, whether it be corn, soybeans, cattle, or hogs. The 
equivalent of one out of every three rows of soybeans, as an 
example, will end up being exported to China alone.
    Clearly, these exports are very important to the price of 
commodities. President Trump and others in his administration 
have indicated a desire to modernize and update NAFTA. I am not 
opposed to that on the surface, but I do have concerns about 
potential outcomes.
    Mexico is the number-one market for U.S. corn and soybean 
meal. Mexico and Canada represent the number-two and -three 
markets respectively for U.S. beef, and finally, pork exports 
to Mexico are 12 times larger today than when NAFTA was 
implemented.
    Could you assure the committee that you and President 
Trump's administration fully understand what is at stake for 
U.S. agriculture in renegotiating NAFTA?
    Mr. Lighthizer. I do, Senator. Yes.
    Senator Grassley. I cannot stress enough that there will be 
real and immediate economic consequences for farmers if we lose 
exports and probably want to emphasize that when we are 
retaliated against, often it is done through countries taking 
action against our agriculture exports.
    The second question: the administration has indicated it 
prefers bilateral negotiations for free trade agreements. Will 
President Trump's administration be approaching NAFTA 
modernization as two new bilateral agreements or an update of 
NAFTA which is, by definition, a trilateral agreement?
    Mr. Lighthizer. I do not think that decision has been made 
at this point, Senator. The administration has not made a 
decision whether to update it as a trilateral agreement or to 
make it two bilateral agreements. We just do not have a 
position on that.
    Senator Grassley. All right. I noticed in your testimony 
that you spent time representing U.S. manufacturing, opposing 
non-
economic expansion of production capacity around the world. I 
have heard a great deal from the U.S. steel industry about 
China's extreme over-capacity for steel production. What do you 
think is the most effective way that the United States can deal 
with problems like excess production capacity in any country, 
but particularly China?
    Mr. Lighthizer. Well, Senator, this is a very difficult and 
sort of intractable problem, and it goes beyond steel, right? 
It is a model that the Chinese use in a lot of different 
industries. To me, the answer is, (1) you have to engage 
bilaterally and multilaterally wherever you are, and there are 
a variety of forums where you can engage with the Chinese to 
try to specifically encourage them to reduce this non-economic 
capacity, this state-encouraged capacity. I think there are 
several forums, which we can talk about, where that is 
appropriate and where progress can be made.
    Then the next thing is, you want to make it less economic. 
It seems to me, that is ultimately where it has to come down: 
it has to be more difficult for them to maintain non-economic 
capacity. That means enforcing our trade laws. To me it means 
encouraging other countries where they could ship product to 
enforce their trade laws, then to try to think of more 
imaginative solutions--the WTO and other places where you can 
actually bring litigation.
    But the overall theme, to me, has to be if a country is 
creating capacity--and as I say, it could be aluminum, it could 
be semi-
conductors, it could be a lot of things--through their 
industrial policy, we have to take it on head-on and go in 
every direction we can to make it more and more expensive to 
keep non-economic capacity which is having this negative effect 
on the global economy.
    Senator Grassley. Thank you, and congratulations on your 
appointment.
    The Chairman. Thank you, Senator.
    Let me see. Who is next here? Senator Scott.
    Senator Scott. Thank you, Mr. Chairman.
    It is good to see you again, Ambassador. Just to continue 
in the same vein that you heard from Senator Grassley as it 
relates to over-capacity, it will be a part of my questions 
specifically as we think about issues of aluminum, steel, and 
other issues. But thank you for coming by the office and 
spending some time. I think we had a good conversation about 
the value of trade and exporting to the South's economy.
    We have done a really good job of becoming the home of over 
6,000 companies that depend largely on exporting. We have 
about, I think it is $2.3 trillion of value that goes through 
our port. About half a million jobs in South Carolina are 
connected to the port, so about one out of every seven jobs is 
connected to the port.
    So it is incredibly important that we continue the 
conversation that we had around new trade opportunities for our 
folks in South Carolina. But specifically, one of the 
challenges that we see at home is this conversation about over-
capacity and how we deal with it, specifically the aluminum and 
the steel markets. It is suggested that there is over-capacity 
because of folks who just are not playing by the rules.
    How would you continue the conversation that you started 
with Senator Grassley on how we specifically deal with that 
issue?
    Mr. Lighthizer. Well, thank you, Senator. I also enjoyed 
our conversation and look forward to working with you, if I am 
confirmed, on this and the other issues that you raised, 
because you raised a variety of issues that were very 
thoughtful.
    To me, the key is to go into--in the case of steel, we have 
something called the Global Forum where you can actually sit 
down with the Chinese and talk about reducing capacity in the 
steel industry. You also have other places where you interact 
with them, enforcing our trade laws, getting other people to 
enforce their trade laws so that they cannot ship uneconomic 
capacity.
    I think we have to see if there is some way we can affect 
what is called sort of upstream dumping, or third-party 
dumping, where they are actually taking non-economic capacity 
and putting it into another product and then shipping that 
product to us. A good example would be steel.
    Senator Scott. If you look at the tools at your disposal, 
if you found WTO to be ineffective, are there other tools that 
you need, that you would recommend, if you are confirmed as our 
Trade Representative?
    Mr. Lighthizer. I have some ideas, but they are probably 
ideas that I am better off----
    Senator Scott. Holding onto?
    Mr. Lighthizer [continuing]. Talking to you and talking to 
the staff about. It is a very, very serious problem for our 
economy.
    Senator Scott. Yes.
    Mr. Lighthizer. I do not believe that the WTO is set up to 
deal effectively with a country like China and their industrial 
policy. I just feel it was never really intended to deal with 
those kinds of situations. So we have to use the tools we have, 
and then I think we have to sit down with members and find a 
responsible way to deal with the problem by creating some new 
tools.
    Senator Scott. Excellent. I look forward to having that 
conversation, perhaps after your confirmation. I know that 
Senator Wyden mentioned the importance of soft lumber to his 
State. It is also very important in the South. I think we are 
responsible for almost one out of every four parts of that 
trade opportunity.
    Specifically, there has been some conversation about our 
position where there is a free trade agreement. Some suggest 
that we have a surplus, others say that we do not. What is your 
position on that?
    Mr. Lighthizer. With respect to a surplus with----
    Senator Scott. Where we have a free trade agreement in 
place.
    Mr. Lighthizer. If you analyze the sort of trade deficit 
situation with free trade agreements, you have maybe three 
categories, I would say. You have surpluses with Canada, 
Australia, and Singapore, and then you have a bunch of 
countries where it kind of goes up and down and the numbers are 
not very large, and then you have Mexico and Korea, and those 
two are large deficit countries. So it kind of varies. With 
respect to some, it has on that basis been effective; with 
respect to others, it has been less effective.
    To me, when I look at deficits, I try to ask myself, what 
is it telling me about the rules of trade as they pertain to 
that country? Because our objective is not just to get the 
trade deficit down. Our objective is to get more efficiency in 
the market, to get rid of trade barriers everywhere.
    Everybody wins, and the United States producers really win 
to the extent we can break down trade barriers. So when I look 
at FTA deficits, I try to put them into categories, and I say, 
``What can I learn from this agreement versus that agreement?'' 
In some cases, the rules do not seem to be working as well as 
with others. That is where I try to learn on that.
    Senator Scott. I think my time is about up, but perhaps my 
last question will be, if you look at the TPP countries, I know 
that the administration has been very clear on staying away 
from multilateral agreements, that perhaps we are in a better 
position to go forward with bilateral agreements. Would you 
envision our country taking a lead in looking for ways to have 
bilateral agreements with some of the partners that would have 
been a part of the TPP?
    Mr. Lighthizer. Absolutely, Senator. That certainly is my 
view. I believe it is the view of the administration. Clearly, 
we want to have a series of bilateral agreements, and hopefully 
ones that take TPP and improve upon what was negotiated, in 
some cases, very well by Ambassador Froman.
    Senator Scott. I think it would be certainly an important 
signal to South Carolina and the many companies that depend on 
opportunities to continue trade.
    Thank you.
    Mr. Lighthizer. Thank you, Senator.
    The Chairman. Thank you.
    Senators Brown and Carper have allowed Senator Casey to go 
next. I should have said Carper and Brown. I apologize.
    Senator Casey. Mr. Chairman, thank you. I owe both Senators 
Brown and Carper something. I do not know what it is, but I am 
grateful that they did that.
    I want to just preliminarily make a statement about the 
miners' health care and pension legislation. We know now that 
we have coal miners across the country, including many in 
Pennsylvania, who might be suffering from Black Lung, or 
cancer, or diabetes.
    They began receiving notices on March 1st that their health 
care would be terminated. In Pennsylvania, that is almost 2,000 
miners. These miners kept their promise, every promise they 
have ever made to the country, to their family, to their 
companies. It is time the Federal Government keeps its promise.
    What we are saying on this side of the aisle to Republicans 
is, just get this Miners Protection Act done, and that of 
course involves in this case, from our point of view, making 
sure that we can get it done now. That would also, of course, 
move forward Mr. Lighthizer's nomination, which I think there 
is broad support for.
    Coal miners and their families do not need to spend any 
additional time--in this case month after month--with the fear 
and the uncertainty of not having health care or the pensions 
that they earned. So we just hope that the committee, as well 
as Majority Leader McConnell and the President, will join us in 
this effort to get both done.
    Mr. Lighthizer, I am grateful that you are willing to put 
yourself forward for service again. We had a good discussion in 
my office a couple of weeks ago, and I am grateful for that 
discussion.
    Just one preliminary question with regard to enforcement. 
If you are confirmed, will you work to enforce both labor and 
environmental obligations of trading partners as vigorously as 
any other obligation?
    Mr. Lighthizer. Yes I will, Senator.
    Senator Casey. I appreciate that.
    I want to spend the remainder of my time on China. Despite 
promises from China in their WTO accession, China continues to 
exercise significant control over both their state-owned 
enterprises and factors of production. This has traditionally 
been executed through state subsidization of both manufacturing 
and exports like steel and aluminum. Rather than curbing these 
activities in response to trade cases, China has expanded their 
reach through new practices that run counter to market 
principles, for example, hacking or cyber-enabled economic 
espionage.
    The cyber-theft of intellectual property and trade secrets 
can have a significant impact on both U.S. innovators and 
manufacturers. Now China, of course, wants market economy 
status at the WTO. Both administrations have not agreed to 
that. This administration, we are told, has said that it will 
continue the stance of the prior administration.
    I am concerned, however, that allies of ours like those in 
the EU may amend their past position on market economy status. 
So, two questions: (1) will you work with the EU and other 
allies to defend the view that China is a non-market--non-
market--economy?
    Mr. Lighthizer. Absolutely, Senator. I have spent a lot of 
time thinking about that, and I completely agree with you.
    Senator Casey. I appreciate that.
    Also, what other areas do you think you will be able to 
work with the EU on with regard to curbing the impact of 
China's market-distorting practices?
    Mr. Lighthizer. Well, I think we have to engage across the 
board with the EU there. They are a potential ally on a whole 
variety of areas, particularly in the antidumping and 
countervailing duty area. So I hope to, if confirmed, spend a 
good deal of time with Europe and with the EU and to enlist 
them in support of the kind of program that you are suggesting.
    Senator Casey. Great. Thanks very much. I am yielding back 
50 seconds.
    The Chairman. Thank you, Senator.
    Senator Brown?
    Senator Brown. Thank you, Mr. Chairman. Thank you, Senator 
Carper, too, for your always agreeableness. It is the Ohio 
State diploma that got you there, I am sure.
    Thank you again, and thank you for the discussion in my 
office and discussions in the past on trade issues, and 
especially your USTR interview, or whatever we call these 
meetings prior to confirmation.
    You know about the steel over-capacity issue, as one of the 
country's experts in the steel industry and steelworkers. Ohio 
has lost 4,900 jobs in iron and steel. Last week, we received 
news that the U.S. steel plant in Lorraine, west of where you 
grew up on Lake Erie, went permanently idle. It is Number Six, 
quench and temper facility.
    Our steel industry, our steelworkers, suffer because our 
trading partners do not play by the rules. China's state-owned 
properties have propped up its steel sector and flooded the 
global market, including our country, with unfairly made steel. 
The same is true, as you know, in aluminum.
    My question is, what does the United States do to get China 
to implement a net reduction of its steel and aluminum 
capacity, and if China refuses to reduce its net steel and 
aluminum capacity, what steps do you take in response?
    Mr. Lighthizer. Senator, first of all, let me thank you for 
your kind words. I do appreciate that. I am proud to be from 
Ohio. I have been to Lorraine, to the Lorraine facility, 
absolutely, so I appreciate that.
    I am glad that Ashtabula, besides your wife and me, has 
Urban Meyer. I am sure there are other people, but they do not 
come to mind. My brother; I guess, my brother.
    We have talked a little bit about this issue of Chinese 
over-
capacity in steel and aluminum, and it is something that is 
troubling to me not just because of those products, but because 
it is a model for the Chinese industrial policy. To some 
extent, we have sort of two models, two economic models: one is 
the one that we want and espouse and one is a different one, 
which is one of more state control and state involvement. In 
many cases, it is non-
economic.
    What I have said is, we have to have kind of a 
comprehensive approach on this. We have to, one, address, in 
the various forums that we have, the Chinese over-capacity 
issue and push back on that. Some of those discussions have 
possibilities for results. The global forum would be a good 
example, although personally I do not think that is going to be 
the only answer.
    The second thing is really going to be enforcing our own 
trade laws. The third thing I suggest is that we get others to 
enforce their trade laws, all with an effort to make the 
maintaining of uneconomic capacity and the creation of 
uneconomic capacity, which is, in the state of the field, 
massive. I mean, it is hundreds and hundreds of millions of 
tons of excess capacity, many times the United States' total 
capacity.
    Then third, I think we have to sit down and have private 
discussions where we try to think about what other remedies we 
have. To me, the objective is to make it uneconomic, to make it 
expensive to do something that adds inefficiency in the market 
and has such a negative effect on the United States and, quite 
frankly, steel producers in other parts of the world.
    So it is a multi-faceted approach that I would recommend, 
but I think part of it is going to be sitting down and deciding 
whether we need new remedies ourselves and what those remedies 
would be.
    Senator Brown. And we would like to work with you to figure 
that out.
    I have one other question. Two days after the election, I 
called my long-time friend Dan DiMicco, who is sitting here, 
but also was heading the President's trade team then for the 
transition, and talked about TPP and USTR and trade enforcement 
and renegotiating NAFTA, a whole host of issues, and followed 
up with a letter asking the administration to make it a 
priority to re-set U.S.-China trade relations.
    First of all, should that be a priority in this 
administration with you as U.S. Trade Representative, and 
second, what steps do you take to make the U.S.-China trade 
relationship more balanced overall?
    Mr. Lighthizer. Well, first of all, the easy answer is 
``yes,'' it really should be a priority. If you look at our 
trade deficit as an indicator--not the only indicator but as an 
indicator--of what is going on in the global economy, China is 
a good part of our problem, a substantial part of our problem.
    I think we have to engage China and we have to talk to 
China, but I think we also have to think about some new 
remedies. We have to strongly enforce our trade laws. That 
probably means self-initiating cases. We have done a pretty 
good job, I think, in the steel industry under Dan and others' 
leadership. But I think we have to do it in other products 
also, and then I think we have to think of a more systemic 
approach.
    Some of that may be going to the WTO or taking other 
actions to engage. I think this President is very focused on 
this issue. I think his views on this subject--I mean, I do not 
know his views, but I believe they are very close to yours in 
terms of the degree to which this is a problem and how it has 
to be addressed.
    So, I mean, I am eager to work with this committee and the 
Ways and Means Committee to find a responsible way to address 
this problem, this chronic imbalance.
    Senator Brown. Thank you.
    Mr. Chairman, thank you.
    The Chairman. All right. Senator Carper?
    Senator Carper. Thanks very much.
    Welcome. Whenever I pronounce your name, I either want to 
call you Lighthowser or Budweiser. I just keep going between 
the two. [Laughter.]
    Mr. Lighthizer. I will tell you, Senator, you are not the 
first person who has had that problem.
    Senator Carper. Whatever we should call you, we are glad 
you are here. Thanks. It sounds like your voice is not as 
strong as it once was, and we are looking for you to have it be 
a strong voice to make sure that American exports make their 
way into markets all over the world.
    Senator Brown mentioned that I was an Ohio State graduate. 
I was Navy ROTC there and graduated in 1968, right in the 
middle of the Vietnam War. I became a naval flight officer and 
headed to Southeast Asia and served about three tours over 
there with my compadres before coming home.
    I was invited by the President--I actually went back to 
Vietnam. About 1991, I went back to Vietnam. I led a 
congressional delegation of Vietnam veterans to try to find out 
what happened to thousands of our MIAs and to try to get the 
truth out of the Vietnamese. The idea was that if they would 
provide information, that it would provide closure for 
thousands of American families. We moved toward normalized 
relations; they did and we did.
    The President asked me to go back with him. President Obama 
asked me to go back with him last April, and I was honored to 
do that. I met with some of the people I actually met with all 
those years ago in 1991. The President announced when over 
there that we had decided to sell weapons to the Vietnamese so 
they would not have to rely just on the Chinese and just on the 
Russians.
    The Vietnamese, for themselves, said they would like to buy 
a lot of our aircraft and they wanted to buy, oh, gosh, $10, 
$15 billion worth of aircraft, passenger aircraft, not 
weaponry, although they will probably buy some others that are 
more defense-related.
    We have the opportunity to sell a lot of aircraft. Boeing 
has the opportunity to sell a lot of aircraft to another 
country with whom we have been at odds, and that country is 
Iran, as you know. Boeing has an opportunity to sell anywhere 
from--I have seen as little as $8 billion to as much as $15 
billion in product to Iran, commercial aircraft to replace 
their badly deteriorated civilian airlines.
    But also Airbus has the opportunity to sell another $10 
billion to Iran, and a lot of the components, as you know, for 
Airbus products are made in America. All told, I am told there 
are enough aircraft that could be sold, between Boeing and 
Airbus, to employ tens of thousands of Americans.
    My question of you is, is this something we ought to allow 
to happen? My view, quite frankly, as you might tell, is 
``yes,'' as long as they continue to abide by the P5+1 
agreement that was struck. What is yours? Go ahead. Thanks.
    Mr. Lighthizer. I was going to say, my view is that the way 
to get rid of trade deficits and move the economy forward is 
through exports. I mean, exports, exports, exports. I think 
that is what we are hoping for. In terms of specific sales of 
airplanes to specific countries, I am not informed enough about 
what the administration's policy may be. As a general matter, I 
strongly agree with you. I think we have to encourage exports. 
Exports are the key to trade. Exports and enforcement, that is 
what we have to do.
    Senator Carper. All right. Thanks.
    Well, my hope is that if you are confirmed--I suspect you 
might be--this is one that you will go to school on. I would 
urge you to do that. A lot of jobs are involved here, good 
jobs, as you know.
    The second thing, and you and I were able to talk--and 
thanks for visiting me in my office several weeks ago when you 
had a stronger voice----
    Mr. Lighthizer. I did.
    Senator Carper. But one of the things we talked about was, 
do we need to renegotiate NAFTA all over again or can we look 
at the Trans-Pacific Partnership to see what was done in the 
context of TPP to renegotiate NAFTA? My suggestion was, do we 
go to school on what Ambassador Froman and his folks worked on, 
what they accomplished, and see if maybe we can do a shortcut 
on a NAFTA redo? Your thoughts, please.
    Mr. Lighthizer. I agree completely with you on that. I 
think Ambassador Froman did a remarkable job in a variety of 
areas and that we should take advantage of that work. So I am 
in total agreement with you on that.
    Senator Carper. Good. Thank you.
    A lot of people--there is a lot of talk these days about 
building a wall along our border with Mexico. A lot of people 
think that folks who are coming into the United States are 
Mexican. They are not. There are actually more Mexicans, as I 
think you know, going back from the U.S. into Mexico than are 
coming the other way.
    NAFTA worked actually pretty well for the Mexicans, I am 
told. They have a more vibrant middle class than they did 20 
years ago. I think Mexico is now maybe our top customer for 
American poultry in the whole world. Canada maybe is among the 
last, among the worst.
    They slapped a tariff--I think it is something like a 200-, 
250-percent tariff on poultry, and it takes away a lot of 
incentive to try Delmarva chicken when you have that kind of 
tariff. Your thoughts on fixing that kind of imbalance, if we 
have the chance to renegotiate NAFTA?
    Mr. Lighthizer. Well, I had not realized they had that high 
a tariff. I agree that it is something we should look at. I am 
sympathetic to anything that has the potential to lead to more 
U.S. exports. So I am in agreement with you, Senator. I think 
it is something that, when we sit down with Canada, we should 
raise, and a variety of other subjects which have been raised 
by various members of the committee during the course of this 
process.
    Senator Carper. All right. Thanks.
    Mr. Chairman, am I done? Is my time expired?
    The Chairman. Yes, your time is up.
    Senator Carper. Do you want me to ask one more?
    The Chairman. I think you have asked quite a bit.
    Senator Carper. All right. We will talk some more about 
Vietnam, if we could, later on. I have in my pocket some Halls 
throat lozenges, and, as I leave here, I am going to leave them 
right beside you. If they come of some service, you can always 
thank me in the future----
    Mr. Lighthizer. Thanks.
    Senator Carper [continuing]. When we negotiate on chickens.
    Mr. Lighthizer. I appreciate that.
    Senator Carper. Thank you.
    The Chairman. You had better take him up on that. They do 
not give very often, the Democrats, you know. [Laughter.]
    I take that back. We have a lot of big spenders on this 
committee.
    Senator Cassidy?
    Senator Cassidy. Thank you, Mr. Chairman.
    Mr. Lighthizer, I enjoyed our conversation in my office. 
Now, one thing you have mentioned--I think you will know the 
numbers; I do not quite know them--is that when we signed 
NAFTA, we perhaps had a trade surplus of about $5 billion, and 
now it is a negative $60 billion, something along those lines. 
I mentioned that to someone--and you spoke of the manufacturing 
jobs that have moved to Mexico.
    I mentioned that to someone else, and they said the reason 
some of those car companies moved to Mexico is that Mexico has 
a trade agreement with both the EU and the United States that 
allows goods to move back and forth without tariff, and the 
United States does not. So for some of these vehicles, if they 
were produced in the United States, we could not export them to 
Europe because there would be a tariff upon them. Again, there 
is not one in Mexico.
    So, as we hopefully move manufacturing back to the United 
States--which I am a big fan of--nonetheless, it does seem as 
if it is trade policy in Mexico that is advantaged relative to 
ours which is the driver of that, rather than another factor. 
Any thoughts on that?
    Mr. Lighthizer. I certainly think that we have to look at 
issues like that. I certainly agree with that, Senator. But I 
suspect that when we do the analysis, the vast majority of the 
cars that are made by American manufacturers in Mexico will end 
up right here in the United States.
    Senator Cassidy. So the duality of the market is less than 
it might seem because the lion's share is coming here?
    Mr. Lighthizer. That would be my guess. I have not studied 
the issue, but that would have been my guess, that the lion's 
share of the automobiles made in Mexico will end up coming to 
the United States. I think that is their business plan. But I 
say that without having specifically studied that issue.
    Senator Cassidy. As you might guess, there is a lot of 
existential anxiety among my agricultural producers, and they 
are afraid that if we modernize the NAFTA act--or put it this 
way: Mexico has made some statements which suggest that they 
would retaliate if we attempt to push them too far.
    In the one sense, I understand that there is an 
international market for commodities, but I gather that 
things--products, say for example rice--are somewhat advantaged 
under NAFTA, and so it actually benefits them.
    So what would you say to my rice farmer who is concerned 
that there will be retaliation and that they will now be 
competing against Vietnam, which might have a state-owned 
enterprise selling rice at a discount relative to what our rice 
producers can do?
    Mr. Lighthizer. Well, Senator, as we discussed in your 
office, I hope and believe we can renegotiate NAFTA in a way 
that helps both countries and does not put agriculture in a 
precarious position. I realize the anxiety and the concern, and 
I understand it, but I think that there is a general consensus 
that NAFTA needs revision. It is clearly outdated at this 
point. During the course of that negotiation, I think we have 
to be very careful not to do something that adversely affects 
those who have been winners during the course of that process.
    Senator Cassidy. Let me ask this: the energy portfolio or 
the energy portion of NAFTA is fairly thin. Back then, there 
was not a lot of cross-border energy trade. There is apparently 
a lot now, both electrons, gas, and oil. Will we just kind of 
leave that alone, do no harm, or do you have any thoughts in 
particular about what might be done to work out that to each 
country's mutual advantage?
    Mr. Lighthizer. Well, I do not have specific thoughts on 
that point. I would say that anything that encourages trade is 
a good thing, probably for both countries. I would say that at 
this point we have fairly balanced trade on petroleum generally 
with Mexico specifically, so it is part of the agreement that 
we will have to focus on. But I do not have specific ideas on 
negotiating that right now.
    Senator Cassidy. By the way, I will point out that, in 
Louisiana, they are building a lot of LNG export terminals, and 
I am struck that there are a lot of refiners from elsewhere 
that are building on the Mississippi using low-cost natural gas 
to make a value-add which they then export.
    So, a quick win for the administration would be just to 
expedite the production of those LNG export facilities, with 
multiple benefits, including more jobs here at the wellhead, as 
well as more construction jobs exporting, and more maritime 
jobs transporting, as well as, if they are substituting it for 
Chinese coal, it actually helps clean up the atmosphere, just 
to point that out.
    Lastly, some expressed a concern about--Senator Carper 
mentioned that NAFTA has brought a burgeoning kind of Mexican 
middle class, which in turn has become a new market if you 
will, or developing market, for U.S. goods, including gas, 
including oil, including you name it. And there is concern that 
if we are not careful how we do this, that middle class would 
suffer. The value of the peso, I think, is already falling. 
Will they continue to be able to afford to buy the goods that 
we are currently sending? Any thoughts on that beyond needing 
to be careful that it does not occur?
    Mr. Lighthizer. I think we have to be careful it does not. 
[Laughter.]
    Senator Cassidy. All right. Thank you. I yield back.
    The Chairman. Thank you, Senator.
    Senator Thune?
    Senator Thune. Thank you, Mr. Chairman.
    I know it has been said many times, many ways already at 
this hearing, and there have been several of my colleagues who 
have talked about it, but when it comes to agricultural trade, 
I cannot emphasize enough, representing a State where 
agriculture is our number-one industry, that agricultural trade 
must be at or near the top of your trade agenda.
    In terms of today's agricultural climate, we have a lot of 
producers that are counting on tariff reductions and expanding 
export markets with existing and new trading partners as the 
only near-term relief for countering crop and livestock prices 
that are below production costs.
    There has already been some discussion, including with the 
Senator from Louisiana, about the NAFTA agreement, but Canada 
and Mexico are very important agricultural trading partners.
    I know you did not want to get into specifics, but I would 
encourage you if you can to get specific on how you intend to 
improve what is in existence under NAFTA. Do you have a time 
frame? Do you intend to negotiate separately with each of those 
countries, or are they going to be all part of one agreement? 
Can you be that specific?
    Mr. Lighthizer. Well, Senator, the decision as to whether 
it should be trilateral or bilateral really has not been made 
at this point. I think the administration is very eager to 
engage quickly on this agreement. There are certain time frames 
that are required under TPA, and we are in the process of 
hopefully doing those consultations. I look forward, if 
confirmed, to being involved in that process.
    But there is a whole consultation process and a time period 
that is layered on top of that, but the administration's stated 
objective is to do this as quickly as possible. There is 
uncertainty and anxiety, and so minimizing that is in 
everyone's interest.
    Senator Thune. This has been covered already by Senator 
Wyden. He and I teamed up on some digital trade issues, and 
they were a top negotiating priority for American diplomats 
under the TPP. I hope that that will continue to be a very high 
priority.
    Coming back to agriculture for a minute, helping our 
companies expand their ability to compete and tap into foreign 
markets, as I said earlier, is critical. As those companies 
make investments in products that can enjoy greater global 
consumption, it is essential that our competitors not be 
permitted to plant road blocks in the way.
    For instance, in the past few years the European Union has 
been using its trade agreements to misuse the concept of 
geographical indications by erecting de facto non-tariff trade 
barriers to U.S. products made in South Dakota, such as 
parmesan and asiago cheese.
    How do you see yourself shaping the United States' approach 
to foreign policies like this that are intentionally aimed at 
promoting global rules aimed at choking off competition from 
U.S. companies around the world?
    Mr. Lighthizer. Well, I am very familiar with the issue. It 
seems to me it is an organized effort on behalf of the European 
Union, and I think we have to take it head-on. We want to 
discourage other countries from agreeing to these geographic 
indicators and resist them in the United States.
    The issue tends to be more what happens in third-party 
markets, so it is a little more complicated to get into it. But 
we are aware of it, and it will certainly be something that we 
will work on. We realize it is a serious problem.
    Senator Thune. We also have seen a disturbing trend in 
recent years whereby some of our trading partners have ignored 
their international commitments, particularly with respect to 
intellectual property protection, either by failing to fully 
implement agreements or by flouting the rules in order to give 
their businesses an unfair advantage. These decisions are 
short-sighted and ultimately discourage innovation, investment, 
and job growth.
    What can your agency do to ensure that our trading partners 
are enforcing existing commitments and to deter countries from 
weakening such standards in their own IP regimes?
    Mr. Lighthizer. We talked a little bit about intellectual 
property protection, and it will be a priority of USTR, if I am 
confirmed. We realize--I realize--how important it is, and 
intellectual property theft, weak enforcement of patent 
protection, and the like are very serious impediments to adding 
efficiency and healthy U.S. trade.
    Senator Thune. Mr. Chairman, I think that is all I have.
    I appreciate your time, Mr. Lighthizer. Again, I cannot 
emphasize enough the importance of agriculture. As you start 
looking at what we are going to do in the place of TPP and how 
you are going to approach NAFTA, I hope you will keep that 
issue as a very, very high priority.
    Mr. Lighthizer. Thank you. I will.
    Senator Thune. Thank you.
    The Chairman. Thank you, Senator.
    Senator Bennet is next, then Senator Cantwell.
    Senator Bennet. Senator Cantwell can go first.
    The Chairman. We appreciate you doing that. Senator 
Cantwell?
    Senator Cantwell. Thank you. Thank you, Senator.
    Mr. Lighthizer, thank you for being here. Congratulations 
on your nomination. Since I know that you are familiar with 
this committee, I would like to throw a lot at you at once, if 
I could. So, thank you.
    One, I want to know whether you support the Export-Import 
Bank and the concept of a credit agency for the United States 
and whether the President should immediately appoint people to 
get it functioning at the level it should.
    Number two, will you be aggressive in getting the Europeans 
to stop massively subsidizing Airbus? You know that the WTO has 
found in the aerospace sector, $17 billion of illegal 
subsidies. That brings the total of illegal European subsidies 
to Airbus to about $22 billion, so I want to know if you are 
going to be aggressive on that.
    Our colleagues here, in the Trade Facilitation and Trade 
Enforcement Act, included an authorization for $15 million in 
trade enforcement trust funds, and that was for making sure 
that we had ample support within USTR to actually fight for 
trade enforcement.
    I believe in an economy outside of the United States 
selling U.S. products. In fact, I was very happy the last 
administration had a goal of doubling exports, but I know that 
we also need to have the personnel. So do you support the trade 
enforcement trust fund, and what should its annual 
appropriations be so that we are adequately staffed?
    If I could, just one last theoretical question. I have met 
Mr. Navarro, I have heard Secretary Ross talk about trade, and 
then there is your position. Who is going to be in charge of 
trade?
    Mr. Lighthizer. Thank you, Senator. That about covers all 
my talking points. [Laughter.]
    Senator Cantwell. I heard what Senator Dole said, that you 
are very talented, so I am sure you are up to the task.
    Mr. Lighthizer. Well, he is kind. I would say, first of 
all, in terms of--I will just sort of start from the bottom, 
perhaps. In terms of the relationship between the White House, 
the Commerce Department, and the USTR, I fully expect to have 
the full statutory authority that the Congress provides.
    I fully expect to work in a collaborative way with 
Secretary Ross, whom I admire and I think is very, very 
talented in this area, and the White House. Now, the White 
House is defined as Pete Navarro and other people; I mean, 
there is Gary Cohn and others.
    In all my experience with one administration after another, 
there are almost always going to be three forces of influence 
in the trade policy, and the job of the USTR really is 
historically to sort it out. That is why----
    Senator Cantwell. So you are the lead in sorting that out, 
more or less?
    Mr. Lighthizer. Just sort of sorting it out. That is 
correct. I mean, historically that is why John Kennedy started 
the agency, along with the Senate Finance Committee and the 
Ways and Means Committee, in 1962. So I expect it to work the 
way it has. I think they are very cooperative. I look forward 
to working with all the parties on that, and particularly 
working with this committee and with the Ways and Means 
Committee.
    In terms of the trust fund, yes, I hope that the 
appropriations--I hope the $15 million is appropriated. In 
terms of resources generally, I am not now in the 
administration, so I can say that, yes, we need more resources 
for sure.
    Senator Cantwell. Thank you.
    Mr. Lighthizer. The agenda is substantial.
    Senator Cantwell. Some of my colleagues wanted it 
mandatory. I just want us to put the money there. I want to 
have more people in trade enforcement than are sitting on this 
dais, and right now we do not have a lot. So I am glad you are 
committing to $15 million. Thank you.
    Mr. Lighthizer. Thank you, Senator.
    In terms of Airbus subsidies, yes, I will be aggressive. I 
realize that is a problem. I have followed the issue for a long 
time. I have never really litigated or been involved with it, 
but it is a serious problem. It is one that has gone on and on 
and on, and it has a real impact on American manufacturing.
    In terms of the Export-Import Bank, at this point I am 
awaiting instructions. I appreciate the importance of the 
Export-Import Bank to Boeing and to other companies in U.S. 
exports. Having said that, that is one of those issues that 
there are strong views about on both sides, and I expect to do 
what the President instructs me to do when he instructs me to 
do it.
    Senator Cantwell. So you do not think, as part of our trade 
agenda, that we can--do you think we can be successful without 
an aggressive credit agency approach by the U.S.?
    Mr. Lighthizer. I think we have to do everything we can to 
encourage exports. Having said that, the Export-Import Bank is 
a sensitive issue, and it is not an issue that I have worked on 
personally.
    Senator Cantwell. Can you just define ``sensitive,'' since 
I am running out of time?
    Mr. Lighthizer. Well, I think I define sensitive as having 
people who are strongly for it and people who are strongly 
against it. Normally in those cases, when I am not informed and 
realize that the administration will make a policy, I am 
probably better off waiting for the administration to make the 
call.
    Senator Cantwell. I would just say that there is a very 
small group who is politically motivated and may be loud, but 
when you allow the U.S. Senate to vote on it--both majorities 
in the House and Senate have supported it, and majorities of 
Republicans have supported it.
    So the notion that somehow it does not have major support--
it is more just being held hostage by some political agenda. So 
I hope you will be loud about this, the credit agency strategy, 
because to me we will lose U.S. manufacturing without it.
    If Boeing can put Rolls-Royce engines on a plane and get 
credit financing in Europe, how is that helping GE? So while 
other agencies on an international basis are going to be 
aggressive about this, we need to get the right strategy here.
    It can be a discussion about how we make sure that we are 
not doing anything to distort the market, but I think the 
administration has to get realistic. You cannot go stand in 
front of a Boeing plane in South Carolina and then not have a 
functioning Export-Import Bank, so I hope we can get there.
    The Chairman. Thank you, Senator.
    Senator Bennet?
    Senator Bennet. Thank you, Mr. Chairman. I thank you and 
the ranking member for having this hearing.
    Thank you, Mr. Lighthizer. It is nice to see you again. I 
just want to underscore what the Senator from Washington ended 
with, and I think you will find that her diagnosis or 
description of the politics around this is probably dead-on.
    I also want to say, Mr. Chairman, I look forward to working 
with you and the ranking member to figure out a bipartisan way 
through this waiver process that is needed. I want to also 
mention--I know you have covered this ground, and I know I am 
the last one and I am sure you are ready to be done, so I will 
not ask you a question about steel, but I do want to just 
observe, as my colleagues have, that over-capacity from 
countries like China and others is hurting our industry, 
including EVRAZ in Pueblo, CO.
    So we talked about this a little bit when you were in my 
office. I know what your answer is, and I appreciate it and 
look forward to working with you to make real changes that are 
going to benefit our steelworkers and our steel industry in 
this country.
    I want to just get one question in on NAFTA before you go. 
As you know and you have talked about today, the administration 
throughout the campaign signaled that it intended to 
renegotiate NAFTA. This is very important to my State. Mexico 
is the second-largest export market for the State of Colorado, 
and it is particularly interesting and important to my farmers 
and ranchers. Colorado's agricultural community depends heavily 
on exports to NAFTA countries. For example, last year Colorado 
exported more than $486 million in beef, pork, and lamb to 
Canada and Mexico. Canada and Mexico alone accounted for a 
third of Colorado's beef exports.
    Agricultural producers in Colorado are worried. They are 
interested and curious about this re-opening, but they are 
worried that opening up NAFTA will lead Mexico and Canada to 
impose higher tariffs and that the flow of goods will be 
physically stalled by the negotiations. They are also worried 
that renegotiating NAFTA will limit important market access 
that the United States currently enjoys, notwithstanding the 
political conversation that we have had in this country.
    I wonder if you could just finish today by responding to 
that a little bit, and also talking as you did, or 
distinguishing as you did when we met in my office, between 
your views and the President's views on the manufacturing side 
of things with respect to trade and your views and his views 
with respect to the importance of trade for agriculture in this 
country.
    Mr. Lighthizer. I cannot speak to the President's views.
    Senator Bennet. All right. Well then, just speak for 
yourself.
    Mr. Lighthizer. I think that we have to do something for 
manufacturing. We have a huge manufacturing trade deficit, and 
I think we have to do something. There are a variety of things 
in the NAFTA framework that need updating. I think those things 
will tend to help manufacturing.
    Then your position, which I think is equally valid, is that 
agriculture has done pretty well under NAFTA. That is true for 
a variety of different agricultural products. We have to be 
careful not to lose what we gained, and that is a balance. I 
think something has to be done. I think we can actually 
accomplish that.
    I think we are very important to Mexico also, and I realize 
they have other options, but a huge percentage of their exports 
come to the United States. So I think we do have leverage. With 
that leverage, I think if we do it properly and rationally, we 
can improve NAFTA for both countries and also not hurt 
agriculture, and that certainly would be my objective.
    I know it is the objective of an awful lot of members of 
this committee and a lot of members of the Ways and Means 
Committee and others in Congress, so I subscribe to that view. 
I do believe it can be done. I am not suggesting that I think 
it will be easy, but I do believe it can be done.
    The United States and Mexico both need each other 
economically a lot, and having an agreement that is 20-some 
years out of date--it does not even have a digital chapter in 
it, because there was no need for that in those days--I think 
that is something that we can do in a way that helps both of us 
and does not risk damage to our agricultural sector, which is 
also very, very important.
    Senator Bennet. I appreciate that answer. I would say that 
even in the act of negotiation we are going to have to take 
care that the current markets continue to be open the way that 
they have been, and I know you appreciate that.
    Mr. Chairman, I will yield back the balance of my time. 
Thank you for the hearing.
    The Chairman. Thank you, Senator.
    My partner on the committee has one more question to ask. 
Senator Wyden?
    Senator Wyden. Let me, if I might, go into this resources 
for enforcement issue just a little bit deeper. Mr. Lighthizer, 
is cutting enforcement resources not an invitation to 
foreigners to cheat our workers and businesses? It seems like a 
simple question.
    Mr. Lighthizer. It seems like kind of a trap question, does 
it not somehow? [Laughter.]
    The Chairman. You think? You think? [Laughter.]
    Senator Wyden. It relates to the second question.
    Mr. Lighthizer. I am just asking myself, if it is a trap, I 
should probably think about it. [Laughter.]
    Senator Wyden. Well, it is a substantive question, because 
it relates to the real world. We keep battling for these 
resources. I have already told you, I very much enjoyed our 
conversation. I think you have a lot of talent. But I would 
like an answer to the question because it relates to what is 
ahead.
    Mr. Lighthizer. Senator, I think USTR needs more resources.
    Senator Wyden. Good. If there are fewer resources for trade 
enforcement in the President's budget, which is about to come 
out, how do you go about addressing the challenges? We spent 
close to 3 hours talking about that.
    Mr. Lighthizer. Well, Senator, we are going to do the best 
that we can with what we have. I am not in the administration. 
I wish I was. If I were in the administration, I would be in 
there lobbying right now for more resources for USTR. I am not 
in the administration, so I really cannot get into that. My 
view, publicly stated, is that we need more resources for USTR 
and, with whatever we have, we will do the best job we can do.
    Senator Wyden. I think that, again, the point is, these are 
questions that bump up against the realities that Senators are 
talking about. For example, one of the things I was struck by--
I think we talked about it in the office--was on this question 
of finally getting a fair shake for our timber workers and our 
mills. We have a situation where the hiring freeze is making it 
very hard for them to get all the data they need in the 
provinces of Canada. So I am just going to operate under the 
assumption that you are going to fight with all of your energy 
and considerable talent to make sure you get the resources, and 
we will leave that there.
    Since it is the end of the hearing, I would just come back 
to this point that, in my State, one out of five jobs revolves 
around international trade. I think the premiere economic issue 
of our time is how we get wages up for people. How do we 
increase wages? So many of the trade jobs have that value-added 
component. They reflect a higher level of productivity because 
we are trying to get the products into tough global markets.
    So I think to have you, as you have said today, indicate 
you will be part of a full-court press on enforcement and that 
you will play offense in terms of creating opportunities for 
our companies and our workers overseas, is an appropriate way 
to end this.
    Mr. Chairman, I have a unanimous consent request to put two 
documents in the record with respect to this disclosure issue. 
We have a bipartisan disclosure memo on the nominee that has 
been prepared by the bipartisan committee staff. Then I would 
like to ask unanimous consent to enter into the record an 
agreement between Mr. Lighthizer and the Government of Brazil 
in which he represented the Sugar and Alcohol Institute.
    The Chairman. Without objection.
    [The documents appear in the appendix beginning on p. 119.]
    Senator Wyden. Thank you.
    Mr. Lighthizer, we look forward to continuing the 
conversation in the days ahead, and we thank you for your time 
today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I just want to thank all my 
colleagues who attended today and participated today. Most 
especially, I want to thank you, Mr. Lighthizer. You have been 
a light around here for many years, and we appreciate all the 
work that you did while you were here, working with Senator 
Dole and others, and all the work you have done since. But 
thank you for your appearance here today, and most of all for 
your willingness to again serve our country in this important 
position.
    I personally think it is terrific for you to be willing to 
get into this and to give your life to it. It just means a lot 
to me.
    Before I adjourn, I just want to note that we will have the 
customary quick turn-around time for written questions for 
Cabinet-level nominations. I will ask Senators to submit all of 
their questions by 6 p.m. tomorrow evening.
    With that, the committee will be in recess.
    [Whereupon, at 4:34 p.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


              Prepared Statement of Hon. Michael B. Enzi, 
                      a U.S. Senator From Wyoming
    Mr. Chairman, during this hearing, a number of my colleagues 
referred to health care and pension benefits for miners in the United 
Mine Workers of America union. References were specifically made to the 
Federal Government keeping its ``promise.'' I feel it necessary to 
remind my colleagues that the Congressional Research Service has said 
that the Krug-Lewis Agreement is not a Federal promise for health care 
or pension benefits. Congress has provided for health-care benefits via 
statute in the past; I helped write one of those laws in 2006. However, 
the agreement that is often cited by my colleagues as the ``promise'' 
didn't impose an obligation on the Federal Government to provide health 
care or retirement benefits. Because I have heard a lot of 
misinformation about this ``promise,'' I asked the nonpartisan 
Congressional Research Service to draft a legal review about the 
matter. CRS studied the issue and concluded the Krug Lewis Agreement 
``does not appear to have imposed an obligation on the Federal 
Government to provide such benefits.''

    I have included the CRS legal review for the committee record.

    I would very much like to continue working with this committee to 
address the UMWA's health-care concerns, and I know that issue is 
pressing. We can, and should debate this topic. However, I have some 
concerns with the Miners Protection Act. Congress should not provide 
Federal funding to a private pension plan. There are over 1,200 
underfunded multiemployer pension plans. Once one pension plan receives 
special treatment, all of the others, including plans comprised of 
truckers that we've heard about recently, will come forward asking for 
their check from the American taxpayer. Proponents of the Miners 
Protection Act also say that they're using interest from the Abandoned 
Mine Land trust fund to shore-up the pension plan, but that fund hasn't 
covered the cost of the UMWA health-care plans since 2008. In reality 
this bill extends Customs user fees, which are supposed to pay for 
Customs and Border expenses, and claims that money going into the 
Treasury covers the cost of this bill. This is just another case of 
robbing Peter to pay Paul.

                                 ______
                                 
Congressional Research Service

INFORMING THE LEGISLATIVE DEBATE SINCE 1914

MEMORANDUM

                                                     August 8, 2016

To:  Senate Committee on Health, Education, Labor, and Pensions
    Attention: Hon. Michael B. Enzi

From:  Jon O. Shimabukuro
       Legislative Attorney
       American Law Division

Subject: Krug-Lewis Agreement
_______________________________________________________________________

This memorandum responds to your request concerning the so-called 
``Krug-Lewis Agreement,'' a 1946 agreement between then Secretary of 
the Interior Julius A. Krug and John L. Lewis, then President of the 
United Mine Workers of America (``UMWA'').\1\ The Krug-Lewis Agreement 
provided for the creation of a mine safety code, required the presence 
of a mine safety committee at every mine, and provided for the 
establishment of a health and welfare program to benefit mine workers 
and their dependents.\2\ You asked whether the federal government has 
an obligation to provide either health or retirement benefits to mine 
workers based on the Krug-Lewis Agreement. This memorandum examines the 
agreement, which was effective between May 22, 1946 and June 30, 
1947.\3\
---------------------------------------------------------------------------
    \1\ The National Bituminous Wage Agreement, commonly known as the 
``Krug-Lewis Agreement,'' was included in a September 25, 1991, hearing 
conducted by the Senate Subcommittee on Medicare and Long-Term Care. 
See ``Coal Commission Report on Health Benefits of Retired Coal Miners: 
Hearing Before the Senate Subcommittee on Medicare and Long-Term 
Care,'' 102nd Cong. 80-82 (1991).
    \2\ The Krug-Lewis Agreement also preserved the terms and 
conditions of employment included in certain specified agreements, such 
as the National Bituminous Coal Wage Agreement (dated April 11, 1945). 
See Krug-Lewis Agreement Sec. 1, supra note 1.
    \3\ See House Committee on Ways and Means, 104th Cong., Development 
and Implementation of the Coal Industry Retiree Health Benefit Act of 
1992, 119 (Committee Print 1995) (identifying the period of 
effectiveness for the Krug-Lewis Agreement as between May 22, 1946 and 
June 30, 1947); Lewis v. Jackson and Squire, 86 F. Supp. 354, 356 (W.D. 
Ark. 1949) (indicating that the period covered by the Krug-Lewis 
Agreement ended on June 30, 1947).

The execution of the Krug-Lewis Agreement followed the seizure of the 
nation's coal mines in 1946. In response to existing and threatened 
strikes by mine workers, President Truman issued Executive Order 9728, 
which directed the Secretary of the Interior to operate the nation's 
coal mines.\4\ According to the order, federal control of the mines was 
necessary because the production of coal ``was indispensable for the 
continued operation of the national economy during the transition from 
war to peace[.]'' \5\
---------------------------------------------------------------------------
    \4\ Executive Order No. 9728, 11 Fed. Reg. 5593 (May 21, 1946).
    \5\ Id.

The Krug-Lewis Agreement was executed eight days after the issuance of 
Executive Order 9728. By its own terms, the agreement covered the terms 
and conditions of employment for mine workers only ``for the period of 
Government possession[.]'' \6\ The health and welfare program 
prescribed by the agreement would consist of three parts: (1) a welfare 
and retirement fund to be financed by five-cent payments on each ton of 
coal produced by mine operators for use or sale; (2) a medical and 
hospital fund that would be financed by wage deductions that were 
already being made and by any additional deductions authorized by the 
UMWA and its members for medical, hospital, and related purposes; and 
(3) an effort by the trustees of both funds to cooperate and coordinate 
in the development of policies and working agreements necessary for the 
effective operation of each fund.\7\ Notably, the agreement did not 
provide for federal financial contributions to either the welfare and 
retirement fund or the medical and hospital fund.\8\
---------------------------------------------------------------------------
    \6\ Krug-Lewis Agreement, supra note 1.
    \7\ Id. Trustees of the welfare and retirement fund were to make 
coverage and eligibility determinations, and establish benefit amounts 
and the methods for providing benefits. Trustees of the medical and 
hospital fund were to provide for the availability of medical, 
hospital, and related services for mine workers and their dependents.
    \8\ Compare Krug-Lewis Agreement, with Tax Relief and Health Care 
Act of 2006, div. C, tit. II, subtit. B, Sec. 212, 120 Stat. 2922, 3023 
(2006) (authorizing transfer of reclamation fees collected by the 
Secretary of the Interior to the United Mine Workers of America 
Combined Benefit Fund, the United Mine Workers of America 1992 Benefit 
Plan, and the Multiemployer Health Benefit Plan).

In April 1947, the UMWA began negotiations with mine operators in 
anticipation of the mines being returned to their owners.\9\ A new 
agreement became effective on July 1, 1947, one day after operation of 
the mines was returned to the owners.\10\ The National Bituminous Coal 
Wage Agreement of 1947 addressed various conditions of employment for 
mine workers.\11\ The agreement also established the United Mine 
Workers of America Welfare and Retirement Fund (``W&R Fund''), which 
was modeled after the funds described in the Krug-Lewis Agreement.\12\ 
Unlike those funds, however, the W&R Fund was financed by ten-cent 
payments per ton of coal produced by mine operators for use or 
sale.\13\ The W&R Fund represented a merger of the two funds described 
in the Krug-Lewis Agreement by providing for the availability of 
medical, as well as retirement, benefits.\14\
---------------------------------------------------------------------------
    \9\ Development and Implementation of the Coal Industry Retiree 
Health Benefit Act of 1992, supra note 3 at 121.
    \10\ The National Bituminous Coal Wage Agreement of 1947 was 
included in hearings conducted by the Senate Committee on Banking and 
Currency. See ``Economic Power of Labor Organizations: Hearings Before 
the Senate Committee on Banking and Currency (Part I),'' 81st Cong. 
427-35 (1949).
    \11\ National Bituminous Coal Wage Agreement of 1947, supra note 
10.
    \12\ Id. See also Eastern Enterprises v. Apfel, 524 U.S. 498, 505 
(1998) (describing the United Mine Workers of America Welfare and 
Retirement Fund as ``modeled after the Krug-Lewis benefit trusts.'') 
    \13\ National Bituminous Coal Wage Agreement of 1947, supra note 
10. 
    \14\ See Development and Implementation of the Coal Industry 
Retiree Health Benefit Act of 1992, supra note 3 at 121 (describing the 
United Mine Workers of America Welfare and Retirement Fund as a 
``merger of the two Krug-Lewis funds into a single trust.'')

The 1947 agreement indicated that it would supersede all existing and 
prior contracts except as incorporated and continued by reference.\15\ 
The agreement specified that it would carry forward and preserve the 
terms and conditions of the Appalachian Joint Wage Agreement, the 
Supplemental Six-Day Work Week Agreement, the National Bituminous Coal 
Wage Agreement (dated April 11, 1945), and all of the various district 
agreements executed between the UMWA and the various mine operators and 
coal associations, as they existed on March 31, 1946, subject to the 
terms and conditions of the 1947 agreement, and as amended, modified, 
or supplemented by the 1947 agreement.\16\
---------------------------------------------------------------------------
    \15\ National Bituminous Coal Wage Agreement of 1947, supra note 10 
at 433 (``This agreement supersedes all existing and previous contracts 
except as incorporated and carried forward herein by reference; and all 
local agreements, rules, regulations, and customs heretofore 
established in conflict with this agreement are hereby abolished.'')
    \16\ National Bituminous Coal Wage Agreement of 1947, supra note 10 
at 428.

Because the Krug-Lewis Agreement did not require the federal government 
to provide health or retirement benefits to mine workers, and because 
the terms of the agreement seemed to expire once mine operators 
regained control of the mines, it appears unlikely that the federal 
government maintains any obligation to provide such benefits pursuant 
to the agreement. Further, even if such an obligation had been included 
in the Krug-Lewis Agreement, the failure to specifically identify that 
obligation as one that should be carried forward and preserved might 
arguably cast doubt on whether the obligation should still exist.\17\
---------------------------------------------------------------------------
    \17\ References to the Krug-Lewis Agreement in the National 
Bituminous Coal Wage Agreement of 1947 are limited generally to 
provisions involving payments made by mine operators to the welfare and 
retirement fund, and the transfer of funds to the United Mine Workers 
of America Welfare and Retirement Fund. See National Bituminous Coal 
Wage Agreement of 1947, supra note 10 at 431-32.

A review of court decisions that have discussed the Krug-Lewis 
Agreement has not revealed an obligation on the part of the federal 
government to provide health or retirement benefits pursuant to the 
agreement.\18\ While the agreement has been recognized as an expression 
of the federal government's interest in making medical and other 
benefits available to mine workers, it does not appear to have imposed 
an obligation on the federal government to provide such benefits.\19\
---------------------------------------------------------------------------
    \18\ See, e.g., Davon, Inc. v. Shalala, 75 F.3d 1114 (7th Cir. 
1996); Lewis v. Jackson and Squire, 86 F.Supp. 354 (W.D. Ark. 1949).
    \19\ See, e.g., Lillian M. Spiess, ``Paying What Was Promised: The 
Guarantee of Benefits Under the Coal Industry Retiree Health Benefit 
Act of 1992,'' 25 Quinnipiac L. Rev. 73, 76 (2006) (``It should be 
noted that the Krug-Lewis Agreement was important not only because it 
established a fund for miner pension and welfare benefits, but also 
because it exemplified the federal government's continued commitment 
and involvement to investigating the availability and standard of 
medical programs and services available to miners and their families 
and ensured the delivery of these services.'')

                                 ______
                                 
              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator from Utah
WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
today delivered the following opening statement at a hearing to 
consider the nomination of Robert Lighthizer to be the United States 
Trade Representative (USTR):

    Today we will consider the nomination of Mr. Robert Lighthizer to 
be the United States Trade Representative.

    The last time this committee considered a nominee for USTR was in 
July of 2015.

    Unfortunately, under the last administration, failure to promptly 
nominate appointees to leadership positions at USTR became the norm. As 
a result, it is a sad truth that the Office of USTR has not had a fully 
confirmed bench of nominees since Ambassador Kirk resigned in January 
2013. The difficulty USTR had during the past 4 years in advancing an 
ambitious, pro-growth trade agenda was in no small part due to this 
lack of leadership.

    As chairman of this committee, I hope that we will be able to 
change that, starting today.

    All told, this committee must consider and report six positions at 
the Office of the U.S. Trade Representative. Unfortunately, as with 
most of President Trump's nominees, we are off to a slow start. I hope 
that with today's hearing, we can begin the process of moving these 
trade nominees more quickly.

    Mr. Lighthizer is indisputably qualified to serve as USTR, and I 
believe he has a strong base of bipartisan support. If we keep this 
process focused on Mr. Lighthizer and the position he has been 
nominated to fill, there is no reason he should not be approved by this 
committee and confirmed by the Senate in short order.

    Unfortunately, there have been suggestions that extraneous issues--
issues that are entirely unrelated to Mr. Lighthizer--may be attached 
as conditions to the Senate's consideration of the nominee. Let me 
address this briefly before returning the discussion to the nominee's 
qualifications and the sizeable agenda and challenges facing the next 
USTR.

    Mr. Lighthizer has spent almost his entire career in public 
service--including as staff director for this committee and as a Deputy 
USTR--and in private practice fighting against unfair imports. In 1995, 
Congress passed an amendment that prohibits an individual from serving 
as U.S. Trade Representative or Deputy U.S. Trade Representative if 
that person has ``directly represented, aided, or advised a foreign 
entity'' in ``any trade negotiation, or trade dispute, with the United 
States.''

    While in private practice, Mr. Lighthizer represented a small 
number of foreign clients in the late 1980s and early 1990s, well 
before passage of the 1995 amendment. Because of this work, some of our 
Democratic colleagues have argued that Mr. Lighthizer requires a waiver 
to serve as USTR.

    Mr. Lighthizer does not believe that his work falls within this 
statute. The Office of Legal Counsel at the Department of Justice has 
indicated that they share that opinion. So, it's not at all clear that 
a waiver under the 1995 statute is necessary in Mr. Lighthizer's case.

    This is not the first time the committee has had to deal with this 
type of question. And, in the past, we've always been able to work 
through it.

    In 1997, President Clinton nominated Deputy U.S. Trade 
Representative Barshefsky to serve as USTR. This committee was chaired 
by Senator Roth, and Chairman Roth and the Republican majority worked 
constructively to support President Clinton's nominee. Chairman Roth 
wasn't certain that this statute applied to Ms. Barshefsky, but he 
agreed to work with Senator Moynihan to consider a waiver so that 
Ambassador Barhsefsky might assume her position as U.S. Trade 
Representative without controversy.

    As far as the record shows, there were no extraneous conditions 
attached to the waiver, and it passed on the floor by a vote of 98 to 
2.

    Similarly, in 2007, President Bush nominated Deanna Tanner Okun for 
the position of Deputy U.S. Trade Representative. Although neither she 
nor the General Counsel at USTR believed that the statute covered her 
prior work, Chairman Baucus and Ranking Member Grassley worked in a 
bipartisan fashion to advance a waiver through the committee in order 
to ensure that all necessary bases were being covered.

    No extraneous conditions were demanded in exchange for approving 
the waiver, and it was approved by the committee by voice vote.

    Today, we are faced with very similar circumstances.

    Once again, it is not clear that the statute applies to Mr. 
Lighthizer's work in the 1980s and 1990s. In fact, we have what appears 
to be a well-reasoned opinion from OLC that it does not.

    Nevertheless, Democratic committee members are asserting with 
absolute certainty that Mr. Lighthizer needs a waiver in order to be 
confirmed. And, at the same time, these same members are refusing to 
approve a waiver unless the committee also moves a piece of legislation 
that is entirely unrelated to Mr. Lighthizer or the Office of USTR.

    This kind of legislative hostage-taking certainly is not unheard of 
in the Senate, but in the context of consideration of a nominee for the 
Office of U.S. Trade Representative, it is totally unprecedented.

    I have stated publicly that I am willing to work with Ranking 
Member Wyden and others on the committee who believe a waiver is 
necessary. But, I'll be honest, at this point, it appears that my 
colleagues' insistence on the waiver at the committee level has more to 
do with their demands for an unrelated ransom than any concern about 
the applicability of the statute. I hope I'm wrong about that.

    Let's be clear what is at stake here. By statute, the U.S. Trade 
Representative is the lead official for developing, coordinating, and 
implementing U.S. international trade policy; serving as the principal 
trade advisor to the President; leading international trade 
negotiations; and serving as the President's primary spokesperson on 
international trade. Moreover, the statute creating the position makes 
it clear that the Trade Representative is accountable not only to the 
President, but also to Congress.

    There is a lot of debate today about the direction of U.S. trade 
policy. In fact, the President is currently considering some of the 
most significant trade policy decisions in decades, including whether 
and how to upgrade the North American Free Trade Agreement, whether and 
how to launch additional trade negotiations with parties to the former 
Trans-Pacific Partnership, and whether and how to continue negotiations 
for a Trade in Services Agreement, an Environmental Goods Agreement, 
and an agreement with the European Union. And he is doing so without 
the advice of his chosen USTR, not because the nominee is unqualified, 
but because some Democratic Senators see the nomination as an 
opportunity to advance a wholly unrelated legislative priority.

    Moreover, at a time when Congress is demanding greater input into 
trade policy-making and stronger enforcement, our principal liaison in 
the administration is being blocked from even assuming the office.

    Once again, this is unprecedented.

    It is time to move this nomination. Actually, to be blunt, it's 
well past time.

    It has been more than 50 days since Mr. Lighthizer was nominated by 
the President. This is the longest gap between nomination and committee 
consideration of a USTR since at least 2001.

    Before concluding, let me briefly touch on some trade priorities I 
expect the next USTR to address.

    It will not be surprising to many of you that I expect this nominee 
and this administration to be strong advocates for U.S. intellectual 
property rights. Intellectual property is the backbone of our economy. 
It affects large and small companies across America. It is a key part 
of our economic growth. In my home State of Utah, for example, half a 
million jobs and 67 percent of our exports are connected to 
intellectual property. It must be a higher priority.

    Second, I expect quick and effective use of Trade Promotion 
Authority, or TPA. President Trump benefits significantly by coming 
into office with TPA already in place. As a country, we have a unique 
opportunity to lock-in strong trade agreements that meet the high 
standards of TPA. But, trade negotiations are long-term endeavors, and, 
to be successful, we must begin soon.

    As the Administration updates existing agreements and negotiates 
new ones, I hope that they will be able to rebalance the Obama 
Administration trade agreement template. In my view, President Obama 
continually sacrificed U.S. commercial interests at the negotiating 
table in favor of a liberal social agenda. Some of the areas that I 
believe need higher priority include the need to: reflect a standard of 
protection for U.S. intellectual property rights similar to U.S. law; 
seek the elimination of price controls; work for better market access 
for our farmers and ranchers, including stronger provisions on sanitary 
and phytosanitary measures; include enforceable provisions ensuring 
greater transparency and accountability in government reimbursement 
regimes; negotiate strong and enforceable provisions on anti-
corruption; provide greater protection for trade secrets; and include 
provisions that help strengthen good governance, transparency, the 
effective operation of legal regimes, and the rule of law.

    Finally, we must do a better job of holding our trading partners 
accountable. More effective monitoring of our trading partners' 
existing commitments, along with full implementation of these 
commitments, is critical to maintaining political support for a robust 
trade agenda here at home.

    Mr. Lighthizer, I commend you on a stellar career in international 
trade. It is my hope that you will use your expertise to advance a 
strong U.S. trade agenda that can help grow our economy and instill 
faith in the American people in the ability of international trade and 
trade agreements to provide new opportunities for working Americans.

    I look forward to hearing your testimony today.

                                 ______
                                 
  Prepared Statement of Robert E. Lighthizer, Nominated to be United 
States Trade Representative, With the Rank of Ambassador Extraordinary 
         and Plenipotentiary, Executive Office of the President
    Chairman Hatch, Ranking Member Wyden, members of the committee, it 
is a great honor for me to appear before you today as President Trump's 
nominee to be the U.S. Trade Representative.

    I am particularly pleased to be in this hearing room where I have 
so many fond memories and to be here with my former boss. It is fair to 
say that I had my formation working for Senator Dole and this committee 
in the late 1970s and early 1980s. I was able to work for truly 
exemplary United States Senators on matters of great importance. In 
addition to trade I assisted on tax policy, Social Security reform, 
budget cuts, welfare bills and much more. I would be remiss if in 
addition to Senators Dole and Grassley, I didn't mention Senators Long 
and Moynihan. All truly great men.

    After I left here, I became Deputy U.S. Trade Representative. I 
worked for President Reagan and Senator Bill Brock, another wonderful 
boss. I have often thought how lucky I am to have such mentors and role 
models.

    While at USTR I worked on agricultural issues, industrial issues, 
services and trade policy. I negotiated several trade agreements--yes 
mostly, they were bi-
lateral. Those also were exciting times.

    For the last many years I have practiced international trade law. 
The vast, vast majority of my work has been representing U.S. 
manufacturing companies opposing unfair trade in this market and 
opposing the noneconomic expansion of production capacity around the 
world. As many of you know, I have written and talked often about the 
challenges facing U.S. companies and workers and have espoused strong 
enforcement of our trade laws. I have also worked to preserve U.S. 
policies at the WTO and the OECD.

    I agree with President Trump that we should have an ``America 
first'' trade policy and that we can do better in negotiating our trade 
agreements and stronger in enforcing our trade laws. I further believe 
we need an international trade system that functions the way it was 
negotiated and that the United States must be ready to work with like-
minded trading partners to ensure fair trade and to encourage market 
efficiency.

    If confirmed, I hope to work with this committee, the Ways and 
Means Committee, others in Congress, President Trump and those in the 
administration, and all stakeholders to develop and implement a policy 
that increases trade, grows the economy, and makes trade freer and 
fairer but, most importantly, that improves the economic well-being of 
our workers, farmers, ranchers, and businesses large, medium, and 
small. If confirmed, I hope in the end to be judged by whether I aided 
all of you in accomplishing this goal.

    Thank you.

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Robert Emmet Lighthizer; 
Bob.

 2.  Position to which nominated: United States Trade Representative.

 3.  Date of nomination: January 3, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: October 11, 1947 in Ashtabula County, OH.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted): Georgetown 
University, 1964-1969, BA; Georgetown University Law Center, 1970-1973, 
JD.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment): JR Garbo Painting Company, Painter, Willoughby 
Hills, OH, Summer 1969; U.S. Army National Guard, Active Duty, Fort 
Gordon, GA, September 1969-March 1970 and Reserve from March 1970 to 
September 1975; JR Garbo Painting Company, Painter, Willoughby Hills, 
OH, Summer 1970; Williams and Connolly Law Firm, part-time messenger, 
est. June 1970 to July 1971; Squire, Sanders and Dempsey Law Firm, 
Summer Associate, Cleveland, OH, Summer 1972; Covington and Burling Law 
Firm, Washington, DC, July 1973 to December 1978; U.S. Senate Committee 
on Finance, Washington, DC, December 1978 to April 1983; U.S. Trade 
Representative, Deputy, Washington, DC, April 1983 to June 1985; 
Skadden, Arps, Slate, Meagher, and Flom law firm, partner, June 1985 to 
present.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above): Member of Georgetown 
Business Improvement District (Georgetown BID) 2003 to 2012.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution): Partner of 
Skadden, Arps, Slate, Meagher, and Flom LLP; Trustee of Lighthizer 
Family Trust 2012.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations): Congressional Country Club; Burning Tree Country 
Club (resigned); Metropolitan Club; The Everglades Club Inc.; and Pine 
Tree Golf Club.

13.  Political affiliations and activities:

    a.  List all public offices for which you have been a candidate.

      None.

    b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

      None.

    c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.


------------------------------------------------------------------------
   Transaction Date                Committee Name               Amount
------------------------------------------------------------------------
August 1, 2007          Skadden Arps Political Action              $750
                         Committee
------------------------------------------------------------------------
September 18, 2012      Romney, Mitt/Paul D. Ryan via Romney     $2,500
                         for President, Inc.
------------------------------------------------------------------------
September 9, 2016       Trump Make America Great Again             $500
                         Committee
------------------------------------------------------------------------
September 9, 2016       Trump, Donald J./Michael R. Pence          $400
                         via Donald J. Trump for President,
                         Inc.
------------------------------------------------------------------------


14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement): National 
Defense Medal; Georgetown Law School Paul Dean Award.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):


------------------------------------------------------------------------
            Title                    Publisher               Date
------------------------------------------------------------------------
``Taxpayers Starting to       Georgetown Law Journal  1973
 Sue''
------------------------------------------------------------------------
``What Did Asian Donors       The New York Times      February 25, 1997
 Want?''
------------------------------------------------------------------------
``The Democracy Gap''         The New York Times      July 1, 1998
------------------------------------------------------------------------
``With Sunsets Come Trade     Legal Times             August 24-31, 1998
 Dangers''
------------------------------------------------------------------------
``A New Trade Consensus''     The Journal of          September 25, 1998
                               Commerce
------------------------------------------------------------------------
``A Deal We'd Be Likely to    The New York Times      April 18, 1999
 Forget''
------------------------------------------------------------------------
``Conceding Free Trade's      The New York Times      December 3, 1999
 Flaws''
------------------------------------------------------------------------
``Fast Track to Nowhere''     The New York Times      January 3, 2002
------------------------------------------------------------------------
``Losing the Trade War--Can   The Washington Times    January 26, 2007
 We Save America's
 Manufacturing Base?''
------------------------------------------------------------------------
``Is the WTO Dispute          Online Debate           Updated February
 Settlement System Fair?'',                            26, 2007
 Council on Foreign
 Relations, with D. Ikenson
------------------------------------------------------------------------
``Grand Old Protectionists''  The New York Times      March 6, 2008
------------------------------------------------------------------------


16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

    None.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

     I was responsible for trade issues at the Senate Finance 
Committee; I was Deputy USTR; I have practiced international trade law 
for 32 years.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

    Yes.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

    No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

    No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

    Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

    None.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

    None.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

     Registered as a lobbyist for United States Steel Corporation from 
July 2005 to December 2009; I performed legal research, drafted 
memoranda, and met with members of Congress, their staffs, and 
government officials representing client interests in effort to 
maintain and strengthen U.S. trade laws.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

     I am entering into an ethics agreement with the Office of the 
United States Trade Representative.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

 6.  The following information is to be provided only by nominees to 
the positions of United States Trade Representative and Deputy United 
States Trade Representative: Have you ever represented, advised, or 
otherwise aided a foreign government or a foreign political 
organization with respect to any international trade matter? If so, 
provide the name of the foreign entity, a description of the work 
performed (including any work you supervised), the time frame of the 
work (e.g., March to December 1995), and the number of hours spent on 
the representation.

     Mr. Lighthizer represented the Sugar and Alcohol Institute of 
Brazil, also known as the ``IAA,'' from October 1985 to February 1986 
in an attempt to settle antidumping and countervailing duty cases 
pending before the U.S. Department of Commerce that were brought by the 
Ad Hoc Committee of Domestic Fuel Ethanol Producers against imports of 
certain ethyl alcohol (also known as fuel ethanol) from Brazil. Mr. 
Lighthizer spent a total of 190.75 hours on this representation.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

    No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

    No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

    No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

    No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

    None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

    Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

    Yes.

                                 ______
                                 
       Questions Submitted for the Record to Robert E. Lighthizer
               Questions Submitted by Hon. Orrin G. Hatch
    Question. In the Trans-Pacific Partnership negotiations, the Obama 
administration excluded the financial services sector from the 
provision it negotiated on this issue. The omission was very 
controversial and cost the agreement significant support. After further 
discussions with Congress and the private sector, the administration 
agreed that it would seek to protect the financial services sector from 
localization requirements in future negotiations.

    Mr. Lighthizer, can you assure me that, if you are confirmed, the 
administration will treat the financial services sector the same as 
every other sector when it negotiates data localization provisions in 
trade agreements?

    Answer. I am aware of the concerns raised by U.S. financial 
services companies regarding the importance of addressing data 
localization requirements by foreign governments. I understand that 
U.S. financial services companies engaged extensively with the previous 
administration to advocate for an approach that differed from the 
outcome in the final TPP agreement. If confirmed, I will work to ensure 
that trade agreement provisions related to localization requirements 
treat the financial services sector the same as every other sector.

    Question. Trade Promotion Authority requires U.S. trade negotiators 
to ``achieve the elimination of government measures such as price 
controls and reference pricing which deny full market access for United 
States products'' and ensure ``that the provisions of any trade 
agreement governing intellectual property rights . . . reflect a 
standard of protection similar to that found in U.S. law.'' These 
disciplines are particularly important for the U.S. biopharmaceutical 
industry, which relies on strong IP protections and faces onerous price 
controls abroad.

    Will you ensure that any new U.S. FTAs meet this TPA standard, 
raising global standards to those that we use here in the United 
States?

    Answer. I recognize the importance of this issue and the efforts 
that you have made over the years in working to ensure that U.S. 
pharmaceutical and biopharmaceutical products receive fair treatment in 
overseas markets and under the government regulatory reimbursement 
regimes and reference pricing programs of foreign countries. I also 
recognize the importance attached by Congress in including this 
provision as a Priority Negotiating Objective in the Bipartisan 
Congressional Trade Priorities and Accountability Act of 2015 (TPA). If 
confirmed, I look forward to working with you to achieve these 
objectives in trade negotiations and in ongoing bilateral efforts with 
individual countries.

    Question. Mr. Lighthizer, I fully support the goal of ensuring that 
workers are treated fairly and that trade agreements do not lower labor 
standards. However, I am concerned that continued expansion of labor 
obligations linked to dispute settlement in trade agreements could lead 
to unintended consequences and undermine continued congressional 
support for new trade agreements. For example, the International Labor 
Organization (ILO) has not hesitated to unjustifiably criticize U.S. 
labor policies, particularly U.S. agriculture policies and American 
family farms. Expanding labor obligations could create an opportunity 
for ILO criticisms to be used as the basis for litigation in trade 
agreements.

    That is why we must ensure that any labor obligation undertaken in 
our trade agreements does not go beyond those strictly and clearly 
enshrined in U.S. law. Furthermore, we must ensure that interpretation 
of those commitments is based on U.S. law and practice, and that we do 
not allow any trade tribunal to use ILO opinions or analysis as a basis 
for compliance with our labor obligations.

    Mr. Lighthizer, will you commit to me that you will not agree to be 
bound by any labor commitment which exceeds U.S. law and that you will 
not allow a tribunal to accord deference to ILO opinions or analysis as 
a basis for determining compliance with our labor obligations?

    Answer. Congress has set out important negotiating objectives 
regarding labor protections in TPA. If confirmed, I will act 
aggressively to ensure that any interpretation of our labor commitments 
is based on U.S. law, rather than international standards. I look 
forward to consulting closely with you and other members of Congress 
with an interest in these issues to seek to ensure that we negotiate 
provisions in our trade agreements that reflect high-standard 
protections for workers and are fully consistent with U.S. law.

    Question. China's leadership continues to pledge that the market 
will play a greater role in China's economy, yet government actions, 
including use of China's Anti-Monopoly Law, continue to advance 
industrial policies at the expense of U.S. companies.

    What will be your strategy for addressing China's use of the Anti-
Monopoly Law as an industrial policy tool and how will you ensure that 
China administers its Anti-Monopoly Law in a non-discriminatory and 
transparent manner?

    Answer. If confirmed, I will undertake efforts, in coordination 
with other U.S. Government agencies, to ensure that China applies its 
Anti-Monopoly Law in a transparent manner to address legitimate 
competition-related concerns, not as a guise for industrial policies.

    Question. Mr. Lighthizer, more than once I have expressed my 
concern that, despite Russia's serial violations of its WTO 
commitments, our government has not brought a single dispute against 
Russia in the World Trade Organization.

    Will you promise to fully review Russia's WTO commitments and to 
take all necessary measures to bring them into compliance, including, 
where appropriate, taking Russia to dispute settlement at the WTO?

    Answer. If confirmed, I will direct USTR staff to review thoroughly 
Russia's implementation of its World Trade Organization (WTO) 
obligations and take all necessary measures, including dispute 
settlement where? appropriate, to ensure Russia's compliance.

    Question. Mr. Lighthizer, it is very important that, pursuant to 
TPA negotiating objectives, our trade agreements provide for 
transparency and procedural fairness in reimbursement decisions and 
that these provisions be subject to dispute settlement. In my view, 
these are crucial elements which build public trust in national health-
care systems by assuring the public that decisions are based on merit.

    Can you commit to me that you will work to ensure that this TPA 
negotiating objective is met, and that these provisions will be subject 
to dispute settlement, in our trade agreements?

    Answer. I strongly support the inclusion of provisions in U.S. 
trade agreements providing for transparency and procedural fairness for 
pharmaceuticals and medical devices under government regulatory 
reimbursement regimes, and will work to achieve that result. I am aware 
of the efforts that you have made over many years to ensure the U.S. 
biopharmaceutical products receive fair treatment in overseas markets, 
including under foreign government regulatory reimbursement regimes, I 
also recognize the importance attached by Congress to these issues as 
reflected in TPA. If confirmed, I look forward to working with you on 
achieving these objectives in trade negotiations and in ongoing 
bilateral efforts with individual countries.

    Question. Canada's creation of a heightened standard for patentable 
utility for pharmaceutical patents is a serious problem for U.S. 
innovators. This heightened standard is inconsistent with other 
countries, and has undermined the ability of U.S. innovators to obtain 
and enforce patent rights in Canada. It is also inconsistent with 
Canada's obligations under the World Trade Organization and under 
NAFTA.

    What will you do to ensure Canada's patentability standards are in 
line with its international obligations?

    Answer. If confirmed, I will place a high priority on ensuring 
strong intellectual property protection and enforcement by our trading 
partners. This is necessary for future innovation, and it protects a 
competitive advantage of the United States in the global market. I look 
forward to working with you to address your concerns about patent 
protection in Canada and how best to use all appropriate trade tools to 
address those concerns.

    Question. As you know, the Generalized System of Preferences (GSP) 
program expires this year. This program provides tariff reductions for 
developing countries and supports manufacturing in the United States. I 
support renewal of this program, and hope you will as well. At the same 
time, I do not believe that prior administrations have adequately 
examined the eligibility criteria to ensure that only countries that 
comply with the eligibility criteria receive benefits. Your commitment 
that you will fully review all potentially eligible countries to ensure 
compliance with the program's criteria would send a strong signal to 
Congress that, should the program be renewed, you will use it 
effectively.

    Can you commit to fully reviewing GSP countries to ensure their 
full compliance with the programs criteria?

    Answer. If confirmed as the USTR, I will commit to work with you 
and the committee, as well as the interagency and stakeholders, to 
ensure that GSP countries are fully meeting the GSP statutory 
eligibility criteria.

    Question. Technological protection measures, which allow creators 
to control and manage access to copyrighted works, have enabled 
creators to offer new and secure streaming and other services that 
consumers have come to expect. But today, more and more illicit 
business models are built around circumventing these controls in order 
to steal this content. Despite international and bilateral trade 
obligations to prevent the circumvention of such controls, a number of 
countries fail to provide such protections, whether due to non-existent 
or inadequate laws or ineffective enforcement.

    If confirmed as USTR, how will you help ensure that U.S. trading 
partners live up to their obligations to prevent such harm to U.S. 
creators?

    Answer. If confirmed, I will place a high priority on ensuring 
strong intellectual property protection and enforcement by our trading 
partners. I will use all appropriate trade tools to obtain strong 
protection for new and emerging technologies and new methods of 
transmitting and distributing creative content and products embodying 
intellectual property, including in a manner that facilitates 
legitimate digital trade.

    Question. Many industries in the United States are increasingly 
concerned about a number of activities sponsored by international 
organizations such as the United Nations and the World Health 
Organization that propose the use of government action that undermine 
core U.S. economic interests and appear to raise trade barriers. Last 
year's U.N. High-Level Panel on Access to Medicines is one regrettable 
example.

    Under your leadership, how would USTR work with other agencies to 
protect U.S. interests and values at the U.N., and push back against 
trade-distorting initiatives that undermine U.S. competitiveness?

    Answer. If confirmed, I will ensure that USTR works closely with 
other agencies to stand up for U.S. trade interests in the United 
Nations, World Health Organization, and other relevant forums, 
including with respect to the U.N. High-Level Panel on Access to 
Medicines report.

    Question. Last month, the WTO Trade Facilitation Agreement entered 
into force. Its full implementation will bring commercially meaningful 
benefits for participants and promote good governance that will reduce 
government corruption at the border. Manufacturers in the United States 
that rely on export markets, as well as access to global inputs, will 
notice reduced bureaucratic hurdles and more transparency when their 
goods cross borders.

    As USTR, how will you support the full implementation of this 
agreement and encourage our trading partners to improve their customs 
and trade facilitation practices?

    Answer. The WTO Trade Facilitation Agreement (TFA) provides new, 
enforceable rules governing how U.S. goods will be treated as they move 
through our trading partners' border agencies, reducing trade costs and 
delays and allowing American goods to compete on a more level playing 
field. If confirmed as USTR, I will work to ensure that the TFA is 
implemented by all WTO Members under the timelines in the Agreement, 
press those WTO Members that have yet to ratify the TFA to do so 
expediently, and use the TFA Committee to promote full implementation 
of the Agreement. Further, I will undertake efforts to raise awareness 
of the TFA within the U.S. Government and among U.S. producers and 
manufacturers, and will engage with our trading partners on U.S. best 
practices for achieving full implementation of the Agreement.

    Question. Mr. Lighthizer, we have seen an increasing number of 
countries seeking ``cultural exceptions'' in their trade agreements 
that would have the effect of barring U.S. audio-visual providers from 
accessing these markets. At the same time, the U.S. audio visual market 
is one of the most open in the world.

    As USTR considers its trade agreement priorities, if confirmed, how 
will you help level the playing field for the U.S. audio visual 
industry?

    Answer. Audio-visual services are an important U.S. export and an 
important source of U.S. jobs. Consumers around the world demand access 
to U.S. films, video programming, and music delivered to an ever-
evolving array of platforms, from cinemas to smart phones. The U.S. 
market is open to foreign services suppliers and investors in these 
areas. If confirmed, I look forward to working with the Congress and 
relevant stakeholders to ensure that our trading partners maintain open 
markets for U.S. audio-visual services.

    Question. Concerns have been raised by the U.S. auto industry 
regarding efforts by the European Union to promote its auto standards 
abroad at the expense of U.S. auto standards. The core concern is the 
degree to which the EU supports promotion at international forums, 
including the United Nations Working Party 29 (WP.29), which operates 
under the auspices of the United Nations Economic Commission for Europe 
(UNECE) 1958 agreement. According to industry, the WP.29 forum seeks to 
develop globally harmonized regulations for motor vehicles, as 
contemplated by the 1958 agreement, to which the United States is not a 
party, and the 1998 agreement, which sought to develop Global Technical 
Regulations (GTRs) for motor vehicles worldwide.

    The 1958 agreement, which provides for mutual recognition of auto 
standards, is largely the means used by the EU to promote its auto 
standards globally. The 1998 agreement was developed, in part, to allow 
all other auto-producing economies, like the United States, to 
participate in the WP.29 activities. Unfortunately, according to 
industry, the 1998 agreement has fallen well short of expectations--due 
in large part to the lack of support by the United States.

    Development and promotion of U.S. industry standards can be a key 
tool to help U.S. industry develop markets overseas and expand U.S. 
exports. For the auto industry the U.S. Department of Transportation 
National Highway Traffic Safety Administration (NHTSA) International 
Policy and Harmonization Division and the Environmental Protection 
Agency's Office of International Activities are key.

    Should you be confirmed, can you ensure through your role as the 
lead official for developing, coordinating, and implementing U.S. 
international trade policy, that promotion of U.S. standards abroad, 
including auto standards, will be a priority for your agency?

    Answer. I am aware of these concerns and, if confirmed, this set of 
issues will be an important priority. Increasing the global acceptance 
of standards used by U.S. manufacturers is important for improving the 
ability to manufacture products in, and export them from, the United 
States--and this is especially true for sectors that require large 
economies of scale, such as the U.S. automotive industry. If confirmed, 
I look forward to working with U.S. stakeholders to better understand 
the issue. I will also work with other agencies and use all appropriate 
tools to promote the acceptance by our trading partners of U.S. 
automotive standards, and other standards used by U.S. manufacturers.

    Question. Mr. Lighthizer, WTO procurement rules and the equivalent 
rules in NAFTA and our other free trade agreements establish reciprocal 
market access in government procurement and guarantee that U.S. 
companies have a fair, open, and transparent opportunity to bid on 
contracts issued by foreign governments. It is important for U.S. 
companies to be able to compete for these contracts, which are 
potentially worth billions of dollars each year.

    Can you assure me that, if you are confirmed, the administration 
will ensure that our trade agreements include strong chapters on 
government procurement?

    Answer. Thank you for the question, Mr. Chairman. I take note of 
the importance of ensuring that American companies maintain access to 
the government procurement markets of our trading partners. During 
negotiations I will intend to seek as favorable treatment for U.S. 
companies as that accorded to domestic and other foreign goods, 
services, and suppliers. If confirmed, I commit to work with you on 
this issue.

    Question. I am concerned that many American companies are being 
subject to antitrust investigations that lack due process protections 
in an effort to transfer U.S. patented technology to their domestic 
companies, or to insulate their domestic companies from U.S.-based 
competition. In particular, foreign governments are using their 
antitrust authority to diminish U.S. intellectual property rights, 
including patent licensing. Concerns have been raised in particular 
about Korean and Chinese antitrust investigations. The use of antitrust 
as a tool of industrial policy undermines U.S. patent rights, 
suppresses innovation, and puts U.S. competitiveness in the industry at 
risk.

    Many U.S. trade agreements include important IP and due process 
protections. If you are confirmed, how will ensure that our trading 
partners are living up to their end of the bargain to treat our 
companies fairly, including in competition proceedings?

    Answer. Due process protections are critical to ensuring that 
parties to an investigation have access to the record evidence and can 
present and respond to relevant arguments. These protections are no 
less important in relation to competition or intellectual property 
rights proceedings. If confirmed, I will examine very closely concerns 
raised in these and other contexts to address any shortcomings with 
respect to foreign practices and would welcome further engagement with 
you and others in the coming months.

    Question. In reauthorizing Trade Promotion Authority in 2015, 
Congress made clear that a major objective of U.S. trade negotiations 
should be ``preventing or eliminating discrimination with respect to 
matters affecting the availability, acquisition, scope, maintenance, 
use, and enforcement of intellectual property rights.'' Many foreign 
antitrust investigations by China and Korea are directed at forcing 
U.S. companies to license their U.S. patents on terms favorable to 
their domestic companies, essentially weakening the value of U.S. 
patents. The U.S. patent system has been central to U.S. leadership in 
the global innovation economy, and many innovative companies rely on 
patent licensing to disseminate and commercialize their inventions.

    Can U.S. companies count on the administration, and your office in 
particular, if you are confirmed, to ensure that U.S. patent rights are 
respected abroad?

    Answer. Intellectual property-intensive industries make a very 
substantial contribution to the U.S. economy and U.S. competitiveness, 
supporting millions of U.S. jobs and a large portion of U.S. 
merchandise exports. Accordingly, I am concerned by any attempt by 
foreign countries to weaken the protection and enforcement of 
intellectual property rights held by U.S. companies. No law should be 
diverted from its proper focus and used to pursue unrelated industrial 
policy goals. The concern you raise is one of many that, if confirmed, 
I will monitor very closely and address through appropriate channels.

    Question. Over the past several years, there has been an increase 
in burdensome international regulations which have increased costs for 
U.S. companies selling in these markets and limited access to growing 
export markets around the world. These technical barriers have taken 
the form of testing regulations, certification requirements, local 
content requirements, inspection procedures and safety standards that 
are different from international norms in one way or another but have 
not led to ``safer'' or more ``environmentally friendly'' products sold 
in their respective markets. In fact, often times these technical 
barriers are put in place with the intent to protect domestic markets 
from U.S. competition. USTR has proven to be an invaluable resource for 
U.S. companies to fight these international regulatory burdens and has 
had many successes at the WTO Technical Barriers to Trade Committee 
highlighting one of the many valuable roles the WTO plays for U.S. 
companies.

    If confirmed, how would you go about addressing these international 
regulatory burdens for U.S. companies? What are your thoughts about 
using WTO to pursue these objectives?

    Answer. I am committed to reducing regulatory and other technical 
barriers, such as discriminatory standards and unnecessary or 
duplicative testing requirements, in order to increase exports of U.S. 
manufactured and agricultural goods. If confirmed, I look forward to 
working with U.S. stakeholders to resolve concerns regarding trade-
restrictive or unduly burdensome measures, including through engagement 
with foreign governments bilaterally, at regional levels, and at the 
WTO Technical Barriers to Trade Committee.

    Question. Mr. Lighthizer, a number of U.S. international airlines 
are concerned about an un-level playing field in the global market for 
international air transport, due to actions by certain foreign airlines 
that are owned by their governments.

    What can your agency do to ensure that our U.S. international 
airlines have a fair and equal opportunity to compete in providing 
international air transport services?

    Answer. I understand the importance of this issue, and of ensuring 
that our international airlines compete on a level playing field across 
the globe. If confirmed, I will look into this matter and work closely 
with other involved agencies, such as the State Department and 
Department of Transportation, to do everything we can to ensure that 
our international carriers have a fair and equal opportunity to 
compete.

    Question. Mr. Lighthizer, the European standardization 
organizations have been very active in lobbying foreign governments to 
adopt European standards as international standards, often to the 
exclusion of American standards.

    The European Commission officially endorses this policy, stating on 
its website: ``Each European standard adopted as an international 
standard represents a possible competitive advantage for European 
industry.''

    As you may know, American products are often manufactured to meet 
an American standard, not a European standard. This means that when 
foreign countries outside of Europe adopt a European standard, American 
companies are effectively blocked from accessing those markets.

    Can you assure me that, if you are confirmed, the administration 
will address the EU's policy of promoting European standards as a 
barrier to market access for American products?

    Answer. I believe that increasing the global acceptance of 
standards used by U.S. manufacturers is important for improving the 
ability to manufacture products in, and export them from, the United 
States. If confirmed, I look forward to working with U.S. stakeholders 
to address this issue with our trading partners. I would plan to use 
bilateral and multilateral engagement mechanisms to promote the 
acceptance by our trading partners of standards used by U.S. 
manufacturers.

    Question. Mr. Lighthizer, to give you a concrete example of the 
barriers to market access that arise when a foreign country adopts only 
European standards, recently the European standardization organizations 
have been successful in lobbying certain Middle Eastern countries to 
adopt a European safety standard for footwear. These countries no 
longer recognize the American safety standard as an acceptable 
international standard, even though American-made products have been 
sold in the Middle East for decades.

    If you are confirmed, can you assure me that the administration 
will take all steps necessary to regain U.S. market access under 
circumstances such as these?

    Answer. I am aware of the concerns facing the footwear industry in 
the Middle East. If confirmed, I look forward to working with these 
countries to promote their adoption of standards policies that 
facilitate trade with the United States. I would plan to use bilateral 
and multilateral engagement mechanisms to promote the acceptance of 
standards used by U.S. manufacturers, including those used by the 
American footwear industry.

    Question. Investor-state dispute settlement (ISDS) provides crucial 
protections for U.S. companies that invest overseas to enable them to 
receive just compensation from expropriation. In the Bipartisan 
Congressional Trade Priorities and Accountability Act of 2015, 
protection for U.S. investors is a Principal Negotiating Objective of 
the United States. This has been a critical part of most U.S. Free 
Trade Agreements, and has been a part of U.S. international economic 
policy through Bilateral Investment Treaties for decades.

    As USTR, can you affirm that in any negotiations or renegotiations 
of trade agreements of bilateral investment treaties, that you will 
reduce or eliminate artificial or trade distorting barriers to foreign 
investment, and secure for U.S. investors overseas rights that are 
comparable to those that would be available under U.S. legal principle 
and practice?

    Answer. If confirmed, I will look forward to working closely with 
the Congress on trade and investment agreements that advance the 
negotiating objectives set forth in TPA, including the principal 
negotiating objectives to reduce or eliminate artificial or trade 
distorting barriers to foreign investment and to secure for U.S. 
investors rights comparable to those that would be available under U.S. 
legal principles and practice.

                                 ______
                                 
                Questions Submitted by Hon. Pat Roberts
    Question. Our farmers and ranchers depend on strong trade 
relationships around the world. Expanding market access and ensuring 
that our producers remain competitive is critical to our economy. USTR 
and USDA have a history of working hand in hand to make sure that U.S. 
agriculture has a seat at the trade table. As the new administration 
takes shape, I have been concerned that there are too many cooks in the 
kitchen when it comes to trade, yet few of them are familiar with the 
main ingredients. In addition to USTR, the President recently 
established a new National Trade Council at the White House, as well as 
increased the trade responsibilities under the Department of Commerce.

    As the lead trade negotiator for the United States, how will you 
work with other agencies, specifically USDA, to make sure that 
agriculture is a top priority?

    Answer. Food and agriculture exports are critical to farm income, 
and the food processing and beverage manufacturing industries are a top 
source for U.S. manufacturing jobs in the United States. As I stated at 
my confirmation hearing, I have a long history working on agriculture 
issues, and I am committed to prioritize work to expand agricultural 
exports. USTR historically has worked very closely with trade and 
technical experts at USDA and other agencies to resolve the full range 
of agricultural trade issues. If confirmed, I intend to maintain and 
strengthen that relationship and will work closely with the Secretary 
of Agriculture to expand agricultural exports as a top priority for 
this administration and the United States.

    Question. China is one of the United States' top agricultural 
markets. However, Kansas wheat farmers championed the recent cases 
announced by USTR on Chinese subsidies and tariff rate quotas (TRQs), 
as wheat growers are especially impacted by the seeming failure of 
China to adhere to their commitments in the WTO.

    Kansas ranks as the third highest U.S. State exporter of beef to 
the global market. Since 2003, the U.S. beef industry has tried to 
regain access into China. I was pleased that China publicly stated 
their intentions to lift its ban on U.S. beef, but there is still work 
needed to hold China to that commitment and restore true access. This 
access to the Chinese market is critical for my cattlemen back home.

    These are just two of the challenges we face in one of our most 
important export markets. A strong trade policy is clearly about more 
than free trade agreements.

    How will you lead USTR to work with other countries to ensure that 
barriers to trade are reduced and eliminated?

    Answer. I fully understand the importance of enhancing market 
access around the world for farmers and ranchers in Kansas and all 
other States. U.S. food and agricultural exports face a number of 
unwarranted barriers and trade distortive policies in other countries, 
including China. For example, I understand that USTR is pursuing 
dispute settlement procedures on China's domestic support for wheat, 
corn and rice. Ensuring that our trading partners meet international 
trade obligations, especially those of the World Trade Organization, is 
a core foundation for fairer and freer trade. If confirmed, I am 
committed to the expansion of U.S. agricultural exports through 
negotiations that create enhanced export opportunities for our farmers 
and ranchers. Where countries fail to do so, I will aggressively 
utilize, in cooperation with the Secretary of Agriculture and 
Administration and congressional colleagues, all available tools in the 
WTO, bilateral engagement, and other mechanisms.

    Question. Agricultural trade is essential to American farmers and 
ranchers, but expanding market access for our products through new 
trade agreements is just one piece of the puzzle. The enforcement of 
existing agreements will ensure that our trading partners are playing 
by the rules they have agreed to, and that our producers have a level 
playing field.

    Whether dealing with steel in China, dairy products in Canada, or 
other products, if confirmed as the lead Trade Representative for the 
United States, how will you approach enforcement of our agreements with 
other countries?

    Answer. If I am confirmed, I will commit to use all the resources 
available to USTR, and seek to draw on the significant expertise in 
other agencies, to enforce fully existing U.S. trade agreements to 
ensure that our trading partners comply with their international 
obligations. To compete in an international market, we must ensure that 
U.S. exports, including agricultural exports, get the same access 
abroad that we allow imports here in the United States. I would also 
work to protect U.S. trade remedies laws so that when other countries 
engage in unfair trade, we have the tools to provide U.S. producers 
with an effective remedy.

    Question. Science is important. Basic facts and data should inform 
policy decisions at home and around the globe. Decisions based on 
reputable science offer predictability and provide certainty. But, 
everyone doesn't seem to share this perspective. For example, across 
the world, international organizations and various individual countries 
have made policy recommendations and passed laws regarding certain 
types of foods they view as unhealthy. For instance, the World Health 
Organization has proposed a tax on sugary drinks and their research 
agency, the International Agency for Research on Cancer, classified red 
and processed meat as probably carcinogenic and carcinogenic, 
respectively.

    How can the U.S. Government agencies work with USTR and how can 
USTR work with foreign and international entities to ensure that policy 
recommendations and laws be science-based?

    Answer. If confirmed, I am committed to working with U.S. 
Government agencies to strengthen the process by which the U.S. 
Government engages with international organizations and to develop U.S. 
positions that support sound science and U.S. interests. I am further 
committed to stand up against proposals that are not based on science 
and that threaten to harm the interests of U.S. farmers, ranchers and 
food manufacturers and to ensure that international organizations 
respect the boundaries of their respective missions, particularly where 
public health organizations may become involved with fiscal or trade 
policy in ways that may harm U.S. interests. In support of these 
principles, I intend to engage with foreign governments bilaterally, 
regionally, and in international organizations to ensure that the 
resources of international organizations are utilized to best meet 
their scope and mandate, and that policy recommendations and laws are 
based on sound scientific principles and international standards.

    Question. Historically, trade agreements have achieved strong 
support from most in the agriculture industry. Last year, as 
negotiations were taking place on the Transatlantic Trade and 
Investment Partnership (T-TIP), there was concern that in an attempt to 
conclude the negotiations, a final agreement might not include a strong 
framework for agriculture. I, along with 25 other Senators, sent the 
previous administration a letter urging the prioritization of 
agriculture in a final agreement. Similar concerns have surfaced as the 
United States turns towards negotiated bilateral agreements with 
countries like Japan that have historically been protective of their 
agriculture sectors. Farmers and ranchers are witnessing their third 
year of low commodity prices and need to avail themselves to a free and 
open marketplace to stay in business and provide jobs in rural America. 
Leaving agriculture out of a bilateral agreement with Japan, or any 
other country, would set a dangerous precedent and would be a 
disservice to rural America.

    Can you assure me that the agriculture sector will be a consulted 
partner and fully included in any efforts to forge a bilateral trade 
agreement with Japan or any other country?

    Answer. I agree that agriculture is a critically important part of 
our trade agenda and that strong support from the agricultural sector 
has always been an essential element of a successful negotiation. If 
confirmed, an ambitious outcome for agriculture will be a central 
objective in any negotiation we undertake. I am committed to consulting 
closely with U.S. agricultural stakeholders and agricultural trade 
advisors, along with this committee, House Ways and Means and the 
Senate and House Agriculture Committees, and other interested members 
of Congress to ensure that the interests of farmers and ranchers are 
fully included in our bilateral trade agenda, including any potential 
negotiation with Japan and other countries of key export interest to 
U.S. farmers and ranchers.

    Question. Since 2001, Canada and Mexico have ranked in the top 3 
destinations for U.S. agricultural exports. In 2016, the two countries 
accounted for nearly 30 percent of the value of total U.S. agricultural 
exports. Additionally, Canada and Mexico have continuously been ranked 
in the top five destinations for U.S. agricultural exports since NAFTA 
was signed into law in 1993.

    As the administration moves to potentially renegotiate NAFTA, how 
will you ensure that we are building upon what is working well within 
the agreement, and not making changes that could negatively impact 
these critical markets?

    Answer. For most agricultural sectors, the North American Free 
Trade Agreement has provided important and growing trade opportunities 
that benefit America's farmers and ranchers. I fully appreciate the 
importance of exports, including exports to Canada and Mexico, to 
support rural income and jobs in the U.S. food and agriculture 
industry. I also fully appreciate the importance of preserving exports 
and expanding upon the gains from our current trade agreements. If 
confirmed, I will strengthen American agriculture through negotiations 
that create enhanced export opportunities for American farmers and 
ranchers, while we maintain the current markets that we already have. 
If confirmed, I will be sure to consult closely with you and other 
members of Congress as required by Trade Promotion Authority.

    Question. Agriculture and food exports rely on science-based food, 
food production, and food safety standards of the Codex Alimentarius--
an inter-governmental organization sponsored by the Food and 
Agriculture Organization and the World Health Organization, and the 
International Plant Protection Convention (IPPC), both recognized by 
the World Trade Organization (WTO) as the international food safety 
standard and plant health setting bodies, respectively. For instance, 
some WTO member countries block U.S. meat and poultry exports with 
protectionist measures, even though those products meet Codex 
standards. When member countries block products meeting both these sets 
of standards, they seemingly create Sanitary and Phytosanitary (SPS) 
non-tariff trade barriers.

    If confirmed, how will you hold our trading partners in the WTO 
accountable to their commitment to both the Codex Alimentarius and the 
IPPC and resolve SPS non-tariff trade barriers in these international 
markets?

    Answer. If confirmed, I am committed to ensuring that our trading 
partners live up to their international obligations, including their 
WTO obligation to base their SPS measures on scientific principles, and 
to base measures on international standards established by Codex, IPPC 
and the World Organization for Animal Health (OIE), as appropriate. I 
am committed to hold accountable countries that establish non-science 
based measures that are inconsistent with international standards and 
that block imports of safe U.S. agricultural products.

    Question. Despite efforts to engage with the prior administration, 
it failed to fully implement a key expansion of the Generalized System 
of Preferences passed in 2015 that made certain travel goods eligible 
to apply for duty-free status from all GSP countries. Even with a 
positive review from the interagency review process, the last 
administration declined to issue a proclamation fixing this issue 
before leaving office. These products are no longer made domestically. 
By only allowing imports from least developed countries and Africa, 
China has continued to dominate almost 90 percent of the market by 
quantity and U.S. companies have not been able to expand their 
sourcing. Maintaining import tariffs on luggage, handbags, backpacks 
and sports bags from most GSP countries has severely inhibited the 
ability of companies to utilize this program to lower costs and create 
American jobs. Additionally, U.S. companies are not able to move 
sophisticated, high-end packs and sports bags to countries that are not 
able to make them. U.S. companies need duty-free access from countries 
such as Indonesia, the Philippines, Thailand, and Sri Lanka.

    Will you agree to advise the President that all travel good lines 
contained in the bipartisan legislation be given duty free from all GSP 
countries and recommend the issuance of a Presidential proclamation in 
a timely manner?

    Answer. I understand there is a great deal of interest by some 
members of this committee, and travel goods importers, in extending 
duty-free treatment to the more economically advanced GSP countries for 
travel goods. If confirmed, I commit to review this issue carefully, 
consult with this committee and the Ways and Means Committee, and 
advise the President accordingly.

    Question. The United States for decades has shared a strong 
economic relationship with Taiwan. Last year, Taiwan was the United 
States' 10th largest trading partner.

    If confirmed, are you committed to strengthening our engagement and 
economic cooperation with Taiwan?

    Answer. As you point out, the United States and Taiwan have a 
longstanding and important trade and investment relationship. If 
confirmed, I intend to work to strengthen further those trade and 
investment ties. Recognizing that foreign investment from Taiwan and 
elsewhere can create more jobs in the United States and increase U.S. 
economic growth and competitiveness, and increased trade can benefit 
U.S. agricultural, goods and services trade, I intend to develop a 
trade and investment policy that promotes a stronger bilateral 
relationship with Taiwan and examine the prospects of additional 
negotiations with Taiwan, as well as to address longstanding problems 
such as market access for beef and pork.

                                 ______
                                 
              Questions Submitted by Hon. Michael B. Enzi
    Question. The U.S. soda ash industry is a shining example of U.S. 
competitiveness in manufacturing. The industry is the most competitive 
and environmentally friendly in the world due to a unique natural 
deposit of soda ash material, trona, in Green River, Wyoming. The 
industry exports over $1 billion annually, over half of its total 
output. There were two major developments in 2016 of importance to the 
U.S. soda ash industry.

    First, China's State Council officially recognized that its soda 
ash industry is in a state of overcapacity. And second, at the November 
2016 U.S.-China Joint Commission on Commerce and Trade (JCCT), in the 
context of discussions on industrial excess capacity, China agreed to 
exchange information on soda ash. China's overcapacity in soda ash 
directly harms the U.S. natural soda ash industry in its struggles to 
compete in key export markets against low-priced Chinese synthetic soda 
ash. As USTR, will you plan to hold China to its JCCT commitment to 
exchange information on its soda ash excess capacity?

    Answer. I understand that U.S. soda ash producers are among the 
cleanest and most efficient producers of this important industrial 
input, an important U.S. exporting industry, and that they compete 
head-to-head with Chinese soda ash exports in many third-country 
markets. If confirmed, I fully intend to hold China to its commitment, 
at the November 2016 U.S.-China Joint Commission on Commerce and Trade 
(JCCT), to exchange information on the soda ash industry.

    Question. What specific steps will you pursue to ensure that China 
remedies its industrial excess capacity in soda ash?

    Answer. If confirmed, I will work to develop effective ways to 
ensure that China addresses its excess industrial capacity, both as a 
systemic issue and in relation to specific industries like soda ash. 
These steps will include working with the soda ash industry to identify 
and address non-market industrial policies and unfair trade practices 
that may contribute to excess capacity.

    Question. Increasing our access for beef into Japan and other 
Southeast Asian countries is critical. President Trump has withdrawn 
from the Trans-Pacific Partnership (TPP) and has announced his focus 
will likely be on bilateral trade agreements with each of those 
nations. In particular, a bilateral trade deal with Japan is sorely 
needed as the U.S. beef exports to Japan currently face a 38.5% tariff 
in the Japanese market for both fresh and frozen beef. Australian 
frozen beef exports to Japan meanwhile currently face tariffs of 27.5%, 
which will decline to 19.5% over the next 15 years. Australian fresh 
beef exports currently face tariffs of 30.5% which will decline to 
23.5% over the next 12 years. Australian exporters clearly have an 
advantage over U.S. exporters in the Japanese beef market. Can you give 
us a better understanding of how the Trump administration will pursue 
opportunities for American beef producers in such bilateral agreements?

    Answer. If confirmed, I am committed to the expansion of U.S. beef 
exports through negotiations that remove tariffs and other barriers 
that restrict the trade of beef products. I am also committed to 
ensuring that U.S. trading partners meet international trade 
obligations, including those of the WTO SPS Agreement, by having 
regulatory measures based on science and international standards, 
including for beef.

                                 ______
                                 
                Questions Submitted by Hon. John Cornyn
    Question. As you know, the U.S. is the world's largest exporter of 
agricultural and food products. In fact, based on a recent study by 
Texas A&M University, included in the record, agriculture exports now 
account for 35 percent of U.S. farm income. Mexico is a key market for 
these goods.

    If confirmed, will you ensure that U.S. agricultural trade will 
remain globally competitive and secure, particularly with Mexico?

    In addition, will expanding agriculture exports be a priority for 
USTR and this administration? If so, what trade liberalization goals 
will you strive for and with whom?

    Answer. If confirmed, I will maintain a strong focus on U.S. 
agricultural exports and work to expand exports of all U.S. 
agricultural products, including to Mexico, to generate increased 
economic opportunities for America's farmers and ranchers. If 
confirmed, I will be sure to consult with you and other members of 
Congress as the administration pursues the trade agenda.

    Question. During the confirmation hearing, you testified that 
aspects of NAFTA have been beneficial to certain sectors of the U.S. 
economy and in any renegotiation you would work to ensure those 
American exports and sales are not lost and those agricultural and 
other American jobs not be put at risk. Today, significant amounts of 
Texas cotton as well as U.S. fabrics (also made with Texas cotton), 
fasteners, threads, and other components are exported to Mexico for 
final assembly and then imported back into the United States as 
finished garments. Moreover, American companies design, market, and 
sell these products and employ American workers across the country. 
These American farm, manufacturing, and brand jobs depend on a stable 
and vibrant NAFTA textiles and apparel supply chain.

    Will you commit to work with the committee and our NAFTA trading 
partners to ensure that this supply chain and the American jobs that 
depend on it will not be disrupted by a NAFTA renegotiation?

    Answer. American farmers and businesses play an important role in 
the North American textile and apparel supply chain. If confirmed, I 
will work with the committee and all stakeholders to maximize the U.S. 
economic benefits and American jobs connected with this supply chain.

    Question. As part of the last GSP renewal, we also expanded the 
list of eligible products to travel goods for the first time since the 
program's creation in 1974. Unfortunately, the Obama administration 
failed to follow congressional intent and extend travel goods GSP 
product eligibility to all GSP-eligible countries. We understand that 
Ambassador Froman left a recommendation to his successor recommending 
that based on further analysis by USTR, GSP travel goods eligibility 
should be extended to all GSP-eligible countries.

    If confirmed, will you commit to granting GSP travel goods 
eligibility to all GSP-eligible products?

    Answer. I understand there is a great deal of interest by you and 
other members of this committee, along with stakeholders such as travel 
goods importers, and foreign countries, in extending duty-free 
treatment to the more economically advanced GSP countries for travel 
goods. If confirmed, I commit to carefully review this issue, consult 
with you and advise the President accordingly.

    Question. Trade Promotion Authority (TPA) requires U.S. trade 
negotiators to ``achieve the elimination of government measures such as 
price controls and reference pricing which deny full market access for 
United States products'' and ensure ``that the provisions of any trade 
agreement governing IP rights . . . reflect a standard of protection 
similar to that found in United States law.''

    Will you ensure that any new U.S. FTAs meet this TPA standard, 
raising global standards to those that we use here in the United 
States?

    Answer. I believe that innovation is the central nervous system of 
the U.S. economy and the key to our comparative advantage in many 
sectors. If confirmed, I will seek to use all appropriate trade tools 
to ensure that U.S. rights holders have a full and fair opportunity to 
use and profit from their intellectual property rights, and to make 
sure that the administration is implementing fully the provisions of 
TPA. Ensuring strong intellectual property protection and enforcement 
by our trading partners will be a top trade priority.

    Question. Transparency and procedural fairness provisions have been 
crucial to a number of U.S. bilateral agreements. These provisions 
provide transparency to the process by which the national health-care 
authorities set reimbursement for medical devices. Even though 
bilateral agreements include transparency and procedural fairness 
provisions, U.S. companies have signaled a lack of compliance by 
certain nations when setting reimbursement rates.

    Will the administration work to ensure that provisions such as 
transparency and procedural fairness that are included in existing 
bilateral agreements are enforced?

    Answer. Vigorous enforcement of all trade agreement provisions is 
critical to vindicating the rights of American workers and firms and to 
maintaining public and congressional support for free and fair trade. I 
am committed to strong enforcement, including with respect to the 
transparency and due process provisions that relate to health care 
reimbursement systems of some of our trading partners.

                                 ______
                                 
                Questions Submitted by Hon. Richard Burr
    Question. The President has stated it is a priority to negotiate 
bilateral free trade agreements. One of America's greatest allies is 
the United Kingdom, and the UK is also one of North Carolina's top 
trading partners. There are many benefits to be had for North Carolina 
farmers, businesses, and workers by further increasing trade with the 
UK. As soon as possible, will you make negotiating a free trade 
agreement with the UK a priority?

    Answer. I appreciate your highlighting that North Carolina, like 
many other States, enjoys a substantial trade relationship with the UK. 
As you know, until the UK leaves the EU it cannot sign a comprehensive 
trade agreement and may be limited in the extent to which it can 
formally conduct trade negotiations. When UK Prime Minister May visited 
in January, however, she and President Trump expressed an interest in 
pursuing discussions on how to deepen bilateral trade. If confirmed, I 
look forward to working with Congress and other stakeholders on our 
future trade relation with the UK after it withdraws from the EU.

    Question. Various countries have actively manipulated the values of 
their currencies to make their exports more competitive and imports 
into their country more expensive. This has resulted in the loss of 
thousands of jobs in the United States by making imports from these 
countries into the United States artificially cheap. In the Bipartisan 
Congressional Trade Priorities and Accountability Act of 2015, which 
extended new trade promotion authority, Congress identified currency 
manipulation as a subject that should be addressed in future trade 
agreements. Will you commit as USTR to addressing currency manipulation 
in any future trade agreements or negotiations?

    Answer. I understand the importance of this issue and the emphasis 
Congress has placed on it, including in the TPA negotiating objectives. 
If confirmed, I will ensure that USTR makes progress, in any trade 
negotiation, in meeting this objective.

    Question. As you know, exports are critically important to 
agriculture. According to the United States Department of Agriculture, 
North Carolina's agricultural exports in commodities including pork, 
tobacco, poultry and soybeans exceeded $4.1 billion in 2014, which is 
an over 200% increase from 2005. What is your plan to expand 
agriculture exports?

    Answer. If confirmed, I am committed to the expansion of U.S. 
agricultural exports through negotiations that create enhanced export 
opportunities for our farmers and ranchers. I will also be committed to 
ensuring that trading partners meet international trade obligations, 
including those of the WTO SPS Agreement. When they fail to do so, I 
will aggressively utilize, in cooperation with administration and 
congressional colleagues, all available tools in the WTO and through 
other mechanisms.

    Question. During TPP negotiations, USTR sought to include a 
provision in the TPP agreement that singled out a particular 
agricultural export, tobacco, for different treatment under the 
agreement. Doing so would have set a harmful precedent for future trade 
agreements and the treatment of other American agricultural exports. If 
confirmed, can you assure me that you will work to promote all American 
agriculture exports and not work to undermine certain ones?

    Answer. If confirmed, I am committed to treating all U.S. 
agricultural products equally with respect to any foreign barriers.

    Question. Last year I joined Senators Hatch, Wyden, Portman, 
Toomey, and McCaskill in passing legislation to reform the 
Miscellaneous Tariff Bill process. The process enables companies to 
receive duty relief when importing items from abroad that are not 
manufactured in the United States. This is critical for the North 
Carolina textile industry, biotech industry, as well as other 
industries. Many of the items imported are inputs that are used in the 
U.S. manufacturing process, which is why this process boosts U.S. 
manufacturing and jobs. At times in the past USTR has raised concerns 
with certain petitions based on supposed negotiating leverage concerns. 
Will you commit to work with this committee and the ITC in support of 
the MTB process in keeping with the legislation as it was enacted by 
Congress?

    Answer. I recognize the importance of the Miscellaneous Tariff Bill 
process (MTB) for U.S. manufacturers and producers, and I understand 
that the American Manufacturing Competitiveness Act of 2016 established 
new procedures for the submission and review of petitions for temporary 
duty relief. If confirmed, I look forward to working with Congress and 
the U.S. International Trade Commission as this year's MTB process 
advances.

                                 ______
                                 
               Questions Submitted by Hon. Johnny Isakson
    Question. Georgia is home to the Port of Savannah, the fourth-
largest container port in the country and second largest on the east 
coast, and international trade and commerce is crucial to our economy.

    Will you commit to working with me as USTR to ensure that trade 
policies will support the growth and development of industries whose 
goods pass through the Port of Savannah?

    Answer. The Port of Savannah is a key hub for trade in agriculture 
and industrial goods, and, if confirmed, I look forward to working with 
you to expand opportunities for the continued growth of trade in the 
region and through the port.

    Question. Would you agree that NAFTA has been a success for 
American farmers and ranchers?

    Will you commit to strengthening American agriculture though any 
renegotiation or reworking of NAFTA so our farmers and ranchers can 
continue to sell more to Canada and Mexico?

    Will you also work with us to tackle longstanding agricultural 
policies concerns in Canada and Mexico that inhibit the exports of 
American farmers?

    Answer. I agree that for most agricultural sectors, the North 
American Free Trade Agreement (NAFTA) has provided important and 
growing trade opportunities that benefit America's farmers and 
ranchers. If confirmed, I will strengthen American agriculture through 
the renegotiations of the NAFTA and work to create enhanced export 
opportunities to Mexico and Canada for our farmers and ranchers, while 
we maintain the current markets that we already have.

    Question. I think it is important to include services as well as 
goods in our discussion about trade and trade deficits. Would you 
agree?

    The U.S. services trade surplus with Canada was $27.1 billion in 
2015. U.S. exports of services to Canada were an estimated $57.3 
billion in 2015, 6.6% ($4.0 billion) less than 2014, but 74.8% greater 
than 2005 levels. It was up roughly 237% from 1993 (pre-NAFTA).

    The U.S. services trade surplus with Mexico was $9.2 billion in 
2015. U.S. exports of services to Mexico were an estimated $30.8 
billion in 2015, 2.7% ($807 million) more than 2014, and 36.7% greater 
than 2005 levels. It was up roughly 196% from 1993 (pre-NAFTA).

    What steps will the administration take to build on this record of 
success for U.S. services companies and workers through a renegotiation 
of NAFTA?

    Do you agree that a thriving services economy in the United States 
also strengthens U.S. manufacturing and agriculture?

    Answer. The U.S. services sector is a key driver of the U.S. 
economy and also plays a key role in supporting and strengthening U.S. 
manufacturing and agriculture. The data cited in your question 
underscores this vital point. Maintaining a vibrant U.S. services 
sector and expanding U.S. services exports is vital to a healthy 
economy and a key objective of U.S. trade policy. If confirmed, I look 
forward to working with you to pursue our services trade priorities.

    Question. As you may know, Georgia is number three in the country 
for film production, and films are some of our more high-profile 
exports. Are you aware of the 2012 U.S.-China Film Agreement that 
followed our winning a case at the WTO?

    Will you commit to making full compliance of this agreement one of 
your priorities if confirmed, and ensure that all film exporters' 
interests--from large studios to independent film makers--are 
protected?

    Answer. Yes, I am well aware of the 2012 U.S.-China Memorandum of 
Understanding on films. Under this MOU, the United States and China 
reached an alternative solution with regard to certain rulings relating 
to the importation and distribution of theatrical films in a WTO 
dispute that the United States won. Significantly more U.S. films have 
been imported and distributed in China since the signing of the MOU, 
and the revenue received by U.S. film producers has increased 
substantially. If I am confirmed, I will work to advance the interests 
of all U.S. film exporters by ensuring China's compliance with the 2012 
MOU and by negotiating further meaningful compensation for the United 
States in this area.

    Question. How will you prioritize individual sectors when dealing 
with specific trade issues related to China?

    Answer. There is a series of important issues and sectors in our 
trade relationship with China. Each issue arises in its own context. 
Similarly, each presents particular challenges and occasionally 
opportunities for resolution. I intend to approach each in the manner 
and using the tools of engagement most likely to yield an effective 
resolution for American interests. In that regard, I look forward to 
working with Congress and relevant U.S. industries and stakeholders to 
address each of these issues.

    Question. I know we have spent a lot of time focusing on 
renegotiating NAFTA and doing vigorous enforcement of our existing 
trade agreements. While I agree with enforcing our current trade 
agreements and updating them as appropriate, I also believe that the 
United States should be outward facing and aggressive in cultivating 
trading relationships and pursuing trade agreements with new trading 
partners. Ninety-five percent of the world's market is outside of the 
United States, and we must try to gain ground that we have basically 
ceded to others by not having trade agreements. It is one of the 
reasons why I was so involved in the reauthorization of the African 
Growth and Opportunity Act. Part of that bill requires the USTR to 
assess the feasibility of entering into mutually beneficial trade 
relationships with sub-Saharan African countries.

    If confirmed, will you work with me to assess the feasibility of 
using every trade policy tool we have to grow U.S. market share across 
the globe?

    Answer. If confirmed, I would welcome this opportunity. Georgia is 
a leading exporting State, with nearly $36 billion worth of export 
sales in 2016, including almost $33 billion worth of manufactured 
goods, supporting tens of thousands of jobs. It is a large agricultural 
producer. It is a center of IP and technology, among other things as 
the generator of over 2,500 patents per year and the home of world-
recognized university research centers. It is also a global hub for air 
and maritime cargo, with the logistics industry employment and 
agricultural exports these industries support. I would hope to work 
closely with you to design agreements and enforcement priorities that 
maximize the benefit Georgians draw from these assets worldwide, 
including in current FTA partners, sub-Saharan African markets, and new 
markets in other regions.

    Question. Last month, Rwanda, Chad, Jordan, and Oman ratified the 
WTO's Trade Facilitation Agreement (TFA), bringing it into force. TFA, 
the first successful multilateral agreement of the Doha Round, contains 
provisions for expediting the movement, release, and clearance of 
goods, and it encourages cooperation between WTO members on trade 
facilitation and customs compliance issues. It also sets the stage for 
greater investment in trade capacity building in the developing world.

    As USTR, what would you do to implement TFA and to encourage U.S. 
leadership on trade facilitation and trade capacity building issues 
generally?

    Answer. The WTO FTA provides new, enforceable rules governing how 
U.S. goods will be treated as they move through our trading partner's 
border agencies, reducing trade costs and delays and allowing American 
goods to compete on a more level playing field. If confirmed as USTR, I 
will work to ensure that the TFA is implemented by all WTO Members 
under the timelines in the Agreement, press those WTO Members that have 
yet to ratify the TFA to do so expediently, and use the TFA Committee 
to promote full implementation of the Agreement.

    Question. How can USTR work with other U.S. agencies, such as U.S. 
Agency for International Development, the Overseas Private Investment 
Corporation and the U.S. Trade and Development Agency, to ensure a 
whole-of-government approach to strengthen trade facilitation and build 
trade capacity?

    Answer. If confirmed as USTR, I will undertake efforts to raise 
awareness of the TFA within the U.S. Government and among U.S. 
producers and manufacturers, and will engage with our trading partners 
on U.S. best practices for achieving full implementation of the 
Agreement, including coordinating U.S. Government efforts through the 
U.S. National Trade Facilitation Committee.

    Question. As a Senator from a State that is home to one of our 
major international airlines, I am quite concerned about unfair 
practices by state-owned airlines. Over the last decade, the 
Governments of Qatar and the UAE have granted billions of dollars in 
subsidies to these airlines, helping them to expand their aircraft 
fleets and take business from U.S. airlines and airlines in other 
countries. I am also concerned that these subsidies violate our Open 
Skies agreements and put thousands of well-paying U.S. jobs at risk.

    If confirmed, will you assure that you will work to support the 
interagency process to remedy these unfair practices and restore a 
level playing field for U.S. airlines?

    Answer. I understand the importance of this issue, and of ensuring 
that our international airlines compete on a level playing field across 
the globe. If confirmed, I will look into this matter and work closely 
with other involved agencies, such as the State Department and 
Department of Transportation, to do everything we can to ensure that 
our international carriers have a fair and equal opportunity to 
compete.

                                 ______
                                 
             Questions Submitted By Hon. Patrick J. Toomey
    Question. U.S. dairy exporters face significant tariff barriers 
from Canada and other countries. They also face major non-tariff 
barriers such as geographical indication (GI) regulations that prevent 
U.S. exporters from using common food names and threaten intellectual 
property rights. Do you agree that foreign GI regulations are 
problematic for U.S. exporters and will you address these regulations 
in future trade negotiations?

    Answer. I understand the importance of this issue to Congress. If 
confirmed, I will continue to raise strong concerns regarding the 
impact of the EU's GI policies on market access for U.S. owners of 
trademarks and U.S. producers and traders using common food names. I 
would also direct my staff to continue to press the EU to expand market 
access for U.S. producers into the EU and also work to safeguard third 
country markets, such as Canada, including through the removal of 
barriers such as overly broad GI protection for EU products.

    Question. India has a myriad of non-tariff barriers that infringe 
upon the intellectual property rights of American firms that do 
business there. This is particularly true for pharmaceutical companies. 
Will you examine strengthening intellectual property protections for 
U.S. companies in India?

    Answer. India's protection and enforcement of U.S. Intellectual 
Property Rights (IPR), including with respect to the pharmaceutical 
sector, are areas of substantial concern. If confirmed, I intend to 
address and work closely with the committee on these issues.

    Question. For years, I have heard from constituents that Colombia 
has erected a series of arbitrary regulations designed to limit imports 
of American heavy duty trucks. Will you monitor Colombia's regulations 
on imported trucks and take action if they continue to unfairly block 
U.S. exports?

    Answer. I share your concerns about Colombia's restrictive measures 
with respect to imported trucks, in particular the so-called scrappage 
requirements. If confirmed, I assure you that I will engage with U.S. 
stakeholders to address the issues more fully, monitor closely 
Colombia's actions affecting imported trucks, and engage further with 
Colombia.

    Question. Sugar is a vital input for many Pennsylvania food 
manufacturers. The previous administration severely limited sugar 
imports from Mexico through a suspension agreement, which harmed a 
number of manufacturers. Will you make it a priority in future 
negotiations to undo this damage and allow greater sugar imports from 
Mexico?

    Answer. USTR has no formal role in the administration of the sugar 
Suspension Agreements. If confirmed, I will consult with the 
Secretaries of Commerce and Agriculture, as well as members of Congress 
and the range of perspectives in our private sector, including sugar 
growers, refiners and confectionary producers.

                                 ______
                                 
                Questions Submitted by Hon. Dean Heller
    Question. International travel and tourism are major economic 
drivers in Nevada. Travel and tourism supports more than 368,000 jobs 
in Southern Nevada alone. Reno, Lake Tahoe, and Las Vegas are world-
renowned destinations that continue to see growth from international 
travelers. Will you make travel and tourism to the United States a top 
trade priority if you are confirmed?

    Answer. Tourism and travel services are among the most dynamic 
services sectors in the U.S. economy and also serve to support other 
major segments of our economy. If confirmed, I look forward to working 
with you to ensure that promoting tourism and travel-related services 
is an integral part of the U.S. trade agenda.

    Question. Many visitors to Nevada come from China, Canada, and 
Mexico--all countries this administration plans to have new trade 
negotiations with. How will you work to ensure that international 
travel polices to the U.S. are not adversely affected as you discuss 
other trade issues with those countries?

    Answer. As noted above, tourism and travel services are among the 
most dynamic sectors in the U.S. economy and also serve to support 
other major segments of our economy. If confirmed, I look forward to 
working with you to ensure that promoting tourism and travel-related 
services is an integral part of the U.S. trade agenda.

    Question. Foreign direct investment in Nevada based projects has 
grown significantly in recent years. Panasonic in partnership with 
Tesla are manufacturing commercial high density batteries outside of 
Reno, Nevada at the new gigafactory. Faraday Future, a new electric car 
manufacturer with overseas financing, has also committed to building a 
manufacturing plant in North Las Vegas. How will you ensure that U.S. 
trade policies will continue to promote foreign direct investments in 
Nevada?

    Answer. Inward and outward investment are critical drivers of U.S. 
jobs and U.S. economic growth. The United States is the most attractive 
place in the world to invest. I look forward to working with you and 
other members of Congress to use trade and investment policies to 
promote foreign investment in the United States that creates American 
jobs and increases U.S. economic growth and competitiveness.

    Question. Nevada was one of the hardest hit States during the 
recession. I would like to know what specific trade policies will you 
be advocating for that will directly help create jobs and increase 
economic growth in Nevada?

    Answer. Nevada is a strong exporting State with nearly $10 billion 
worth of exports in 2016, including $9.3 billion worth of manufactured 
goods, supporting tens of thousands of jobs; it is a large agricultural 
producer; and it is a center for IP and scientific research as the 
generator of over 700 patents per year. I would hope to work closely 
with you to design agreements and establish enforcement priorities that 
maximize the benefit Nevadans draw from these assets, by identifying 
opportunities to grow exports, enforcing IP and other rights, taking 
advantage of value-added agricultural exports to world markets, 
fighting unfair trading practices abroad, and so contributing to 
Nevada's growth and ability to support high-wage jobs.

                                 ______
                                 
                Questions Submitted by Hon. Bill Cassidy
    Question. Do you agree that as a result of the 21st Amendment to 
the U.S. Constitution, matters dealing with alcohol policy, and 
specifically the regulation of the manufacturing, distribution, 
transportation and selling of alcohol products, lies within the 
authority of the States as opposed to the USTR? In keeping with this 
well-established principle, will you work to ensure that the USTR does 
not act in a way that weakens the authority of the States with regard 
to their constitutional rights to regulate alcohol within respective 
State borders?

    Answer. If confirmed, I will ensure that USTR does not take 
positions that undermine the authority of U.S. States to regulate 
alcohol.

    Question. Duty drawbacks can occur when goods that were imported 
into the United States, and had a duty collected, are later exported. 
Duty drawbacks was one of the first laws passed by Congress and one of 
the few WTO sanctioned incentives left to encourage exporting.

    Current NAFTA rules significantly diminish the benefits provided by 
duty deferral programs and drawback regulations for a large category of 
goods exported to Mexico or Canada. NAFTA rules often lead to an 
additional duty payment in the United States that would not apply to 
identical shipments made outside of the NAFTA territory.

    Answer. I am aware of the concerns about NAFTA's provisions on duty 
drawback. If confirmed, I will examine this issue and will be 
interested in further hearing your perspectives.

    Question. The United States and Taiwan have a strong and important 
bilateral trade and investment relationship. Taiwan is currently our 
9th largest goods trading partner with $67 billion in total traded 
goods in the 2015 calendar year, our 7th largest importer of U.S. 
agricultural goods, and an important player in the global IT industry. 
Given recent events, how will your views specifically influence the One 
China Policy and what can the United States do to grow economic 
relations with Taiwan? Do you believe that a free trade agreement with 
Taiwan or Taiwan's participation in a future trade agreement are viable 
options?

    There are currently 4,338 jobs in Louisiana supported by Taiwan. Do 
you have any plans to incentivize Taiwan to further invest in the 
United States?

    Answer. As the President stated last month following his phone call 
with China's President Xi Jinping, the administration will honor the 
United States' longstanding One China Policy.

    As you point out, the United States and Taiwan have a longstanding 
and important trade and investment relationship. If confirmed, I intend 
to work to strengthen further those trade and investment ties. 
Recognizing that foreign investment from Taiwan and elsewhere can 
create more jobs in the United States and increase U.S. economic growth 
and competitiveness, I intend to develop a trade and investment policy 
that promotes foreign investment into the United States that advances 
these objectives. If confirmed, I will examine the prospects of 
additional negotiations with Taiwan.

    Question. You may recall when we met that we discussed the Seafood 
Import Monitoring Program finalized by NOAA last year. When we met, the 
rule was still under review by the previous administration. When 
finalized, my staff was told that USTR expressed concerns over national 
treatment of the domestic aquaculture shrimp industry, resulting in an 
indefinite stay for the implementation of shrimp in to this program. 
Shrimp was to encompass two-thirds of the volume and value of the 
seafood identified in the program. Protecting U.S. interests is 
important to me and my State.

    How do you plan to assist Gulf Coast industries comprised of small 
and medium sized business that are harmed by unfair trade, like the 
shrimp, crawfish and crab industries?

    Answer. Improving the competitiveness of small and medium-sized 
businesses, including domestic seafood producers, is a key priority of 
this administration. If confirmed, I will pursue all avenues to support 
this objective, including through trade negotiations, enforcement of 
our existing trade agreements, and application of our trade remedy 
laws. I look forward to consulting closely with Congress and industry 
on these important issues.

    Question. How will your trade office work with other government 
agencies such as U.S. Customs and FDA to ensure that we are not 
adversely impacting these industries by not enforcing our own health 
and safety standards on imported goods?

    Answer. If confirmed, I will work to ensure the competitiveness of 
U.S. industries, including through trade negotiations, enforcement of 
our existing trade agreements, and application of our trade remedy 
laws. I will work closely with other U.S. agencies to support the 
implementation and enforcement of U.S. laws and regulations, including 
U.S. health and safety standards, governing the import of fish and 
fisheries products in order to ensure a level playing field for our 
fishing sector.

    Question. How will you address WTO threats or challenges from 
countries that import seafood to the United States such as China, 
Vietnam or Chile?

    Answer. If confirmed, I will aggressively defend U.S. regulations 
at the WTO and through our bilateral or regional engagements, including 
FTAs.

    Question. As you likely know, the Jones Act, among other things, 
requires U.S. domestic waterborne commerce to be carried on vessels 
that are built and registered in the United States. The Jones Act also 
requires such vessels to be predominantly owned and crewed by U.S. 
citizens. USTR, in its role to expand market access for American goods 
and services, must, at times, engage on issues involving the Jones Act.

    According to a study done a few years ago, Louisiana has more than 
54,000 jobs connected to the maritime industry, contributing more than 
$11 billion to the State's economy. The study also showed our State 
ranked first in maritime jobs per capita and is one of top States for 
shipbuilding.

    Because of the importance of the Jones Act to Louisiana's maritime 
industry, can you please share what your position is on the Jones Act 
and how that statute will influence trade agreements the United States 
enters?

    Answer. I understand the importance that you and other members of 
Congress place on this issue. I agree that the Jones Act is crucial to 
ensuring the retention and growth of a robust U.S. maritime industry, 
which is critical to the national security of the United States. If 
confirmed, I intend to consult closely with Congress on any Jones Act-
related issues and ensure that our position in trade negotiations does 
not undermine our ability to enforce the statute.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
                           trade enforcement
    Question. This committee has been focused on trade enforcement in 
recent years. In the last Congress, we passed a robust package of new 
trade enforcement tools, including the ENFORCE Act, which created a new 
process requiring Customs and Border Protection to take swift action on 
allegations that duties on unfairly traded goods are being evaded.

    In addition, we enacted new directives requiring USTR to focus on 
fighting foreign trade barriers that have the greatest impact on U.S. 
jobs and growth. The law contains new requirements for congressional 
consultations and reporting to ensure that USTR takes Congress's views 
into account when it sets enforcement priorities and follows through on 
those priorities with action. You will be the first USTR to implement 
these new tools.

    Do you commit to follow the law and provide Congress with robust 
consultations and reporting--within the timeframes specified by law--to 
ensure that enforcement efforts are directed at the most critical 
problems facing U.S. workers, businesses, and farmers?

    Answer. The 2015 Act that contained the ENFORCE Act provided 
important new tools to USTR, Customs and Border Patrol and Commerce to 
improve the enforcement of Antidumping and Countervailing Duties and 
other measures. I am aware of the months and years of effort it took to 
pass that law and believe that it will provide important benefits to 
American workers, farmers, ranchers, and businesses, particularly those 
that rely on effective administration of border measures. If confirmed, 
I look forward to working with the other agencies to implement the law 
fully and vigorously and to following all the requirements set out in 
the law regarding stronger and better consultations with Congress 
concerning enforcement priorities. The input, ideas, and advice of the 
Senate Finance and House Ways and Means Committees, as well as others, 
will be critical in developing the enforcement priorities of my office.

    Question. According to the President's Trade Policy Agenda released 
earlier this month, one of the administration's key trade policy 
objectives is ``strictly enforcing U.S. trade laws to prevent the U.S. 
market from being distorted by dumped and/or subsidized imports that 
harm domestic industries and workers.'' We need a proactive government 
response to dumped and subsidized imports--only by tackling the issue 
of unfairly traded imports will many U.S. industries be able to 
recover. How can USTR work together with other agencies and the 
governments of other countries to strengthen enforcement of trade 
remedy laws and compliance with antidumping and countervailing duty 
orders?

    Answer. I have spent much of my professional life working to ensure 
the strong and effective implementation of American trade remedy laws 
and am strongly committed to their vigorous enforcement in the years 
ahead. As your question states, effective enforcement of these laws is 
an essential and indispensable element of a strong and effective trade 
policy for all Americans. If confirmed, I plan to coordinate closely 
with other government agencies in the strongest possible defense of 
U.S. law in the WTO, and to strengthen our collaboration with other 
like-minded WTO Members.

    Question. You have said in the past that there are insufficient 
resources dedicated to trade enforcement in the U.S. Government. Many 
members have sought to substantially increase trade enforcement 
resources including at USTR. Yet the President announced a hiring 
freeze that appears to apply to trade enforcers at a range of agencies, 
including the Department of Commerce, USTR, U.S. Customs and Border 
Protection, the Department of Interior's Fish and Wildlife Service, and 
the Department of Labor. I am particularly concerned about the timing 
of the freeze because several of these agencies are implementing new 
enforcement tools included in the Trade Facilitation and Trade 
Enforcement Act of 2015, and as a result have been tasked with even 
more extensive trade enforcement responsibilities.

    Do you think that USTR currently has sufficient resources for trade 
enforcement? If confirmed, how would you strengthen resources dedicated 
to trade enforcement in light of the hiring freeze?

    Answer. The President has made clear that trade policy negotiations 
and litigation are a top priority of the administration. Trade policy 
plays a critical part in every aspect of the economy and is essential 
to fulfilling the administration's goal of accelerating economic growth 
and improving U.S. standards of living. USTR's previous budget requests 
were based on the old status quo. Instead, President Trump places trade 
execution and enforcement at the top of his ``America first'' trade 
policy.

    I'm not in the administration and thus cannot speak on its behalf, 
but, in my personal view, we need more resources for USTR and with 
whatever we have we'll do the best job we can do.

    USTR's capabilities must grow to execute the President's new 
strategy. Increased resources are necessary to reinforce USTR's 
statutory obligations to (1) monitor compliance by foreign governments 
with trade policy commitments to the United States, detect violations 
as quickly as possible and take swift and successful actions to enforce 
U.S. rights and at the same time, (2) vigorously and successfully 
defend the ability of the United States to exercise its rights to 
ensure fair trade in the U.S. market, and, (3) take action under U.S. 
law to advance U.S. economic interests. If confirmed, I will work to 
ensure that USTR has the resources it needs to fulfill its mission.

    Sufficient resources are vital to a robust trade enforcement 
strategy. Many of the problems faced by U.S. exporters in foreign 
markets are hard to address due to lack of transparency or because they 
are legally or factually complex, requiring significant attorney, 
investigatory, analytical, or translation resources. If confirmed, I 
will commit to use all the resources available to USTR, and seek to 
draw on the significant expertise in other agencies, to enforce U.S. 
trading rights fully and ensure that our trading partners comply with 
their international obligations.
                          global overcapacity
    Question. Foreign government subsidies and other market-distorting 
policies have led to global overcapacity in a range of products, 
including aluminum, solar, and steel. The OECD has been trying to 
address this issue in the steel sector and has formed a ``Global 
Forum'' on excess capacity. Yet, to date, results have been 
disappointing. What specific steps should the United States take to 
obtain concrete results in the reduction of global steel, aluminum, and 
solar capacity?

    Answer. If confirmed, I will conduct a review of all available 
tools to address serious overcapacity problems in steel and other 
sectors, work to address the root causes of those problems, and 
continue to work closely with other leading steel producing countries 
in the Global Forum on Steel Excess Capacity and other contexts. Those 
tools include our trade remedy laws, WTO litigation, negotiations, and 
other mechanisms under U.S. law.

    If confirmed, I also will examine how we might use our existing 
bilateral dialogues to press China to fix its unfair trade practices 
and vast excess capacity problem in many industrial sectors. I will 
vigorously enforce and defend our trade remedy laws, and aggressively 
utilize all available tools in the WTO and other mechanisms to combat 
distortive trade practices.
                         market economy status
    Question. China claims that its protocol of accession to the WTO 
requires all countries to treat it as a market economy in antidumping 
investigations. The previous administration concluded that the United 
States is under no such obligation. Under the criteria applied by the 
Commerce Department, China is clearly not a market economy. Will you 
continue the position of the previous administration and defend the 
right of the United States to treat China as a non market economy? What 
specific steps would you take to ensure that our major trading 
partners, including the EU and Canada, support the position of the 
United States at the WTO regarding the interpretation of our 
international obligations?

    Answer. I disagree with China's claim that the change in its 
Protocol of Accession requires WTO Members to treat China as a market 
economy in antidumping proceedings. If confirmed, I can assure you that 
USTR will vigorously defend the right of WTO Members to use the 
strongest tools possible to counteract injurious Chinese dumping. This 
includes building a coalition of allies to defend this fundamental 
position at the WTO. I look forward to discussing with you the best way 
to work with the EU and other like-minded countries to defend the plain 
and clear language of China's Protocol of Accession.
                            hardwood plywood
    Question. For the hardwood industry, exports are extremely 
important to a significant number of companies that create jobs in 
rural areas. Approximately 40% of all hardwood lumber production is now 
exported, totaling $2.4 billion in 2016. The United States also enjoys 
a healthy trade surplus of $1.3 billion in hardwood lumber, up from 
$1.1 billion in 2015. At the same time, the hardwood engineered 
flooring and plywood veneer industry has been harmed by subsidized 
imports, particularly from China, that compete unfairly with U.S. 
products. How will you advise the administration to ensure that trade 
policies both support exports while at the same time addressing unfair 
trade practices?

    Answer. I appreciate the importance of hardwood production in the 
United States, as well as the success of U.S. producers in developing 
important and growing export markets. If confirmed, I will work with 
our industry and you to expand overseas market access for American 
hardwood and plywood exports, address unfair trading practices such as 
subsidization, and work with industry and other stakeholders to 
identify effective ways to address unfair trade practices in the U.S. 
market, including by use of our trade remedy laws.
                                  wine
    Question. USTR initiated a WTO case with Canada on January 18th 
over measures affecting the sale of wine in grocery stores in British 
Columbia. The U.S. wine industry is facing a host of discriminatory 
measures in Canada that adversely affect exports and job opportunities 
in the United States. If confirmed, and if Canada fails to eliminate 
the WTO inconsistent measures, will you proceed expeditiously to 
litigate the WTO case? And will you work to address other trade-
distorting policies in Canadian provinces that make U.S. wines more 
difficult to obtain and more expensive than Canadian-made products?

    Answer. I am aware that the United States requested consultations 
with Canada on its facially discriminatory distribution and sales 
measure that discriminates against our wine producers and exports. If 
confirmed, I will seek an immediate briefing by USTR staff on the 
content of the consultations that were held with Canada last month and 
what the most effective next steps are to address this problem. I look 
forward to looking carefully at other provincial measures that may be 
harming our wine exports. I have long believed that the United States 
should vigorously enforce our trade agreements. If confirmed, I will 
work to address these unfair barriers to U.S. exports, including these 
facially discriminatory restrictions on exports of U.S. wine to Canada.
                                 solar
    Question. The U.S. solar manufacturing industry, like the steel and 
aluminum industries, has been plagued by massive subsidies provided by 
China to its industry, which have contributed to significant 
overcapacity, as well as dumping by foreign producers. As a result, the 
U.S. solar industry has been repeatedly injured by dumped and 
subsidized imports. The industry brought two sets of antidumping and 
countervailing duty cases in 2011-2012 and in 2014-2015. Despite 
victories in these cases, dozens of U.S. producers were forced to 
close, declare bankruptcy, or lay off workers. USTR was engaged in an 
effort to resolve the solar dispute, as well as China's retaliatory 
cases on U.S. imports of polysilicon. If confirmed, will you commit to 
continuing to work for a favorable outcome for the U.S. solar 
manufacturing industry and its workers? If negotiations prove 
unsuccessful, what specific steps should the United States take to 
address China's distortive and harmful trade practices?

    Answer. I am aware of the longstanding complaint of the U.S. solar 
panel industry, validated repeatedly by the determinations of the U.S. 
Department of Commerce and the U.S. International Trade Commission 
(ITC), that China has been dumping and selling subsidized solar panels 
into the U.S. market, causing injury to our industry and workers. This 
unfair trade practice was targeted at an important and growing U.S. 
industry. Worse even, once the United States acted to apply its WTO-
consistent remedy, China retaliated by bringing its own antidumping 
duty case of questionable merit against producers of U.S. polysilicon. 
I can assure you that, if I am confirmed, USTR will reinvigorate its 
efforts with our industry in all areas to address the trade challenges 
that we face in the solar sector.
                                aluminum
    Question. I have raised serious concerns about efforts by China to 
undermine American aluminum producers through massive subsidies that 
distort world market prices, circumvention of trade remedies decisions, 
and acquisitions of U.S. producers that raise national security 
concerns. The United States has brought a case before the WTO, arguing 
that Chinese government support of the aluminum industry has caused 
serious prejudice to the United States. This is one of the most 
effective ways of responding to broad-based efforts by foreign 
governments to tilt the competitive field in favor of their companies.

    If confirmed, will you expeditiously move this case forward at the 
WTO, and be willing to bring similar cases for other industries where 
the facts warrant it?

    Answer. I am aware of the complaint filed that was filed in the WTO 
on Chinese aluminum subsidies. Broad-based efforts, such as this one by 
the Chinese government to tilt the competitive field in favor of its 
companies using artificial, non-
market mechanisms to advantage its producers is a serious problem that 
hurts U.S. workers and businesses. If confirmed, I will seek to attack 
unfair trade practices such as these as effectively as possible, using 
all appropriate tools.
                                 wheat
    Question. In Oregon and across the country, wheatgrowers depend on 
access to international markets to export product overseas and create 
job opportunities in rural communities. The previous administration 
brought several important WTO cases related to agriculture, including 
two cases against China for its provision of market support for 
products including wheat in excess of its WTO commitments and its 
failure to implement its commitments with respect to tariff rate 
quotas. If confirmed, would you continue to prioritize these disputes?

    Answer. I am aware of the pending matters that the United States 
has brought to the WTO involving the massive amounts by which China has 
exceeded its Aggregate Measure of Support and its WTO-inconsistent 
administration of its Tariff-Rate Quota for wheat, rice and corn. If I 
am confirmed, enforcement of fundamental U.S. rights such as these with 
respect to agricultural exports will remain a priority. I understand 
the serious concerns at issue with respect to these disputes, and look 
forward to discussing them further with you and the staff at USTR.
                             peru forestry
    Question. For years, I have been raising serious concerns regarding 
Peru's implementation of commitments in the Forestry Annex to the U.S.-
Peru trade agreement and massive shipments of illegally harvested 
timber destined for the United States. To address this challenge, USTR 
initiated a first-ever verification using special procedures in that 
agreement, which identified several shortcomings in Peru's forest 
management system that have contributed to trade in illegally harvested 
timber. Despite these steps, in recent months, Peru has appeared no 
closer to addressing the serious concerns identified than it was before 
the verification began. What specific steps will you take to ensure 
that Peru adheres to its obligations in the trade agreement and that 
trade in illegally harvested timber is stopped?

    Answer. I am aware of your longstanding interest in and efforts to 
advance implementation and then enforcement of the forestry commitments 
that Peru undertook in its free trade agreement with the United States. 
These commitments are important and far-reaching and have taken great 
effort over a number of years to pursue. If confirmed, I am fully 
committed to ensuring that Peru implements fully its obligations under 
the Forestry Annex. I look forward to working with you and other 
members, as well as our stakeholders, to ensure that we achieve that 
goal and to determine the most appropriate next steps.
                              transparency
    Question. Getting more transparency in our trade policy has been a 
top priority for me. Ordinary Americans need to know what our trade 
policymakers are up to, so that they can ask informed questions at town 
halls and help ensure that their interests are represented by America's 
trade agenda. Transparency is critical both in trade enforcement as 
well as negotiations for new agreements. The trade bills Congress 
passed last year include a host of new requirements to raise the bar 
when it comes to transparency. If confirmed, I expect you to consult 
closely with Congress and follow to the letter the new transparency and 
consultations requirements Congress established as part of the Trade 
Promotion Authority bill we passed in 2015 and the enforcement bill in 
2016. Will you commit to do that?

    What specific steps will you take to improve transparency and 
consultations with the public? In addition, will you allow cleared 
advisors to have timely access to the proposals made by our trading 
partners during negotiations to ensure that you are getting the best 
possible advice?

    Answer. One of the most important areas in which we need to do 
better is in reaching out to, listening to and communicating with the 
full range of stakeholders in the United States.

    I understand the importance that you and Congress place on these 
issues. If confirmed, I will ensure that USTR follows the TPA 
requirements related to transparency in any potential trade agreement 
negotiation. I will also look forward to discussing with you ways to 
ensure that USTR fully understands and takes into account the views of 
a broad cross-section of stakeholders, including labor, environmental 
organizations, and public health groups, during the course of any trade 
negotiation. My view is that we can do more in this area to ensure that 
as we formulate and execute our trade policy, we receive fulsome input 
and have a broad and vigorous dialogue with the full range of 
stakeholders in our country.
                             digital trade
    Question. The last administration made significant strides in 
addressing barriers to trade in services, particularly services that 
are reliant on digital trade. It pushed for new, 21st-century 
disciplines both in TPP and in negotiations for a plurilateral Trade in 
Services Agreement (TiSA). Those new disciplines include obligations 
that prevent our trading partners from requiring data to be stored in 
their country and restricting cross-border data flows, as well as 
commitments on related services, such as electronic payments. Such 
restrictions break the Internet into country-sized pieces, inhibiting 
the free-flow of information as well as commerce. Do you view 
addressing data localization and cross-border data flows for the United 
States as a priority? Will you commit to continuing the policy of 
pursuing strong commitments on all services, including digital trade in 
U.S. trade negotiations?

    Answer. The U.S. services sector is highly innovative and a key 
driver of the U.S. economy. Maintaining a vibrant U.S. services sector 
and expanding U.S. services exports, including in those areas of core 
U.S. strength, such as the Internet sector, is vital to a healthy 
economy and a key objective of U.S. trade policy. Addressing barriers 
to digital trade, such as restrictions on cross-border data flows and 
other data localization requirements by foreign governments, can help 
achieve those objectives. If confirmed, I look forward to working with 
you to pursue our services and digital trade priorities.

    Question. The United States leads the world in the Internet 
economy--and that is in part due to the United States having some of 
the most innovation-friendly laws and policies in the world. For 
example, Congress enacted core protections like section 230 of the 
Communications Act (enabling Internet platforms to serve as commercial 
marketplaces), and pursued strong and balanced copyright policy like 
the Digital Millennium Copyright Act and fair use, and promoted open 
data policies. Many U.S. services are now under threat overseas due to 
market access barriers and protectionist and less innovation-friendly 
legal and regulatory frameworks. In 2014, 9 out of the top 10 global 
Internet properties were made in the USA. Today, only 6 of those 
leading brands are U.S.-based, and they are engaged in fierce 
competition with China and other countries for access to nearly 200 
markets and 3.4 billion Internet users across the world.

    How do you plan to stop other countries from blocking or 
discriminating against U.S. services and adopting policies that inhibit 
innovative Internet businesses to ensure that the United States 
continues to lead the world in this sector?

    Answer. Maintaining a vibrant U.S. services sector and expanding 
U.S. services exports, including in those areas of core U.S. strength, 
such as the Internet sector, is vital to a healthy economy and a key 
objective of U.S. trade policy. Addressing barriers to digital trade, 
including policies that discriminate against U.S. digital services, can 
help achieve that objective. If confirmed, I look forward to working 
with you to pursue this objective.

    Question. I am deeply concerned that U.S. companies face the most 
uneven of playing fields in China. Increasingly, Chinese regulation is 
making it difficult or even impossible for U.S. cloud services 
companies to operate in China. Meanwhile, Chinese cloud service 
providers can operate in the United States today without similar 
regulatory restrictions. U.S. cloud service providers are strong 
catalysts for economic and jobs growth, and it is unacceptable to think 
that they could be locked out of China entirely. Can you promise that 
you will prioritize this issue in your discussions with Chinese 
officials and underscore that China must stop discriminating against 
U.S. cloud service providers?

    Answer. I recognize that U.S. leadership in the technology sector, 
particularly in cloud computing, is a national strength and a source of 
our international competitiveness. I agree that our trade policy should 
work to ensure that U.S. companies in this sector can thrive globally, 
including in China, where I recognize that barriers have been severe 
and contrast sharply with the open market in the United States. If 
confirmed, I will look forward to working with you on these issues, and 
I will make seeking progress in reducing barriers to U.S. companies in 
this sector, including in China, a priority.

    Question. The Obama administration requested that the U.S. 
International Trade Commission conduct three investigations under 
section 332(g) of the Tariff Act of 1930 regarding the value of new 
digital technologies for U.S. firms and the impact of barriers to 
digital trade on U.S. firms' competitiveness in international markets. 
It is critical that the United States have a full understanding of the 
digital trade landscape to inform its position in trade negotiations 
and to identify major trade barriers in the digital sector that impact 
manufacturers as well as the services sector and small businesses. Will 
you commit to making these reports public so that policymakers and the 
public can use them to inform views and priorities in the new economy?

    Answer. I agree that the Internet is ``the shipping lane for 21st-
century goods and services'' and the digital economy is critical to the 
ability of the United States to compete in the 21st-century global 
economy. I support the request made to the ITC to conduct the three 
investigations relating to digital trade. If confirmed, I will work 
closely with you and other Senators and members to set priorities 
concerning the digital trade and investment matters, and discussing 
with you, if I am confirmed, ways to share to the maximum extent 
possible the three ITC studies requested.

                         trade and environment
    Question. You have said that climate legislation, such as a carbon 
tax with a border adjustment that ensures neutral and equal application 
of regulatory requirements to imports, could be enacted consistently 
with our WTO obligations. Do you continue to hold that view?

    Answer. If I am confirmed as USTR, I will not have responsibility 
for climate policy. That will be a question for the Congress and 
appropriate administration officials. However, I do believe that our 
WTO obligations do not preclude us from achieving our environmental 
policy goals in a manner consistent with true market-based competition.
                            trade and labor
    Question. You have mentioned the importance of labor commitments in 
trade agreements and the need for tougher enforcement of those 
commitments. The Obama administration obtained enforceable labor 
standards in TPP as well as enforceable implementation plans, setting 
out specific requirements that countries must meet in order to comply 
with their TPP obligations. Those implementation plans were an 
important tool to ensure that trading partners made the changes to 
their domestic law necessary to fulfill their commitments.

    If confirmed, and should you pursue new negotiations with the 
parties to TPP, would you seek both enforceable labor standards as well 
as enforceable action plans to address shortcomings in our trading 
partners' labor regimes?

    Answer. Labor protections are important negotiating objectives that 
Congress has set out in TPA. If confirmed, I look forward to consulting 
closely with you and other members of Congress and stakeholders with an 
interest in these issues as we seek to negotiate trade agreements that 
reflect high-standard protections for our workers and to ensure a level 
playing field for American workers and businesses.
                               ustr role
    Question. There are a number of people at the White House who have 
been given responsibility for trade policy, including the President's 
advisor for international negotiations and the new National Trade 
Council. In addition, the President has at times suggested that the 
Secretary of Commerce will have lead responsibility for renegotiating 
NAFTA.

    Could you please explain the role that each of these individuals 
would play in trade negotiations, mindful of the statutory 
responsibility of the USTR to have primary responsibility for 
developing United States trade policy and to serve as the principal 
spokesperson on trade?

    Answer. As I stated during my testimony, if confirmed as USTR, I 
fully expect to have the full statutory authority over trade policy, 
including serving as the President's principal spokesperson on trade, 
as intended by Congress.

    In my experience with previous administrations, there are almost 
always, several sources of influence over trade policy, and it is the 
Trade Representative's job to balance these interests and sort it out. 
I have a very good relationship with Secretary Ross and others in the 
White House and expect to enjoy a fully collaborative relationship with 
each.
                                currency
    Question. The President repeatedly stated on the campaign trail 
that he would instruct his Treasury Secretary to name China a currency 
manipulator on ``Day 1'', but has yet to do so. Do you share the 
President's view that China should be named a currency manipulator? As 
the USTR, what advice would you give the President on the implications 
of naming China a currency manipulator today?

    Answer. If confirmed, I will work with other administration 
officials, including at the Department of the Treasury, to develop an 
effective approach for addressing the problem of currency manipulation. 
In the past, it has been my judgment that China was a substantial 
currency manipulator. I think we've lost a lot of jobs in the United 
States because of it. And, it's not just China. There are other 
countries that have done it. As for today, the lead responsibility for 
determining whether China is a currency manipulator falls to the 
Department of the Treasury.

    Question. Currency manipulation by U.S. trading partners is a 
serious trade barrier facing our manufacturers, and this committee has 
spent a lot of time grappling with the problem. Last Congress, two 
bills--the Bipartisan Congressional Trade Priorities and Accountability 
Act of 2015 (TPA 2015) and the Trade Facilitation and Trade Enforcement 
Act of 2015--that contained provisions addressing currency manipulation 
were signed into law. In TPA 2015, Congress identified currency 
manipulation as a subject that should be addressed in future trade 
agreements.

    Will you commit as USTR to addressing currency manipulation as a 
part of any future trade agreements, including any renegotiation of 
NAFTA?

    Answer. I understand the importance that you and Congress place on 
this issue. I have also been long concerned about the potential for 
currency manipulation and misaligned currency to affect international 
trade flows. If confirmed, I will make every effort to satisfy the TPA 
priority negotiating objective and will work with you and Congress to 
determine the best means to address this longstanding issue.
                                 nafta
    Question. When Secretary Mnuchin was before this committee for his 
confirmation hearing, he indicated that the outcomes in TPP would be a 
starting point for a NAFTA renegotiation. Do you share that view? Are 
the benefits in TPP a floor for what the administration should seek to 
achieve in the new negotiations it contemplates with Canada and Mexico? 
What specific improvements over TPP do you think the administration 
should seek in any NAFTA renegotiation discussions?

    Answer. I believe that in negotiating a new trade agreement we 
should learn from, and build on, earlier negotiated trade agreements. 
In the case of NAFTA and TPP, there is much in TPP that goes well 
beyond NAFTA. So, in a renegotiation of NAFTA, we should consider 
incorporating those provisions as well as improving areas where we may 
be able to go beyond TPP. In determining what those areas are and what 
to prioritize, I look forward to working with you, other members of 
Congress, and stakeholders.

    Question. Canadian subsidies to softwood lumber have been a top 
concern for me for years and are the subject of new trade cases before 
Commerce and the International Trade Commission. Canada has in the past 
used special procedures included in Chapter 19 of NAFTA to force U.S. 
trade agencies to weaken trade remedies decisions on softwood lumber. 
The Trump administration seems to want to renegotiate NAFTA, but have 
also suggested that they merely intend to ``tweak'' the agreement as to 
Canada.

    What are your views on NAFTA Chapter 19? If confirmed, and if the 
administration initiates negotiations with Canada with respect to 
NAFTA, will you commit to working to address longstanding concerns with 
Chapter 19?

    Answer. The review of disputes pursuant to trade remedy laws 
contained in Chapter 19 of NAFTA is an area that has raised concerns 
among members of Congress and U.S. industry. Should I be confirmed, I 
certainly would want to work with you and U.S. industry regarding your 
concerns on Chapter 19.

    Question. I have long said that NAFTA is in need of an upgrade. The 
Trump administration has indicated that it would like to renegotiate 
NAFTA. In doing so it is important to address longstanding concerns 
with Canada, including those affecting U.S. dairy producers, but also 
important to ensure that benefits for American workers and farmers are 
not lost. Can you assure me that any NAFTA discussions will not move 
backward in terms of our existing opportunities for exports to those 
countries, including for dairy products? How do you plan to use these 
discussions to tackle deeply entrenched areas where there are in fact 
serious concerns--such as with the various types of barriers our dairy 
exports to Canada continue to face?

    Answer. I understand that Canada maintains strict limits on imports 
of dairy products, through its supply management program and other non-
tariff barriers. If confirmed, I will consult with you on the most 
appropriate way to address this matter. If confirmed, I will work to 
achieve the expansion of U.S. agricultural exports, including dairy 
products, through negotiations with our trading partners that create 
enhanced export opportunities while we maintain the current markets 
that we already have.

    Question. Canada and Mexico made new commitments on digital trade 
in the TPP, these commitments are significant because the free flow of 
information across borders is important not only to brick and U.S. 
technology firms, but increasingly to businesses of all sizes and 
types. Another aspect of the digital revolution we are experiencing is 
the power it has unleashed for very small businesses. If you have an 
Internet connection, you can now find customers abroad and become an 
exporter--a prospect that was unthinkable for small businesses 15 or 20 
years ago. We need to encourage this commerce that is becoming a larger 
share of U.S. exports. One barrier is the red tape that other countries 
impose on imports, that make it hard for very small businesses to 
efficiently export. In the United States, we have a $800 de minimis 
threshold to exempt imports from duties and many formalities of 
importation. Canada's threshold is 20 Canadian dollars. This is a huge 
barrier for our small businesses.

    Will you demand that Canada increase its de minimis threshold as 
part of any NAFTA renegotiation, and will you use any other opportunity 
to raise this with them?

    Answer. If confirmed, I will consult with Congress and domestic 
stakeholders to develop a strategy that seeks to address concerns with 
Canada's low de minimis level. I believe that increasing Canada's de 
minimis level could be a significant issue in our overall bilateral 
trade engagement with Canada, as well as in our engagement with Canada 
in multilateral trade forums.
                              asia-pacific
    Question. The Trump administration withdrew from the proposed 
Trans-Pacific Partnership agreement negotiated by the Obama 
administration. Several countries in the Asia-Pacific that were party 
to that agreement are now considering ways to deepen trade ties in the 
absence of U.S. engagement in the region. In the absence of TPP, what 
specific steps will you take to ensure that U.S. workers, farmers, and 
manufacturers have the same opportunity to compete in countries such as 
Japan and Vietnam as workers, farmers, and manufacturers in Europe, 
Australia, Canada, and other countries that have concluded or are in 
the process of negotiating trade agreements with those countries?

    Answer. The Trump administration intends to play a strong 
leadership role in the Asia-Pacific, including through the active 
negotiation of bilateral trade agreements and other trade initiatives 
aimed at ensuring that U.S. workers, farmers, ranchers and businesses 
have a fair opportunity to compete in these markets. If confirmed, I 
look forward to working closely with you and Congress to increase U.S. 
economic growth, foster job creation in the United States, promote 
reciprocity with our trading partners, and enhance U.S. competitiveness 
in the Asia-Pacific region and globally.
                                 t-tip
    Question. The European Union is the top export market for the 
United States. At the same time, U.S. businesses and farmers face 
significant barriers to the EU market. The Obama administration had 
launched T-TIP negotiations with the EU to those barriers our 
exporters--where I believe we could be even more successful.

    Do you support continuing those negotiations? What alternative 
would you suggest to address trade barriers in the EU?

    Answer. I agree with you about the importance of the EU as an 
export market for the United States. I understand that the T-TIP 
negotiations sought to reduce or eliminate barriers to U.S. exports in 
the EU, and that, while the United States made progress toward that 
goal, a number of difficult issues could not be resolved. I would look 
forward, if I am confirmed, to consulting with you and with other 
members of the committee on whether, when, and how to proceed with a 
trade agreement with Europe. It is our impression, though, that 
upcoming elections in France, Germany, and other EU member states will, 
in any case, make it difficult for the EU to resume comprehensive trade 
negotiations until at least the end of this year. In the meantime, we 
would be open to exploring ways to address barriers to U.S. exports and 
to expand trade with the EU and its member states. As I said during my 
confirmation hearing, we also want to look for opportunities to 
strengthen cooperation with the European Commission and with EU member 
state governments on global trade issues of common concern, including 
the non-economic expansion of production capacity around the world in 
critical sectors such as steel, aluminum, and solar panels.
                         border-adjustable tax
    Question. When you testified before the Ways and Means Subcommittee 
on Trade in 2007 you spoke at length about the unfairness of the tax 
rebates that countries are granting under their VAT systems of 
taxation. You said that you would tell those countries that if the 
inequity is not corrected by an agreement within 18 months, than the 
United States would ``start countervailing against people who rebate 
their taxes when they ship to the United States.'' The Ways and Means 
Committee Republicans recently proposed that the United States adopt a 
border adjustment of its own, with a rebate on exports. If we were to 
do so, is it your view that our exports would be countervailable by 
other countries?

    Answer. The WTO rules for indirect taxes and direct taxes differ 
greatly. This raises fundamental issues for WTO Members that may rely 
more on direct taxes rather than indirect taxes for revenue. For 
decades, Congress has identified correcting this imbalance as a 
negotiating objective of the United States. If the imbalance were to be 
fixed, rebate of direct taxes would not be countervailable under WTO 
rules. I am very much aware of the issue and take it very seriously. If 
confirmed, I look forward to working with you as to the most 
appropriate approach to address this issue.
                                services
    Question. Services accounted for 30 percent of U.S. exports in 
2014, supporting 4.6 million jobs. We are by far the largest services 
exporter in the world, with exports of $710 billion dollars in 2014 and 
a trade surplus in services of $233 billion. And, our robust service 
sector is critical to supporting the manufacturing sector and small 
businesses. This success comes despite the fact that there are many 
barriers in overseas markets; we could be doing even more. Negotiations 
for the Trade in Services Agreement have made significant progress to 
pull down these barriers. Do you agree that pursuing Trade in Services 
Agreement (TiSA) negotiations at the WTO would serve U.S. interests in 
lowering barriers in trade in services? What plans do you have to 
capitalize on U.S. leadership in services and make sure that markets 
are open to services exports?

    Answer. The U.S. services sector is highly innovative and a key 
driver of the U.S. economy. Maintaining a vibrant U.S. services sector 
and expanding U.S. services exports is vital to a healthy economy and a 
key objective of U.S. trade policy. If confirmed, I look forward to 
working with you to pursue our services trade priorities.
                        geographical indications
    Question. There is a growing set of strategies that our competitors 
use to shut us out of foreign markets. For example, the EU is very 
aggressive in pursuing the misuse of geographical indications in third 
countries to impede competition from the United States. They do this 
through international forums, as well as in their trade agreements and 
other arrangements with countries around the world, hoping to lock U.S. 
food products out of those markets. The last administration made it a 
point to work to aggressively combat these types of threats created by 
government policy to U.S. exports. If confirmed, how will you work to 
create a level playing field for our companies so that their food 
products can reach consumers around the world?

    Answer. I understand that the United States and the EU have long-
standing differences over the scope and level of intellectual property 
rights protection for geographical indications (GIs). If confirmed, I 
will continue to raise strong concerns regarding the impact of the EU's 
GI policies on market access for U.S. owners of trademarks and U.S. 
producers and traders using common food names. I would also direct my 
staff to continue to press the EU to expand market access for U.S. 
producers into the EU and also work to safeguard third country markets, 
including through the removal of barriers such as overly broad GI 
protection for EU products.
                                 israel
    Question. The Trade Facilitation and Trade Enforcement Act of 2015 
tasked negotiators of proposed trade agreements with other countries 
regarding commercial partnerships with discouraging actions by those 
countries that prejudice or discourage commercial activity solely 
between the United States and Israel; discouraging politically 
motivated boycotts of, divestments from, and sanctions against, Israel 
and seeking the elimination of politically motivated nontariff trade 
barriers; and seeking the elimination of state-sponsored unsanctioned 
foreign boycotts of Israel, or compliance with the Arab League Boycott 
of Israel. Do you commit to pursuing the goals set out by Congress in 
this provision in the conduct of trade negotiations?

    Answer. If I am confirmed, I will follow the position of the 
administration to oppose strongly and actively boycotts or similar 
efforts targeted against the State of Israel, and I will ensure that 
USTR follows the guidance provided by Congress, including the principle 
negotiating objective contained in TPA, in any potential trade 
negotiation.
                generalized system of preferences (gsp)
    Question. Last year, Chairman Hatch and I, along with many 
colleagues on both sides of the aisle, wrote Ambassador Froman urging 
him to follow congressional intent and request the President designate 
travel goods as duty-free for all GSP eligible countries. The Obama 
administration deferred a final decision on this matter, and it will 
now be up to the current administration to make the designation. As 
USTR, will you recommend to the President that the GSP program, with 
appropriate consideration due to domestic production, should allow for 
duty-free imports of designated travel goods from all GSP eligible 
countries?

    Answer. I understand there is a great deal of interest by some 
members of this committee, and travel goods importers, in extending 
duty-free treatment to the more economically advanced GSP countries for 
travel goods. If confirmed, I commit to carefully review this issue, 
consult with you and with the committee and the Ways and Means 
Committee, and advise the President accordingly.

    Question. The Government of Tanzania is currently engaging in 
actions that appear to violate the rights of U.S. investors and impede 
U.S. trade and investment in that country. If you are confirmed, will 
USTR take steps to impose consequences on Tanzania and other countries 
that engage in similar activities? For example, would you be open to 
considering whether Tanzania's actions provide a basis for suspending 
its eligibility under the Generalized System of Preferences?

    Answer. If confirmed, I will commit to work with you and the 
committee, as well as the interagency and stakeholders, to ensure that 
foreign governments treat the United States, U.S. investors, and U.S. 
exports fairly and comply with their legal obligations. As part of this 
commitment, I look forward to working to ensure that GSP and AGOA 
beneficiary countries are meeting the GSP and AGOA statutory 
eligibility criteria.

                                 ______
                                 
              Questions Submitted by Hon. Debbie Stabenow
    Question. China and other countries like Japan have a long history 
of manipulating their currencies, hurting American workers and 
manufacturers. Some reports indicate as many as 5 million jobs, many of 
which are manufacturing jobs, have been lost due to currency 
manipulation and other unfair barriers and practices.

    How will you successfully deal with countries such as China and 
Japan that have a long history of manipulating their currencies?

    What tools would you use to stop our trading partners from 
subsidizing their exports and violating their agreements?

    Answer. If confirmed, I will work with other administration 
officials to develop effective approaches to address the problem of 
currency manipulation. I will also support strict enforcement of our 
trade remedy laws to deal with unfair trade.

    Question. I have called for prioritizing currency manipulation in 
our trade negotiations. I have already spoken to Secretary Mnuchin 
about this, and he said he supports the inclusion of strong enforcement 
provisions in our trade agreements.

    Will you commit to supporting and negotiating the inclusion of 
strong and enforceable currency provisions in future trade agreements?

    Will you commit to including currency provisions in a future NAFTA 
renegotiation?

    Answer. As indicated in my response to the above question, I am 
committed to developing effective approaches to address the problem of 
currency manipulation. If confirmed, I will work with other 
administration officials, including Secretary Mnuchin, to develop the 
best possible enforcement tools.

    Question. Agriculture is Michigan's second-largest industry, and 
agricultural exports support about 24,000 jobs in my State. As this 
administration considers reopening discussions around NAFTA, I'm 
concerned that the aspects of the agreement which have largely been 
working well--which includes agriculture--may be targeted in order to 
make changes in other areas. Additionally, certain agricultural 
industries are still facing some challenges with our NAFTA trading 
partners, including longstanding trade barriers with Canada for our 
dairy producers and market access issues in Mexico for our potato 
growers.

    Will you commit to working with me to ensure that any renegotiation 
of NAFTA works for our farmers--both in preserving the gains 
agriculture has seen under the agreement and in addressing some of 
these ongoing trade barriers?

    Answer. If confirmed, I will strengthen American agriculture 
through negotiations that create enhanced export opportunities for our 
farmers and ranchers, while we maintain the current markets that we 
already have. If confirmed, I will also work with you and other members 
of Congress to resolve barriers to U.S. agricultural exports and to 
ensure that trading partners meet international trade obligations.

    Question. In December 2015, in the face of threats of trade 
retaliation from Canada and Mexico, Congress repealed Country of Origin 
Labeling (COOL) for certain beef and pork products. Congress did this 
to comply with a conclusive WTO ruling against COOL and therefore to 
remove the threat of trade retaliation. Even so, Canada and Mexico have 
not officially withdrawn the case, leaving American producers and 
businesses wondering when they can move on from this difficult, hard-
fought dispute.

    Will you commit to raising this issue with Canada and Mexico and 
bringing the case to a close?

    Answer. If confirmed, I will be committed to working with Canada 
and Mexico to formally terminate this dispute.

    Question. Until 2002, the U.S. was a net exporter of cherries. Now, 
over 40% of our tart cherry consumption is made up of imports, 
primarily from Turkey, Poland, and Hungary. In particular, subsidized 
production and exports from Turkey are threatening to put our domestic 
cherry producers out of business.

    Will you commit to working with me and meeting with farmer and 
industry representatives to discuss this issue and pursue options to 
address their concerns?

    Answer. If confirmed, I look forward to working with you, cherry 
producers and industry representatives on this issue.

    Question. Japan's auto market is the world's third largest after 
China and the United States. However, Japan's auto market is also the 
most closed among developed countries. Imports from the United States 
and around the world only account for a fraction of Japan's passenger 
car market. At the same time, Japanese domestic automakers export 
millions of vehicles to open markets around the world, including the 
United States.

    How do you see USTR's role in the U.S.-Japan economic dialogue and 
what do you see as the main U.S. priorities?

    Answer. I share your serious concern with respect to the large 
imbalance in our auto trade with Japan. If confirmed, I will utilize 
all opportunities to address barriers to U.S. autos as well as barriers 
to other U.S. goods and services exports to Japan, and look forward to 
working closely with you and others in Congress to aggressively address 
priority U.S. market access concerns.

    Question. How will you secure policy reforms that will remove 
Japan's non-tariff barriers and achieve access to Japan's closed auto 
market?

    Answer. Removing non-tariff barriers facing U.S. auto exports to 
the Japanese market requires comprehensive, sustained engagement. If 
confirmed, I pledge to work closely with you and with U.S. stakeholders 
by placing a high priority on our engagement with Japan to identify and 
remove the multiple barriers and enable U.S. manufacturers finally to 
have the opportunity to compete on a level playing field.

    Question. Given our long-standing trade problems with China, I do 
not believe they deserve market economy status at the WTO and I have 
serious concerns about China's pursuit to change this designation. I am 
also concerned the EU will consider changing its previous position on 
China's market economy status.

    Will you work with the EU and our other allies to maintain China's 
non-market economy status?

    Answer. Many WTO Members, including the European Union (EU), 
currently apply a non-market economy methodology to China in 
antidumping proceedings. If confirmed, I commit to doing everything I 
can to persuade these Members to work with the United States in 
strongly defending our right to continue to apply a non-market economy 
methodology to China at the WTO.

    Question. The steel industry is a critical economic driver in 
Michigan, employing more than 7,000 jobs and supporting nearly 50,000 
additional jobs. As you know, the steel industry is facing a crisis 
because of global overcapacity.

    How can we press China and other countries on the problem of steel 
overcapacity?

    How can we work with our allies to combat this serious problem?

    Answer. If confirmed, I will conduct a review of all the available 
tools to address the serious overcapacity problems in steel and other 
sectors, work to address also the root causes of those problems, and 
continue to work closely with other leading steel producing countries 
in the Global Forum on Steel Excess Capacity and other contexts.

    I also will examine how we might use our existing bilateral 
dialogues to press China to fix its unfair trade practices and vast 
excess capacity problem in many industrial sectors.

    Meanwhile, if confirmed I will vigorously defend our trade remedy 
laws, and aggressively utilize all available tools in the WTO and under 
other mechanisms to deter and address Chinese government subsidies and 
other forms of industrial policy and government support that provide 
artificial, non-market advantages to Chinese firms, including state-
owned enterprises, in the steel sector.

    Question. You have spent many years fighting for strong action 
against foreign subsidies in the steel sector and their harm on 
American workers and businesses. Aviation workers in Michigan and 
across the country are currently facing a related issue. The U.S. is 
party to over 100 ``Open Skies'' agreements. However some countries in 
the Middle East provide subsidies to their state-owned airlines, 
creating competitiveness concerns that put our U.S. aviation jobs at 
risk.

    If you are confirmed, will you actively work to remedy these 
subsidies and level the playing field?

    Answer. I understand the importance of this issue, and of ensuring 
that our international airlines compete on a level playing field across 
the globe. If confirmed, I will look into this matter and work closely 
with other involved agencies, such as the State Department and 
Department of Transportation, to do everything we can to ensure that 
our international carriers have a fair and equal opportunity to 
compete.

    Question. I am very concerned about the offshoring of U.S. jobs. 
NAFTA's weak and unenforceable labor and environmental side agreement 
has contributed to this offshoring.

    Will you commit to negotiating stronger labor and environmental 
standards in a NAFTA renegotiation?

    If yes, will you commit to including these commitments in the main 
text of the agreement?

    Answer. I share your concern about the enforcement of labor and 
environmental laws by trading partners, which is important to ensure a 
level playing field for U.S. workers, ranchers, farmers and businesses. 
NAFTA does not incorporate advances made in later agreements and 
addresses labor and environment issues only in side agreements. If 
confirmed, I commit to work closely with you, other members of Congress 
and stakeholders to ensure that NAFTA is updated in ways that comply 
with TPA objectives for labor and environment, including by placing 
enforceable labor and environment commitments in the main text of the 
agreement.

    Question. I am concerned about transparency in our trade 
negotiations, particularly the inability for the public and public 
interest groups to provide input on negotiated texts that are often 
kept hidden.

    Are you satisfied with the current advisory system for our trade 
agreements?

    Would you support including public interest groups such as labor, 
environmental, and public health groups to assist in advising and 
helping shape U.S. proposals and rules under negotiation?

    Answer. One of the most important areas in which we need to do 
better is in reaching out to, listening to and communicating with the 
full range of stakeholders in the United States.

    I understand the importance that you and Congress place on these 
issues. If confirmed, I will ensure that USTR follows the TPA 
requirements related to transparency in any potential trade agreement 
negotiation. I will also look forward to discussing with you ways to 
ensure that USTR fully understands and takes into account the views of 
a broad cross-section of stakeholders, including labor, environmental 
organizations, and public health groups, during the course of any trade 
negotiation. My view is that we can do more in this area to ensure that 
as we formulate and execute our trade policy, we receive fulsome input 
and have a broad and vigorous dialogue with the full range of 
stakeholders in our country.

    Question. The American film and television industry supports over 2 
million jobs across the country. In Michigan, the industry supports 
more than 31,000 jobs and 2,450 small businesses. A big part of the 
industry's trade surplus is revenue from online distribution that 
depends on copyright protections.

    What will you do as USTR to protect U.S. copyrights?

    Answer. If confirmed, I would seek to use all appropriate trade 
tools to ensure that U.S. rights holders have a full and fair 
opportunity to use and profit from their intellectual property rights. 
Ensuring strong intellectual property protection and enforcement by our 
trading partners would be a top trade priority.

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
                         patents/innovation/ip
    Question. America leads the world in biomedical research and 
discovery. But weak intellectual property protections and a growing 
array of localization barriers abroad are threatening innovative 
medicine exports and the many jobs they support here at home. China has 
never lived up to the intellectual property commitments it made to the 
United States and other WTO members 15 years ago. Despite free trade 
agreements, U.S. inventors can't get and keep patents in Australia, 
Canada, Colombia and other countries. India and Indonesia enjoy one-way 
duty-free access to our market under GSP, but don't provide a level 
playing field for products made in the USA.

    If confirmed, what will you do to ensure American innovations and 
jobs are valued and protected in overseas markets?

    Answer. I agree that we need to do more to enforce the IPR 
provisions of our trade agreements. If confirmed, I will seek to use 
all appropriate trade tools to ensure that U.S. rights holders have a 
full and fair opportunity to use and profit from their intellectual 
property rights. Ensuring strong intellectual property protection and 
enforcement by our trading partners will be a top trade priority.

    Question. Intellectual property is crucial to the well-being of our 
economy. More money is spent on R&D in the United States than in any 
other country in the world. In fact, 30% of the American workforce is 
employed directly or indirectly in IP-
intensive industries. But in order to continue accelerating the pace of 
innovation in our economy, our trading partners must all play by the 
same rules with respect to market access and protecting intellectual 
property.

    How can the United States use new and existing trade agreements, 
including enforcement tools, to ensure U.S. businesses benefit from 
strong intellectual property protections and greater access to global 
markets?

    Answer. I believe that innovation is the central nervous system of 
the U.S. economy and the key to our comparative advantage in many 
sectors. If confirmed, I will seek to use all appropriate trade tools 
to ensure that U.S. rights holders have a full and fair opportunity to 
use and profit from their intellectual property rights. Ensuring strong 
intellectual property protection and enforcement by our trading 
partners will be a top trade priority.

    Question. We have seen a disturbing trend in recent years whereby 
some of our trading partners have ignored their international 
commitments, particularly with respect to intellectual property 
protection, either by failing to fully implement agreements or by 
flouting the rules in order to give their businesses an unfair 
advantage. These decisions are short-sighted and ultimately discourage 
innovation, investment and job growth.

    What can your agency do to ensure our trading partners are 
enforcing existing commitments and deter countries from weakening such 
standards in their own IP regimes?

    Answer. I believe that innovation is the central nervous system of 
the U.S. economy. If confirmed, I will seek to use all appropriate 
trade tools to ensure that U.S. rights holders have a full and fair 
opportunity to use and profit from their intellectual property rights. 
Ensuring strong intellectual property protection and enforcement by our 
trading partners will be a top trade priority.

    Question. IP and innovation drive productivity, employment, and 
economic growth, particularly for industries like U.S. 
biopharmaceutical industry, which supports approximately 4 million U.S. 
jobs.

    In your view, how does the monitoring and enforcement of trade 
agreements impact the sustainability and growth of IP-intensive 
industries such as the biopharmaceutical sector?

    Answer. If confirmed, I will seek to use all appropriate trade 
tools to ensure that U.S. rights holders have a full and fair 
opportunity to use and profit from their intellectual property rights. 
As the global trading system expands, monitoring and enforcement 
becomes increasingly important, especially with respect to IP-intensive 
industries. American intellectual property must be respected and 
monitoring and enforcement of our existing trade agreements are key to 
this effort. Ensuring strong intellectual property protection and 
enforcement by our trading partners will be a top trade priority.

    Question. What should the administration be doing to stand up for 
free and fair trade and strong protections for the intellectual 
property rights that drive U.S. economic growth and a U.S. comparative 
advantage in global trade?

    Answer. If confirmed, I will seek to use all appropriate trade 
tools to ensure that U.S. rights holders have a full and fair 
opportunity to use and profit from their intellectual property rights. 
Ensuring strong intellectual property protection and enforcement by our 
trading partners will be a top trade priority.

    Question. Thanks to U.S. ingenuity and stewardship, the Internet 
has powered U.S. trade, opened up new foreign market opportunities for 
U.S. small and medium-sized businesses, spread American values, and 
spurred U.S. innovation in all sectors. At home, the Internet is a 
crucial U.S. industry as online services are a fundamental enabler of 
the economy, generating 6% of GDP.

    Online services and ongoing U.S. innovation rely on the balanced 
approach to copyright enshrined in U.S. law--including both strong 
copyright protections and robust copyright limitations and exceptions 
like fair use and safe harbors. These core U.S. concepts are critical 
to U.S. Internet innovation and enable machine learning, artificial 
intelligence, e-commerce platforms, consumer electronics, and many 
other technologies.

    How will you make sure that the U.S. approach to copyright in trade 
agreements is serving all U.S. stakeholders and U.S. interests?

    Answer. I understand the importance that Congress places on this 
issue. If confirmed, I will ensure that USTR makes progress, in any 
trade negotiation, in advancing U.S. priorities in this area. I look 
forward to working with you and all interested stakeholders to address 
these specific issues.
                             lumber/timber
    Question. The forestry sector represents a vital part of our 
economy in Washington State. The sector supports some 30,000 jobs and 
almost $2 billion of annual payroll in many communities that depend on 
this industry for their survival. The U.S. forestry industry is highly 
competitive, but it cannot compete, survive, or grow under the constant 
barrage of unfairly traded and subsidized Canadian softwood lumber.

    Can you assure me that you will work closely with my office and the 
U.S. industry to bring about an effective and sustainable new Softwood 
Lumber Agreement?

    Answer. Ensuring that U.S. softwood lumber producers can compete on 
a level playing field against the negative effects of subsidized 
Canadian softwood lumber imports is an important priority for the Trump 
administration. If confirmed, I will direct USTR to continue its close 
engagement with this important industry that provides good jobs across 
America.

    Question. Do you agree that such an agreement must remain purely a 
bilateral agreement, and cannot be thrown into the mix of a NAFTA re-
negotiation?

    Answer. I understand that there can be no softwood lumber agreement 
without the participation of our softwood lumber industry. If 
confirmed, I commit to working with your office, our softwood lumber 
industry, and other stakeholders should U.S. producers seek a new 
agreement. I understand the importance of both the content and the form 
of any such agreement and will also work closely with you and U.S. 
industry to address those concerns.
                           tech/digital trade
    Question. Members of the Finance Committee from both sides of the 
aisle are champions of advancing a digital agenda in U.S. trade policy, 
particularly as part of the services agenda. It was clear by the 
addition of objectives in the new trade promotion authority legislation 
on data flows and combating barriers like data localization in the 2015 
TPA objectives. I am interested in understanding how you are going to 
drive this part of the agenda for U.S. interests, particularly given 
the challenges of digital protectionism that we are facing around the 
world from China to the EU.

    Answer. I recognize the importance of the digital economy to 
American jobs, prosperity and security, and U.S. companies' unique 
competitive advantages in this area. If confirmed, I look forward to 
working closely with the Congress on fulfilling objectives set out in 
TPA, including with respect to digital trade.

    Question. I was heartened to hear from Secretary Ross, in his 
response to a question for the record asked at his confirmation 
hearing, that this administration recognizes the importance of the 
digital economy to American jobs, prosperity and security.

    One of the principal negotiating objectives of the United States 
laid down in the bipartisan Trade Promotion Act is ``to ensure that 
governments refrain from implementing trade-related measures that 
impede digital trade in goods and services, [or] restrict cross-border 
data flows.''

    Mr. Lighthizer, as U.S. Trade Representative, what steps will you 
take to achieve the TPA's digital trade goals?

    Answer. Like Secretary Ross, I recognize the importance of the 
digital economy to American jobs, prosperity and security, and U.S. 
companies' unique competitive advantages in this area. If confirmed, I 
look forward to working closely with the Congress on fulfilling 
objectives set out in TPA, including with respect to digital trade.

    Question. The United States has always been a leader in promoting a 
rules-based system, and there was good work done in the FTAs and the 
TPP on digital issues which have been important building blocks for 
agreements. Now, however, it seems that the new administration is 
sending signals that we want to abdicate that leadership.

    How do you intend to pursue these issues given the opportunities 
that are already available as the WTO prepares for the December 
ministerial and looks to add ecommerce to its agenda, or in APEC, where 
Vietnam has signaled digital trade will be a centerpiece of its year, 
or as others work to fill the vacuum that is evident in the Trade in 
Services Agreement negotiations that were underway in Geneva at the end 
of the last administration?

    Answer. I do not believe that it is correct to characterize the 
administration as abdicating leadership in this space. The President 
has made it very clear that he intends to promote American leadership 
in the Asia-Pacific through many channels, including by pursuing 
bilateral FTA's with our key TPP partners. I support that approach. If 
confirmed, I look forward to working with the Congress to find ways to 
strengthen the rules-based trade system as it applies to digital issues 
in all relevant fora.

    Question. I want to encourage you to use every opportunity, 
particularly when it comes to writing new rules for 21st-century trade. 
We must not cede the field to China or the EU. The United States needs 
to guide these multilateral and plurilateral efforts to forge consensus 
on this important issue, it is central to our competitiveness, and will 
have a bearing on our bilateral successes as well.

    For Washington State, services are a huge part of the economy 
employing 2.4 million people and accounting for $26.1 billion in 
exports in 2014. Services sector activity in my State covers everything 
from information communication technology services, to logistics, 
distribution to professional services. Services are critical enablers 
for other parts of the economy as well making a significant 
contribution to manufacturing and ensuring that our agricultural 
products remain competitive in global markets. Data flows are part of 
the digital infrastructure our farmers, manufacturers, and ranchers all 
need.

    The TPA bill recognized the importance of digital trade to the U.S. 
economy by designating ``digital trade in goods and services and cross-
border data flows'' as a principal trade negotiating objective. This 
section of TPA directs U.S. trade negotiators to ensure our trade 
agreements prevent countries from taking actions that ``impede digital 
trade in goods and services, restrict cross-border data flows, or 
require local storage or processing of data.'' Congress made this a 
principal trade negotiating objective since cross-border trade in data 
has become central to the U.S. economy. Countless American companies, 
whether they are selling a digital good or service, or managing 
customer or employee data, need to transfer data across borders to do 
business in foreign markets and through that create jobs at home. Yet 
we continue to see many foreign markets--from Europe, to Asia to Latin 
American--imposing data localization and other barriers to digital 
trade that unfairly harm U.S. companies.

    Can you assure us that, consistent with TPA, addressing digital 
trade barriers will be a top priority for USTR in negotiations for new 
agreements, or updates to existing ones?

    Answer. Yes. Digital trade provides enormous value to the U.S. 
economy, and U.S. companies face significant challenges when foreign 
governments impose restrictions on digital trade. If confirmed, I look 
forward to working closely with the Congress on fulfilling objectives 
set out in TPA, including with respect to digital trade.

    Question. The United States has had great success in the Internet 
economy--and that is in part due to the U.S. having some of the most 
innovation-friendly laws and policies in the world. For example, 
Congress enacted core protections like section 230 of Communications 
Act (enabling Internet platforms to serve as commercial marketplaces), 
and pursued strong and balanced copyright policy like the Digital 
Millennium Copyright Act and fair use, and promoted open data policies.

    But now, many U.S. services are under threat overseas, due to 
market access barriers and less innovation-friendly regulatory 
frameworks. In 2014, 9 out of the top 10 global Internet properties 
were made in the USA. Today, only six of those leading brands are U.S.-
based, and they are engaged in fierce competition with China and other 
countries for access to nearly 200 markets and 3.4 billion Internet 
users across the world.

    How would you use trade policies to stop other countries from 
blocking or discriminating against U.S. services, and ensure that the 
United States continues to lead the world in innovation?

    Answer. The U.S. services sector is highly innovative and a key 
driver of the U.S. economy. Maintaining a vibrant U.S. services sector 
and expanding U.S. services exports, including in those areas of core 
U.S. strength, such as the Internet economy, is vital to a healthy 
economy and a key objective of U.S. trade policy. If confirmed, I look 
forward to working with you to pursue our services trade priorities.

    Question. The digital economy is critical to powering U.S. exports 
in virtually every industry--from manufacturing to agriculture--and has 
also enabled U.S. small and medium-sized businesses to grow by selling 
to new markets that were out of reach in the past. And in Trade 
Promotion Authority, the Congress recognized the importance of digital 
economy to U.S. trade, and identified cross-border data flows and anti-
data-localization as core negotiating objectives. The U.S. currently 
has a $159 billion trade surplus when it comes to digitally deliverable 
services.

    What steps would you to take to preserve and grow that digital 
trade surplus?

    Answer. If confirmed, I would consider a range of actions to 
support this key area of U.S. competitiveness. For example, I would 
look to enforce existing rules that apply to the digital economy; and 
where such rules need to be strengthened or extended, I look forward to 
working with Congress to find ways to strengthen the rules-based trade 
system as it applies to digital issues, including as set out in TPA.

    Question. What would you do to promote open digital trade policies 
globally, and to support the TPA objectives on data flows and local 
server prohibitions?

    Answer. If confirmed, I would look forward to working with Congress 
to identify ways to promote open digital trade policies globally, 
including through implementation of the relevant negotiating objectives 
set out in TPA as we negotiate new FTAs.
                    free trade agreements/tpp/nafta
    Question. Transparency has been a significant impediment to 
Congress and stakeholders having a real voice in our trade negotiations 
and providing the input that's envisioned under the law.

    What specific steps will you take to improve transparency and 
consultations?

    Answer. I am aware of the importance of the issue of transparency 
in U.S. trade negotiations to you, others on the Finance Committee, and 
many others in Congress, and of the way in which that issue arose in 
the drafting and passage of TPA. As a foundation for understanding 
current and future trade negotiations, I believe it is important to 
communicate clearly to the American public, to Congress, and to 
stakeholders the impact of U.S. trade agreements so that each can make 
an informed judgment about the strengths and shortcomings of any 
agreement. Furthermore, we should communicate clearly the specific 
objectives of the administration with respect to all aspects of U.S. 
trade policy, negotiations, and enforcement. If confirmed, I will work 
with Congress and stakeholders to improve the transparency of the trade 
negotiating process further.

    Question. Will you allow cleared advisors to have timely access to 
the proposals made by our trading partners during negotiations to 
ensure that you are getting the best possible advice?

    Answer. I believe that transparency and inclusiveness in trade 
negotiations is important to achieve the best possible deal. If 
confirmed, I will ensure that USTR follows the TPA requirements related 
to transparency in any potential trade agreement negotiation. I also 
look forward to discussing with Congress ways to ensure that USTR fully 
understands, and takes into account, the views of all stakeholders 
during the course of a trade negotiation.

    Question. Past administrations, both Republican and Democratic, 
have been less than robust in their efforts to enforce labor 
obligations in U.S. FTAs.

    What is your estimation of U.S. successes and failures in this area 
and what would be your priorities in this area?

    Answer. In my opinion, previous administrations, of both parties, 
have not adequately enforced obligations in U.S. FTAs on several 
issues. This is not a problem specific to labor obligations. Yet there 
are serious consequences. When trading partners fail to enforce labor 
laws and do not uphold high-standard protections for workers, it can 
create a competitive disadvantage for U.S. workers, farmers, ranchers, 
and businesses. If confirmed, I will work closely with you, other 
members of Congress, and stakeholders with an interest in working to 
ensure that trading partners are acting consistently with their labor 
obligations in U.S. FTAs.

    Question. I am fully on board with the President's assessment that 
trade agreements need to do much better at strengthening manufacturing 
and agriculture. Strength in both is indispensable to our economic 
health future. At the same time, services now account for fully 70 
percent of our economy and we are exceptionally competitive in a broad 
range of services from banking and insurance, to hospitality and 
express delivery to software and data analytics.

    What do you think are the key elements of a 21st-century trade 
agreement, and what elements are missing from our current agreements?

    Answer. When designing these agreements, I fully intend to take 
advantage of USTR's statutory role to balance varying interests from 
across the economy, government, and public. But each agreement requires 
its own approach. For example, in the renegotiation of NAFTA, it will 
be important, in my opinion, to add a chapter on digital trade. If 
confirmed, I look forward to engaging with you on these issues and 
others.

    Question. Since 1974, U.S. trade negotiators have used a system of 
official trade ``advisors'' to influence the content of trade deals. 
According to the Washington Post, approximately 85 percent of these 
more than 500 advisors explicitly represent corporations. The mostly 
corporate advisors get privileged access to U.S. trade proposals and 
are invited to suggest changes before they are proposed by U.S. trade 
negotiators while the public is barred from seeing, much less 
commenting on, proposed trade rules.

    Do you agree that it is problematic for a select group of primarily 
corporate elites to have special access to shape U.S. trade proposals 
that are not generally available to American workers and those impacted 
by our flawed trade deals?

    Answer. It is important that USTR's Trade Advisory Committees 
represent all types of stakeholders to ensure that USTR benefits fully 
from a diverse set of viewpoints in considering the positions it takes 
in negotiations. If confirmed, I will work to ensure that USTR's Trade 
Advisory Committees are appropriately constituted in order to achieve 
this goal.

    Question. If so, would you work to replace that advisory system 
with a new process that invites the American public to help shape U.S. 
proposals for trade agreements and give input on negotiated texts?

    Answer. In 2015 Congress passed TPA and reaffirmed the importance 
of the advisory system. By direction of Congress, the committees must 
broadly represent the American economy. I agree with the approach of 
Congress and if confirmed, I look forward to discussing additional 
means for ensuring public input into U.S. trade negotiations.

    Question. Not only is our trade negotiation process dominated by 
corporations, but proposals for trade deals and negotiated texts are 
kept hidden from the public. The proposals and negotiated texts for the 
TPP, for example, were kept secret for over 7 years of negotiations. 
This forced labor unions, public health groups, environmental 
organizations, and the public to rely on leaked texts in order to have 
an idea of the trade rules under negotiation.

    Would you support having all proposals and negotiated texts 
published online in a timely fashion so the workers and the broader 
public that will be impacted by these agreements have a full 
understanding of what is being negotiated?

    Answer. I believe that transparency and inclusiveness in trade 
negotiations are important to achieve the best possible deal. If 
confirmed, I will ensure that USTR follows the TPA requirements related 
to transparency in any potential trade agreement negotiation. I also 
look forward to discussing with Congress ways to ensure that USTR fully 
understands and takes into account the views of all stakeholders during 
the course of a trade negotiation.

    Question. Would you condition the participation of the United 
States in future trade negotiations on agreement by all involved 
countries to that same standard?

    Answer. I believe that transparency and inclusiveness in trade 
negotiations is important to achieve the best possible deal. If 
confirmed, I will seek to ensure that our negotiating partners agree to 
provide opportunities for public engagement and transparency in the 
course of negotiations.

    Question. There are several trade negotiations underway that follow 
the same flawed model of the now defunct TPP. These include the Trade 
in Services Agreement, or TiSA, the Transatlantic Trade and Investment 
Partnership, or T-TIP, and the U.S. China Bilateral Investment Treaty. 
Each of these agreements would serve to enrich multinational 
corporations at the expense of working people and the environment.

    If confirmed as USTR, would you commit to cease negotiations on 
each of these three corporate trade agreements?

    Answer. If confirmed, I will carefully review all previous 
negotiations, and look forward to consulting with you and other members 
of the committee on how best to proceed. With respect to T-TIP at 
least, it appears that upcoming elections in France, Germany, and other 
EU member states will, in any case, make it difficult for the EU to 
resume comprehensive trade negotiations until at least the end of this 
year. In the meantime, we would be open to exploring ways to address 
barriers to U.S. exports and to expand trade with the EU and its member 
states.

    Question. Section 301 of the Trade Act of 1974 gives USTR broad 
powers to take action against foreign countries if they deny the United 
States the benefit of trade agreements or have policies or practices 
that restrict or burden U.S. commerce. However, in recent years USTR 
has been reluctant to use this authority.

    What are your views on the proper use of section 301?

    Answer. If confirmed, I am committed to using all available tools, 
including section 301, where appropriate, to address unfair foreign 
trade practices and to open markets for U.S. exports.

    Question. Will you use section 301 to respond to the actions, 
policies, and practices of foreign countries that negatively affect the 
economy of the United States?

    Answer. As noted in response to the prior question, if confirmed, I 
am committed to using all available tools, including section 301, where 
appropriate, to address unfair foreign trade practices and to open 
markets for U.S. exports.

    Question. Other countries are increasingly using safeguards 
measures against imports, but the United States has not imposed relief 
under section 201 in more than 15 years.

    Do you support greater use of safeguards cases to address global 
surges of imports that are causing serious injury to U.S. industries?

    Answer. If confirmed, I will work with USTR staff and with other 
agencies to evaluate the most suitable response, including the use of 
section 201 where appropriate, for addressing each particular situation 
where imports are harming U.S. workers and businesses.

    Question. Will you advise the President to use his authority to 
``self-initiate'' cases under section 201 where you have information 
showing that import surges are causing serious injury to a domestic 
industry?

    Answer. If confirmed, I will work with USTR staff and with other 
agencies to evaluate the most suitable response, including the use of 
section 201 where appropriate, for addressing each particular situation 
where imports are harming U.S. workers and businesses. If self-
initiation is appropriate, I will recommend its use.

    Question. President Trump has pointed out that, whenever the United 
States concludes a trade agreement, we always seem to end up seeing 
more imports come in, and more jobs go out. Part of the problem is that 
the United States is willing to remove all of our barriers, while 
asking other countries to dismantle only some of theirs. For example, 
we give their imports duty-free treatment, but they are still allowed 
to impose tariffs on imports from the United States.

    Do you agree that true reciprocity should be a requirement for all 
concessions in trade agreements, so that what we receive is at least as 
much as what we give up?

    Answer. I agree that reciprocity is a key goal for our trade 
agreements, and that we should be negotiating agreements in which the 
United States gets at least as much as we concede.

    Question. Past administrations, both Republican and Democratic, 
have been less than robust in their efforts to enforce labor 
obligations in U.S. FTAs.

    What is your estimation of U.S. successes and failures in this area 
and what would be your priorities in this area?

    Answer. When trading partners fail to enforce labor laws and do not 
uphold high-standard protections for workers, it can create a 
competitive disadvantage for U.S. workers, farmers, ranchers and 
businesses. If confirmed, I will work closely with you, other members 
of Congress and stakeholders with an interest in directing our 
enforcement efforts to ensure that trading partners live up to their 
labor obligations in U.S. FTAs.

    Question. Mr. Lighthizer, the President has made it clear he 
prefers to pursue bilateral trade deals with individual countries over 
multilateral agreements, such as the Trans-Pacific Partnership. The 
President decided to withdraw from the TPP agreement, but my 
constituents in Washington State still have great interest in 
developing a trade relationship with many of the countries that were 
party to that agreement. With that in mind:

    Can you tell me whether there are current plans to prioritize 
negotiations with any of those TPP countries?

    Answer. If confirmed, I will work with the Department of Commerce, 
the White House and other interested agencies to review carefully the 
best way to proceed with respect to trade negotiations with TPP 
countries, and look forward to consulting with you and other members of 
the committee on how best to proceed.

    Question. Have you developed any overall criteria for deciding 
which countries the administration does plan to pursue negotiations 
with?

    Answer. If confirmed, I will work with the Department of Commerce, 
the White House and other interested agencies to review carefully the 
best way to proceed with respect to trade negotiations with TPP 
countries, and look forward to consulting with you and other members of 
the committee on how best to proceed.

    Question. Has the administration already developed a priority list 
of countries that it would like to open up negotiations with first?

    Answer. If confirmed, I will work with the Department of Commerce, 
the White House and other interested agencies to review carefully the 
best way to proceed with respect to trade negotiations with TPP 
countries, and look forward to consulting with you and other members of 
the committee on how best to proceed.

    Question. Mexico is the number one export market for Washington 
apples and pears. It is generally around a 10 million box market for 
apples valued at $150-$180 million per year. In the 2015/2016 season, 
more than 9.7 million boxes of apples, representing 8 percent of the 
total crop and nearly 30 percent of exports, were sent to Mexico. For 
pears, more than 2.4 million boxes, representing more than 56 percent 
of exports and 13 percent of the total crop, went to Mexico.

    Under your leadership, what assurance can you provide that USTR 
will protect the current NAFTA duty-free access for apples and pears 
and reassure Washington State tree-fruit growers that the NAFTA 
benefits obtained to this most important market will be maintained?

    Answer. If confirmed, I am committed to not only maintaining U.S. 
agricultural exports, but also expanding exports of all U.S. 
agricultural product, including apples and pears to Mexico, to generate 
increased economic opportunities for America's farmers and ranchers.
                          nafta renegotiation
    Question. The Trump administration has committed to renegotiate 
NAFTA. I would like you to answer ``yes'' or ``no'' to the following 
questions on NAFTA renegotiation.

    NAFTA's investor-state dispute settlement (ISDS) system has 
empowered multinational corporations like ExxonMobil to bypass domestic 
courts, turn to private tribunals, and demand taxpayer compensation for 
policies that affect the value of their investment. The policies that 
they have challenged include bans on toxic chemicals, court rulings 
that support access to affordable medicines, and protections for our 
climate. Corporations have used NAFTA's investment rules to extract 
more than $370 million from governments in such cases. Pending NAFTA 
claims total more than $35 billion.

    If confirmed as USTR, would you eliminate broad investment rules 
and the 
investor-state dispute settlement system from NAFTA? ``Yes'' or ``No.''

    Answer. I look forward to working with the Congress on the 
investment-related elements to be pursued in future U.S. trade 
agreements, consistent with the negotiating objectives set forth in the 
2015 Trade Promotion Authority legislation.

    Question. NAFTA's weak and unenforceable environmental and labor 
side agreements facilitated the offshoring of jobs so that corporations 
could exploit lower environmental and labor standards in another 
country. If confirmed as USTR, would you renegotiate NAFTA to require 
each participating country to adopt, maintain, and implement policies 
to fulfill important international environmental and labor agreements, 
including the Paris climate agreement and core ILO conventions? ``Yes'' 
or ``No.''

    Would you ensure these commitments are included in the core text of 
the agreement and made enforceable via an independent dispute 
settlement process in which trade sanctions are used to correct 
violations?

    Answer. If confirmed, I commit to work closely with you, other 
members of Congress, and stakeholders to ensure that the NAFTA is 
updated in ways that comply with TPA objectives for labor and 
environment, including by placing enforceable labor and environment 
commitments in the main text of the agreement.

    Question. NAFTA limits Canada's ability to restrict production of 
fossil fuels and allows regulations to promote renewable energy to be 
challenged.

    If confirmed as USTR, would you eliminate NAFTA's energy chapter 
and narrow rules that can be used against clean energy policies? 
``Yes'' or ``no.''

    Answer. NAFTA was negotiated in the early 1990s and certain 
provisions may need to be updated. If confirmed, I will conduct a 
review of the NAFTA provisions pertaining to all aspects of energy 
goods, services, and investment.

    Question. NAFTA allows corporations to shift production to a 
country with lower climate standards, which can spur job offshoring and 
``carbon leakage.'' To prevent this race to the bottom, and encourage 
greater climate action from high-emissions trading partners, each 
country could be required to impose a border tax on imported goods made 
with significant climate pollution.

    If confirmed as USTR, would you renegotiate NAFTA to penalize 
imported goods made with high climate emissions? ``Yes'' or ``no.''

    Answer. If confirmed, I look forward to working with you, other 
members of Congress, and stakeholders as we update and improve the 
NAFTA to meet the environmental objectives in TPA.

    Question. NAFTA's procurement rules limit governments' ability to 
prioritize job creation, labor rights, or environmental standards in 
purchasing decisions. For example, these rules threaten the use of 
``green purchasing'' requirements that ensure government contracts 
support renewable energy, energy efficiency, and sustainable goods.

    If confirmed as USTR, would you eliminate the existing procurement 
chapter and consider new rules that would require signatory governments 
to include a preference for goods and services with low environmental 
impacts in procurement decisions? ``Yes'' or ``no.''

    Answer. I recognize the importance of procurement policy in 
promoting the conservation of natural resources and the protection of 
the environment. If confirmed, I commit to work with you on these 
issues.
                           foreign countries
    Question. In the 1980s when you were deputy USTR, much of trade 
policy was focused on Japan, and breaking open that market, and 
developing new trade rules in key areas like intellectual property and 
services. Today, some of the most challenging barriers are created 
through stifling regulations. These include policies around security 
and privacy and cross border data flows, and may others.

    What do you see as the biggest foreign regulatory polices today 
that impede American exports, and what do you plan to do to eliminate 
them?

    Answer. Trade and investment policy provide important tools to 
address foreign regulatory practices that impede U.S. exports. I agree 
that U.S. companies face significant challenges when foreign 
governments impose restrictions on digital trade, including in the 
areas you have cited. Given our companies' global leadership in these 
areas, addressing barriers such as restrictions on cross-border data 
flows and other data localization requirements by foreign governments 
will be a priority and will benefit the U.S. economy. If confirmed, I 
would look to enforce existing rules that apply to the digital economy; 
and where such rules need to be strengthened or extended, I would look 
forward to working with Congress to find ways to strengthen the global 
trading system as it applies to digital issues, including as set out in 
TPA.

    Question. The Peru free trade agreement was the first ever U.S. 
agreement to have an environment chapter subject to the same 
enforcement mechanism as the commercial terms of the pact. This 
enforcement mechanism applied to an ``Annex on Forest Sector 
Governance'' that included detailed obligations that Peru must 
undertake to stop illegal logging and the illegal timber trade. Despite 
these rules, the government of Peru in 2014 found that 78 percent of 
Peru's wood slated for export was harvested illegally. In October 2015, 
Peru's forestry oversight agency found that wood slated for export had 
been logged illegally in 94 percent of 144 surveyed logging operations.

    For years, there has been clear evidence that Peru is consistently 
violating its commitments in this agreement, yet USTR has never sought 
to enforce the deal by initiating a dispute against Peru, despite 
requests from environmental organizations to do so.

    Given the widely documented evidence of systematic illegal logging 
in violation of rules in the forest sector annex of the U.S. Peru free 
trade agreement, would you initiate a dispute against Peru within your 
first 6 months if confirmed as the next USTR?

    Answer. If confirmed, I am fully committed to ensuring that Peru 
lives up to its commitments under the Peru FTA, including the Forest 
Sector Annex to the FTA, and that our other trading partners live up to 
their obligations under our existing agreements. I look forward to 
working with you and other members, as well as other stakeholders, to 
determine appropriate next steps with respect to Peru.

    Question. The United States has used the WTO to challenge the solar 
policies of India, which has prompted India to launch a similar WTO 
challenge against parallel renewable energy policies in eight U.S. 
States. At issue are the buy local policies that the United States, 
India, and many other countries use to create local clean energy jobs. 
Outdated trade rules should not be used against these policy tools that 
help us transition to renewable energy while creating jobs.

    Moreover, the United States has more to lose than to gain in these 
two WTO challenges. The U.S. renewable energy programs challenged by 
India are worth more than $150 million while U.S. solar exports to 
India total less than $10 million. Indeed, India's buy local policies 
primarily hurt solar firms in China, not U.S. firms, which account for 
less than 1 percent of India's solar imports. If we lose this case at 
the WTO, which trade experts have deemed likely, we stand to lose far 
more jobs than we stand to gain via India losing its case.

    Given the need to create local clean energy jobs, and the fact that 
these dueling WTO cases threaten a net loss of U.S. jobs, would you 
work to reach a settlement with India to drop both cases?

    Answer. I share your interest in creating manufacturing jobs, 
including in the solar sector. If confirmed, I will work to ensure that 
our solar manufacturers, and companies in the supply chain, can compete 
and win on a more level playing field in this important and growing 
market.

    Question. As you know, there was some good work that was done in 
the TPP context that I hope we don't lose, specifically with respect to 
improvements in Vietnam. For the first time, in the context of the TPP 
negotiations, Vietnam committed to adopt and maintain in its laws, 
regulations, and practices the rights stated in the International 
Labour Organization's (ILO) 998 Declaration on Fundamental Principles 
and Rights at Work, including freedom of association, the right to 
organize and collective bargaining, and elimination of forced labor, 
child labor, and workplace discrimination. This was a major 
accomplishment due in large measure to the United States being a key 
leader in the TPP talks.

    Can you commit to work with me and others to prioritize a bilateral 
agreement with Vietnam that ensures these achievements are not lost?

    Answer. If confirmed, I will work closely with you, other members 
of Congress and stakeholders with an interest in promoting high-
standard labor protections in Vietnam, and other key trading partners 
in the region.
                                 china
    Question. I think that for too long our trade policies have focused 
too much on rules and commitments, and not enough on results. I was 
taught that end of the day results are what count. As an example, we 
have had a series of commitments from China to open its markets, 
protect intellectual property, and end discriminatory policies. Yet 
these problems persist.

    What will you do to focus our China policy on results and not just 
promises?

    Answer. I agree that China should respect its commitments to the 
United States. If confirmed, I will work with other administration 
officials and Congress to review U.S. trade policy toward China, and 
ensure that the commitments China makes actually have real results that 
secure significantly increased market access for U.S. firms and fully 
protect U.S. intellectual property.

    Question. I know that you share my concern that U.S. companies face 
the most uneven of playing fields in China. Increasingly, Chinese 
regulation is making it difficult or even impossible for U.S. cloud 
services companies to operate in China--likely in violation of World 
Trade Organization (WTO) commitments. Meanwhile, Chinese cloud service 
providers can operate in the United States today without similar 
regulatory restrictions. U.S. cloud service providers are strong 
catalysts for economic and jobs growth around the world, and it is 
unacceptable to think that they could be locked out of China entirely.

    Can you promise that you will prioritize this issue in your 
discussions with Chinese officials and underscore that China must live 
up to its international commitments and stop discriminating against 
U.S. cloud service providers?

    Answer. I recognize that U.S. leadership in the technology sector, 
particularly in cloud computing, is a national strength and a source of 
our international competitiveness. I agree that our trade policy should 
work to ensure that U.S. companies in this sector can thrive globally, 
including in China, where I recognize that barriers have been severe 
and contrast sharply with the open market in the United States. If 
confirmed, I will make seeking progress in reducing barriers to U.S. 
companies in this sector, including in China, a priority.

    Question. China claims that its protocol of accession to the WTO 
requires all countries to treat it as a market economy in antidumping 
investigations. The U.S. Government has concluded that the United 
States is under no such obligation. Under the criteria applied by the 
Commerce Department, China is clearly not a market economy. As you are 
well aware, this is one of the most important issues facing American 
manufacturing, as well as the manufacturing sectors of the EU, Canada, 
and Mexico, among others.

    Will you oppose market economy status for China?

    Answer. I share your views about the importance of this issue and 
disagree with China's claim that the change in its Accession Protocol 
requires the United States and other WTO Members to treat China as a 
market economy in antidumping proceedings. If confirmed, I can assure 
you that USTR will vigorously defend the right of the United States to 
use the strongest tools possible to counteract injurious Chinese 
dumping.

    Question. With China now challenging the U.S. position on this 
issue at the WTO, what will you do to defend our Nation's right to 
continue to treat China as a non-market economy?

    Answer. If I am confirmed, USTR will vigorously defend our right to 
use the strongest tools possible to counteract injurious Chinese 
dumping, including by treating China as a non-market economy in 
antidumping proceedings.

    Question. What can USTR do to persuade our major trading partners, 
including the EU and Canada, to also oppose the grant of market economy 
status to China and to join us in the WTO case?

    Answer. Many WTO Members continue to treat China as a non-market 
economy in antidumping proceedings. If confirmed, I commit to doing 
everything I can to persuade these Members to join the United States in 
defending all WTO Members' right to continue to apply a non-market 
economy methodology to China at the WTO.

    Question. At the time China joined the WTO in 2001, the assumption 
was that it would become a full-fledged market economy, and that the 
government's role in the economy would shrink significantly. Instead, 
exactly the opposite has happened. The government continues to own or 
control a substantial part of the economy, and to intervene to help 
specific industries and companies. This has given Chinese products a 
huge, and unfair, advantage in international trade. Simply put, China 
is not playing by the rules that underlie the international trading 
system.

    Will you commit to using your authority under section 301 or other 
provisions of law to respond to the unfair advantages the Chinese 
government has given Chinese companies and products in international 
trade?

    Answer. If confirmed, I am committed to using all available tools, 
including section 301, where appropriate, to address China's unfair 
foreign trade practices.

    Question. Would you be willing to consider a broad-based WTO 
challenge to China's distortive trade practices on the grounds that 
China has not complied with its WTO obligations, including the 
obligations to allow the market to set prices and to operate state-
owned enterprises on a commercial basis?

    Answer. Distortive Chinese trade practices across multiple sectors 
and deriving from the lack of market disciplines in much of China's 
economy are a significant concern. If confirmed, I will seek to combat 
these practices as effectively as possible, using all appropriate 
instruments.

    Question. China claims that its protocol of accession to the WTO 
requires all countries to treat it as a market economy in antidumping 
investigations. The U.S. government has concluded that the United 
States is under no such obligation. Under the criteria applied by the 
Commerce Department, China is clearly not a market economy. As you are 
well aware, this is one of the most important issues facing American 
manufacturing, as well as the manufacturing sectors of the EU, Canada, 
and Mexico, among others.

    Will you oppose market economy status for China?

    Answer. I share your views about the importance of this issue and 
disagree with China's claim that the change in its Accession Protocol 
requires the United States to treat China as a market economy in 
antidumping proceedings. If confirmed, I can assure you that USTR will 
vigorously defend the plain and clear right of the United States to use 
the strongest tools possible to counteract injurious Chinese dumping.

    Question. With China now challenging the U.S. position on this 
issue at the WTO, what will you do to defend our Nation's right to 
continue to treat China as a non-market economy?

    Answer. If I am confirmed, USTR will vigorously defend our right to 
use the strongest tools possible to counteract injurious Chinese 
dumping, including by treating China as a non-market economy in 
antidumping proceedings as provided for in China's Protocol of 
Accession to the WTO.

    Question. What can USTR do to persuade our major trading partners, 
including the EU and Canada, to also oppose the grant of market economy 
status to China and to join us in the WTO case?

    Answer. Many WTO Members continue to treat China as a non-market 
economy in antidumping proceedings. If confirmed, I commit to doing 
everything I can to persuade these Members to join the United States in 
defending all WTO Members' right to continue to apply a non-market 
economy methodology to China at the WTO.
                              agriculture
    Question. The markets in Asia are critically important to 
Washington State growers of apples, cherries, and pears. For example, 
in 2016, 66 percent of cherry export shipments went to countries in the 
Asia Pacific region of the world. Our tree-fruit growers could benefit 
from free trade agreements with Vietnam, Japan, Thailand, and China.

    President Trump has indicated that under his administration the 
U.S. will negotiate bilateral trade agreements rather than multilateral 
ones.

    How will you make decisions regarding the countries to prioritize 
for bilateral negotiations and are Vietnam, Japan, and Thailand on the 
list of priorities?

    Answer. If confirmed, I will work with the Department of Commerce, 
the White House and other interested agencies to review carefully the 
best way to proceed with respect to trade negotiations with TPP 
countries, and look forward to consulting with you and other members of 
the committee on how best to proceed.

    Question. In 2016 fry exports to Japan were over $200 million. The 
tariff under TPP of 8.5% would have been eliminated.

    The U.S. had brokered a deal with Japan to remove millions of 
dollars of tariffs, unnecessary trade quotas, and phytosanitary 
barriers on a wide variety of agricultural export goods including 
grains, apples, beef, dairy products, and potatoes to just name a few 
from my State. I understand and appreciate your past knowledge of how 
trade agreements are formed and that not every agreement can have the 
best desirable outcome. But the window of prosperity is closing for 
Washington farms and the United States needs an aggressive trade 
agenda.

    With a flurry of news reports indicating farm families might be 
short-changed regarding the administrations trade agenda.

    How will you work to assure rural voters that bilateral trade with 
Japan will focus on ``good deals'' and will not damage existing trade 
relations, but to enhance all agricultural trade. When can we expect 
the administration to formally begin bilateral trade negotiations with 
Japan?

    Answer. I am committed to the expansion of U.S. agricultural 
exports through negotiations that create enhanced export opportunities 
for our farmers and ranchers. If confirmed, I will be sure to consult 
with you and other members of Congress, as required by TPA, to pursue a 
robust bilateral trade agenda, including with respect to any potential 
negotiation with Japan.

    Question. Global markets are critical for Washington State--this is 
the case for all major sectors of my State's economy, including 
agriculture. But Washington's companies also have a deep interest in 
ensuring that our trading partners play by the rules as well.

    How do we both preserve existing sales to key markets, such as the 
large and vitally important dairy export market in Mexico, while also 
fixing trade situations that have proven over the years to be deeply 
entrenched?

    Answer. If confirmed, I am committed to the expansion of U.S. dairy 
exports through negotiations that create enhanced export opportunities 
for our farmers and ranchers, while we maintain the current markets 
that we already have. I will also be committed to working to resolve 
barriers to U.S. agricultural exports and to ensure that trading 
partners meet international trade obligations.

    Question. An example of the latter that will harm both bilateral 
trade and global milk powder trade is Canada's new Class 7 dairy 
pricing program introduced last month. How do you plan to use NAFTA and 
bilateral enforcement discussions to tackle problems like we have with 
Canada on dairy?

    Answer. I understand that Canada's supply management program for 
dairy is of high concern to you, other Members of Congress, and the 
U.S. dairy industry. If confirmed, I will examine the details of the 
issue and consult with you on the most appropriate way to address this 
matter.
                            aerospace/airbus
    Question. I want to ensure that you are aware of an ongoing dispute 
between the United States and the European Union (EU) regarding illegal 
aircraft subsidies. Last September the World Trade Organization (WTO) 
ruled that European governments had not removed the harm caused to 
America's aerospace sector by $17 billion of illegal subsidies and 
found that the Europeans have dispensed and additional $5 billion in 
illegal subsidies for the development of the Airbus A350 wide body 
aircraft. That brings the total of illegal European subsidies for 
Airbus to $22 billion.

    In fact, the original WTO panel concluded: ``It is in our view 
clear that Airbus would have been unable to bring to the market the 
Large Commercial Aircraft (LCA) that it launched but for the specific 
subsidies it received from the European Communities and the governments 
of France, Germany, Spain, and the United Kingdom.'' This company--that 
the WTO found would not have existed but for these huge government 
subsidies--drove McDonnell Douglas and Lockheed out of the commercial 
aircraft business, taking with them thousands of American jobs.

    Government subsidies to Airbus continue to destroy American jobs. 
As you may know, Boeing manufacturers the vast majority of its 
commercial aircraft in my home State of Washington. And, the export of 
these aircraft support high-skilled jobs in Washington State and 
throughout the country.

    According to the Commerce Department: ``In 2015, the U.S. aerospace 
industry contributed $144.1 billion in export sales to the U.S. 
economy. The industry's positive trade balance of $82.5 billion that 
year was the largest trade surplus of any manufacturing industry, 
supporting high-wage jobs for hundreds of thousands of American 
workers.''

    It is imperative that U.S. companies compete with overseas rivals 
on a level playing field. If confirmed, will you press the Europeans to 
stop massively subsidizing Airbus aircraft?

    Answer. If confirmed, I will make the elimination of European 
subsidies to Airbus and ensuring a level playing field for Boeing and 
U.S. aircraft industry jobs and suppliers a top priority.
                        apparel industry/tariffs
    Question. Innovative, highly technical apparel footwear and 
equipment are often grouped together with more ready-made, mass-market 
products in the Harmonized Tariff Schedule (HTS). This can be 
particularly problematic when you negotiate rules of origin and duty 
phase-outs in free trade agreements (FTAs) at the 8-digit level of the 
Harmonized Tariff Schedule. As a result, import sensitive and non-
import sensitive products can be lumped together despite the fact that 
there could be vast differences in construction, design, and end use.

    For this reason, in the past FTA negotiations, outdoor companies 
urged the administration to negotiate ``breakouts'' for innovative 
outdoor products like apparel and footwear. USTR has been inconsistent 
in its approach to negotiating at the 8-digit versus 10-digit level. In 
textiles and apparel USTR has often negotiated provisions at the 10-
digit or even creating breakouts at the sub-10-digit level to address 
market issues when the classification system is imperfect. This was 
done in TPP. Yet, USTR continually refused to create breakouts to 
accommodate disparate products that by chance are classified in the 
same HTS sub-heading. Failure to differentiate between import sensitive 
and non-import sensitive products is a tremendous lost opportunity at 
best, and harmful to U.S. companies at worst.

    As the administration pursues bilateral FTAs, will you support 
measures like ``breakouts'' to differentiate between import sensitive 
and non-import sensitive products?

    Answer. If confirmed, I look forward to consulting extensively with 
Congress and interested stakeholders on U.S. objectives for free trade 
agreement negotiations, and I would be open to considering any proposed 
approaches that maximize benefits for U.S. companies.

    Question. The outdoor recreation economy generates $646 billion in 
consumer spending nationwide and supports 6.1 million American jobs. In 
my home State of Washington alone, the outdoor industry generates $22.5 
billion and supports 226,600 jobs.

    I understand the administration is committed to incentivizing 
domestic manufacturing and the re-shoring of American jobs. And there 
is a growing enthusiasm for ``Made in the USA'' products in the outdoor 
industry. Yet, many outdoor products--most apparel, footwear and soft-
goods equipment--are import dependent and face import tariffs on 
average of about 14 percent and as high as 40 percent. That is not 
going to change. Simply put, the infrastructure, training, and 
personnel to produce the innovative, highly-technical outdoor products 
outdoor consumers expect exists abroad, particularly in the countries 
of Asia and the South-Pacific region. These supply chains have been 
developed over decades and cannot easily be changed.

    How will the administration address import tariffs on products 
where there is no viable domestic production and no certainty that 
these supply chains will return to the United States?

    Answer. As the administration considers policies to strengthen U.S. 
competitiveness, support more jobs, and promote U.S. manufacturing, I 
expect that it will take into account the circumstances that have led 
to the internationalization of the supply chains for some products.

    Question. The Miscellaneous Tariff Bill (MTB) is an important tool 
initiated by Congress to provide duty relief to companies that import 
products not produced in the United States. The last MTB expired on 
December 31, 2012 and included many finished products including 
specific footwear. You may not realize it, but, the United States 
imports almost 99% of its footwear, while the research, design, 
marketing, and some of the high-tech component manufacturing is done 
without our borders. In 2016, $25.7 billion worth of footwear was 
imported into the country, with U.S. companies paying $2.8 to get it 
across the border, making the averages duty rate 11%. This compares to 
an average consumer good is only taxed at 1.3%.

    Footwear companies face up to a 67.5% with most outdoor footwear 
dutiable at 37.5%. In the past, the footwear industry had tremendous 
success from the 17 previously enacted duty suspensions, saving more 
than $51 million total during the 6 years the MTB provisions were in 
place. Duty savings allow companies to innovate and provide better, 
more cost-effective products to consumers.

    Answer. I recognize the importance of Miscellaneous Tariff Bill for 
U.S. manufacturers, producers, and importers. I understand that the 
American Manufacturing Competitiveness Act of 2016 established new 
procedures for the submission and review of petitions for temporary 
duty relief, and the administration has been working diligently under 
those new procedures.

    Question. Can you confirm that the administration supports the 
Miscellaneous Tariff Bill, and understands the importance of including 
certain footwear?

    Answer. I recognize the importance of Miscellaneous Tariff Bills 
for U.S. manufacturers, producers, and importers. I understand that the 
American Manufacturing Competitiveness Act of 2016 established new 
procedures for the submission and review of petitions for temporary 
duty relief, and the administration has been working diligently under 
those new procedures.
                                disputes
    Question. U.S. trade agreements commonly include broad rights for 
multinational corporations and rules that empower these firms to 
directly sue governments, in private trade tribunals, over policies to 
protect our environment, our workers, the health of our communities, 
and more.

    This system has empowered multinational investors to launch more 
than 700 challenges against the policies of more than 100 sovereign 
governments in unaccountable tribunals. While many policies are at risk 
from this system, environmental policies are particularly threatened. 
In fact, about one of every four new ISDS cases in the last 5 years has 
targeted policies affecting oil and gas extraction, mining, or fossil 
fuel power generation.

    Do you agree that this system of corporate tribunals has no place 
in our trade agreements?

    Answer. Investor-state dispute settlement is a mechanism in many 
U.S. trade and investment agreements that permits qualifying investors 
to pursue arbitration against a government to obtain monetary 
compensation to remedy the breach of certain legal obligations. The 
administration will be undertaking a review of the dispute settlement 
and other enforcement tools in U.S. trade and investment agreements, 
including Investor-State dispute settlement. If confirmed, I will look 
forward to consulting with the Congress on these issues and proceeding 
in a manner that is consistent with the negotiating objectives set 
forth in the 2015 Trade Promotion Authority legislation.

    Question. If so, then would you commit to renegotiate existing 
trade agreements to remove broad investor rights, including investor-
state dispute settlement, and to not include any system in future trade 
agreements in which corporations can directly challenge government 
policies in private trade tribunals?

    Answer. If confirmed, I look forward to working with Congress on 
the investment-related elements to be pursued in U.S. trade agreements, 
consistent with the negotiating objectives set forth in the TPA.

                            trade trust fund
    Question. Last Congress, Congress passed H.R. 644, the Trade 
Facilitation and Trade Enforcement Act of 2015, which included a Trade 
Enforcement Trust Fund I authored to be used exclusively for the 
enforcement of our existing and pending Free Trade Agreements. The 
United States Trade Representative will administer this funding, in 
consultation with the other relevant agencies responsible for enforcing 
our trade agreements. In addition to enforcing our agreements, this 
funding can be used for capacity building efforts in FTA partner 
countries to help them meet their commitments, both before and those 
agreement enter into force, as well as respond to petitions under 
section 302 of the Trade Act of 1974.

    As trade agreements have evolved to more accurately reflect 
international commerce, they've become more complex. This complexity 
limits our ability to simultaneously oversee, implement, and enforce 
these agreements. For example, in 2014, the Government Accountability 
Office was asked to audit the implementation and enforcement of the 
labor provisions of our Free Trade Agreements. This audit found that 
since 2008, the Department of Labor had resolved only a single 
complaint out of five that had been filed, and that the relevant 
agencies responsible for enforcing these provisions suffered from 
consistent staffing and resource constraints.

    Unfortunately, Congress has not yet appropriated any funding for 
this trust fund.

    Do you believe the resources we currently provide to trade 
enforcement are adequate to the scope of our mission?

    Answer. I'm not in the administration. In my personal view, we need 
more resources for USTR and with whatever we have we'll do the best job 
we can do.

    The President has made clear that trade policy negotiations and 
litigation are a top priority of the administration. Trade policy plays 
a critical part in every aspect of the economy and is essential to 
fulfilling the administration's goal of accelerating economic growth 
and improving U.S. standards of living. USTR's previous budget requests 
were based on the old status quo. Instead, President Trump places trade 
execution and enforcement at the top of his ``America first'' trade 
policy.

    USTR's capabilities must grow to execute the President's new 
strategy. Increased resources are necessary to reinforce USTR's 
statutory obligations to (1) monitor compliance by foreign governments 
with trade policy commitments to the United States, detect violations 
as quickly as possible and take swift and successful actions to enforce 
U.S. rights and at the same time, (2) vigorously and successfully 
defend the ability of the United States to exercise its rights to 
ensure fair trade in the U.S. market, and, (3) take action under U.S. 
law to advance U.S. economic interests. If confirmed, I will work to 
ensure that USTR has the resources it needs to fulfill its mission.

    Sufficient resources are vital to a robust trade enforcement 
strategy. Many of the problems faced by U.S. exporters in foreign 
markets are hard to address due to a lack of transparency or because 
they are legally or factually complex, requiring significant attorney, 
investigatory, analytical, or translation resources. If confirmed, I 
will commit to use all the resources available to USTR, and seek to 
draw on the significant expertise in other agencies, to enforce U.S. 
trading rights fully and ensure that our trading partners comply with 
their international obligations.

    Question. Would you support full funding for the Trade Enforcement 
Trust Fund?

    Answer. The Trade Enforcement Trust Fund is an important tool that 
USTR can use to ensure that our trade agreements are adequately 
enforced across the globe. I support having adequate resources for this 
trust fund.

    Question. What priorities would this funding be used for?

    Answer. If I am confirmed, robust enforcement of WTO and FTA 
obligations will be a top priority. To compete in an international 
market, we must ensure that U.S. exports have the same access and 
ability to compete on a level playing field abroad that we allow 
imports here in the United States. Many of the problems faced by U.S. 
exporters in foreign markets are hard to address due to lack of 
transparency or because the obstacles and foreign practices are legally 
or factually complex, requiring significant attorney, forensic and 
investigatory, analytical, or translation resources. Under these 
circumstances, the fund could be used to support ever more complex 
litigation preparation that USTR has had to undertake in recent years 
in order to take on the most difficult and important foreign barriers 
and marshal the evidence to prevail. The fund could also be used to 
support USTR's work protecting U.S. trade remedies from international 
challenges so that when other countries engage in unfair trade, we have 
the tools to ensure that U.S. workers and producers can achieve 
effective redress from those unfair and injurious trade practices.

    Question. Should this funding be mandatory or subject to annual 
appropriations?

    Answer. This is a subject that, if confirmed, I will look forward 
to discussing with you and with colleagues in the administration.
                                 steel
    Question. As you know, there is currently a global glut in 
steelmaking capacity. Foreign government subsidies and other market-
distorting policies have led to this overcapacity, estimated by the 
Organization for Economic Cooperation and Development (OECD) to be more 
than seven times the U.S. raw steel production. The world simply has 
too much capacity for the amount of steel it needs. The same is true of 
a number of other products as well, including aluminum and solar 
panels. The OECD has been trying to address this issue in the steel 
sector and has formed a ``Global Forum'' on excess capacity. But, so 
far all the dialogues, commissions, consultations, and rounds of talks 
have led to very little action, with no tangible results.

    What can the United States do to obtain concrete results in the 
reduction of global steel, aluminum, and solar capacity? What steps 
will you take to bring the country's most responsible for the 
overcapacity to the negotiating table?

    Answer. If confirmed, I will conduct a review of all available 
tools to address serious overcapacity problems in steel industry and 
other sectors, work to address the root causes of those problems, and 
continue to work closely with other leading steel producing countries 
in the Global Forum on Steel Excess Capacity and other contexts.

    If confirmed, I also will examine how we might use our existing 
bilateral dialogues to press China to fix its unfair trade practices 
and vast excess capacity problem in many industrial sectors.

    Question. If China is unwilling to reduce capacity voluntarily, 
what steps would you take in response?

    Answer. If confirmed, I will work to find effective solutions to 
reduce excess capacity through dialogue, negotiations, vigorous 
enforcement of WTO rights and U.S. trade remedies, and any other 
effective means. I also will work with the Department of Commerce, 
Customs and Border Protection, and other agencies to ensure that we 
enforce our trade remedy laws and measures effectively at the U.S. 
border, and I will actively defend our trade remedies against 
challenges by China and other WTO Members.
                        state-owned enterprises
    Question. The increasing role of state-owned enterprises (``SOEs'') 
in global commerce is a serious concern for U.S. manufacturers and 
exporters. These SOEs are subsidized by their home governments and 
often do not operate based on market principles, which introduces 
market distortions that harm workers and private companies competing in 
those markets. Many of these SOEs are looking to invest in the U.S. 
market. Such inbound SOE investment could harm U.S. economic 
competitiveness and national security if left unaddressed.

    What steps should the U.S. Government, and USTR in particular, take 
to address the potential market-distorting effects of SOE investment in 
global markets, including the U.S. market?

    Answer. I understand that the investment activities of foreign SOEs 
have raised many concerns for U.S. businesses. If confirmed, I will 
work with Congress and stakeholders to ensure that future trade 
agreements include strong rules to address concerns associated with SOE 
investment.

    Question. Would you support international negotiations with the aim 
of ensuring rules regarding SOEs?

    Answer. I agree that disciplines on SOEs are important to ensure a 
level playing field with our trading partners. If confirmed, I will 
work with Congress and stakeholders to ensure that future trade 
agreements include strong rules that address unfair competition from 
SOEs.

    Question. Are there additional regulatory tools that we should 
consider to ensure that SOE investment in the United States is 
conducted on a commercial basis and does not cause market distortions?

    Answer. If confirmed, I will work with the Congress, stakeholders, 
and other U.S. Government agencies to consider all appropriate ways of 
addressing concerns about SOE investment in the United States.

                                 ______
                                 
                Questions Submitted by Hon. Bill Nelson
    Question. For some time now, Mexico has been flooding the United 
States with subsidized agriculture, including bell peppers, tomatoes, 
strawberries, blueberries, and sugar. It's particularly harmful to 
growers in Florida, because for a lot of these items, Florida is the 
only place in the U.S. that can grow them during the winter. Our trade 
laws don't generally account for seasonal differences in trade 
practices, making it hard for Florida growers to file a trade case. 
What are some specific ways you could renegotiate the North American 
Free Trade Agreement (NAFTA) to make it work better for our growers and 
account for seasonal differences in agricultural markets?

    Answer. I recognize the unique seasonality and perishability of 
fresh fruits and vegetables. As we look to modernize the North American 
Free Trade Agreement, TPA specifies several negotiating objectives to 
address practices that adversely affect trade and to improve import 
relief mechanisms for seasonal products, such as fresh fruits and 
vegetables. If confirmed, I will consult with you, other members of 
Congress, and Florida growers to address these objectives and the 
concerns you have raised.

    Question. If confirmed, would you commit to meet with Florida 
growers as soon as possible to work on a long-term solution to the 
problem of subsidized dumping of agriculture from Mexico?

    Answer. I certainly know the importance of Florida's fruit and 
vegetable industry. If confirmed, I will consult with you, other 
members of Congress, and Florida growers on your concerns.

    Question. In many ways, when a country exploits its workers or 
environment to gain a trade advantage, it is just as unfair as if it 
had manipulated its currency--only more harmful to the people and areas 
being exploited. What are your thoughts on using our trade agreements 
to make sure countries don't try to gain a competitive edge by putting 
vulnerable people, endangered species, or sensitive ecosystems at risk?

    Answer. Labor and environment protections are important negotiating 
objectives that Congress has set out in TPA. If confirmed, I look 
forward to consulting closely with you and other members of Congress 
with an interest in using our trade agreements and enforcement efforts 
to promote high-standard protections for workers and the environment to 
ensure a level playing field for American workers and businesses 
consistent with TPA objectives.

    Question. If confirmed, would you commit to push for trade 
agreements that include provisions to combat unsafe working conditions, 
unsanctioned logging and wildlife trafficking, and the mistreatment of 
marine life--including sharks and sea turtles?

    Answer. Labor and environment protections are important negotiating 
objectives that Congress has set out in TPA. If confirmed, I look 
forward to consulting closely with you and other members of Congress 
with an interest in these issues as we seek to negotiate trade 
agreements that reflect high-standard protections for our workers and 
our environment to ensure a level playing field for American workers 
and businesses consistent with TPA objectives.

    Question. What are some specific ways you would like to change the 
World Trade Organization (WTO)?

    Answer. The baseline of WTO rules remains important to the 
effective functioning of the rules-based multilateral trading system, 
and the WTO standing committee system does important work to ensure 
full implementation of these rules. However, I have serious concerns 
with the over-reach of the WTO dispute settlement system and would like 
to confer with Congress on ideas for changes in that area. With the 
notable exception of the Trade Facilitation Agreement, we have also 
seen a paralysis in the negotiating arm of the WTO. If confirmed, I 
look forward to working with Congress on ways in which we can ensure 
negotiations mandate at the WTO that best promote U.S. exports and 
creates American jobs.

    Question. Were you involved in developing the General Agreement on 
Tariffs and Trade (GATT), which is now the WTO? If so, what lessons did 
you learn from the development of the GATT?

    Answer. The General Agreement on Tariffs and Trade has been in 
place since 1947 and has served as the baseline for the rules of global 
trade since that time. Both during my time at the Senate Finance 
Committee and as a Deputy United States Trade Representative during the 
Reagan administration, I have been committed to ensuring that this 
rules based trading system serves American interests. I look forward to 
applying lessons learned over the decades to working with Congress and 
moving U.S. trade policy in a direction that positively affects U.S. 
manufacturers, farmers, service providers, and workers.

    Question. What sort of exceptions to copyright protection would you 
allow for in a trade agreement? Would the exceptions be enumerated in 
the agreement, or would you give our trade partners broad discretion to 
determine appropriate exceptions?

    Answer. I understand the importance that Congress places on this 
issue. If confirmed, I will ensure that USTR makes progress, in any 
trade negotiation, in meeting all of the objectives outlined in TPA. I 
look forward to working with you and all interested stakeholders to 
address these specific issues.

    Question. If confirmed, what would you do to improve copyright 
standards globally, and particularly in Asia?

    Answer. If confirmed, I will use all available trade tools to 
ensure that our trading partners, including our partners in Asia, 
adequately and effectively enforce copyright protection, to ensure that 
U.S. rights holders have a full and fair opportunity to use and profit 
from their intellectual property rights.

    Question. How would you bring more transparency to U.S. trade 
negotiations?

    Answer. I am aware of the importance of the issue of transparency 
in U.S. trade negotiations to you, others on the Finance Committee, and 
many others in Congress, and of the way in which that issue arose in 
the drafting and passage of TPA. As a foundation for understanding 
current and future trade negotiations, I believe it is important to 
communicate clearly to the American public, to Congress, and to 
stakeholders the impact of U.S. trade agreements so that each can make 
an informed judgment about the strengths and shortcomings of any 
agreement. Furthermore, we should communicate clearly the specific 
objectives of the administration with respect to all aspects of U.S. 
trade policy, negotiations, and enforcement. If confirmed, I will work 
with Congress and stakeholders to improve the transparency of the trade 
negotiating process further.

    Question. If confirmed, before beginning negotiations on NAFTA, or 
any other trade agreement, would you commit to publicly releasing the 
U.S.'s official position on each chapter of the agreement? Would you 
also brief members of the Senate Finance Committee or Senate Advisory 
Group on Negotiations (SAGON) on the administration's specific 
objectives for each chapter of the agreement?

    Answer. If confirmed, I look forward to working with this 
committee, the House Ways and Means Committee, members of Congress, and 
the Senate and House Advisory Groups on Negotiations--SAGON and HAGON--
as established under TPA to consult closely on other trade agreement 
negotiations. I would also welcome a further discussion of the question 
of public release of the U.S. position on each proposed chapter.

    Question. Do you believe the United States should negotiate free 
trade agreements with developing nations, or should we only negotiate 
with advanced economies with similar traditions and standards? If so, 
why? If not, why not?

    Answer. We intend to work closely with you to decide on appropriate 
trade agreement partner countries. The United States should be open to 
any negotiation that meets core U.S. goals such as expanding economic 
opportunity for Americans and creating a more level international 
playing field. Countries joining the United States in FTAs, at whatever 
level of development, should be expected to comply with the high 
standards that Congress and the President have set out for such 
agreements.

                                 ______
                                 
              Questions Submitted by Hon. Robert Menendez
                                  cuba
    Question. I've been an outspoken opponent of the new policy toward 
Cuba initiated by President Obama, and I remained concerned that that 
policy will remain in place under President Trump. Opening up further 
trade with Cuba is likely to enrich the military and Castro allies at 
the expense of the Cuban people. Since the announcement of the change 
in American policy toward Cuba 2 years ago, the Castro regime has only 
grown stronger. It has continued its policies of repression, has 
continued to jail the Ladies in White, has continued to suppress the 
freedom of expression, and the promotion of anything resembling 
democracy.

    What are your thoughts on Cuba, and do you anticipate any 
liberalization of our trade relationship with Cuba?

    Answer. The President has stated publicly that he has directed a 
review of U.S. policy toward Cuba, including with respect to issues of 
human rights and economic and political liberalization. If confirmed, I 
look forward to working with you and other members, as well as our 
stakeholders, to determine appropriate next steps with respect to Cuba 
in the context of that policy review.

    Question. You were a critic of liberalizing trade with China. You 
rightly pointed out that increasing trade with China was unlikely to 
result in its government behaving in a more democratic, rules-based 
fashion.

    Why should we expect a different result from Cuba?

    Answer. The President has stated publicly that he has directed a 
review of U.S. policy toward Cuba, including with respect to issues of 
human rights and economic and political liberalization. If confirmed, I 
look forward to working with you and other members, as well as our 
stakeholders, to determine appropriate next steps with respect to Cuba 
in the context of that policy review.
                   president's conflicts of interest
    Question. If confirmed, you will be handling international trade 
negotiations that will impact every facet of our economy, and in doing 
so, you will have to balance an range of different, and often 
competing, interests including those of workers, manufacturers, 
farmers, and innovators. The deals you negotiate may impact these 
groups differently--some will gain, some might not be affected, and 
yes, some might lose. But as this administration begins its trade 
negotiations, I am very concerned about possible conflicts of interest 
with our trade policy that may arise from our President's overseas 
business arrangements. We know that the President owns assets in 
several countries. We also suspect that he has taken loans from foreign 
entities. But because he hasn't released his tax returns, we still 
don't know the full extent of his holdings and the details of any 
foreign loans. The recent news about the Trump Organization receiving 
new trademarks in China only underscores this point. One could imagine 
a situation where you, if confirmed, are negotiating an agreement on 
intellectual property with a country in which the President's business 
is trying to obtain trademarks, potentially presenting a conflict 
between what is in the financial interest of the President versus the 
economic interests of the American people at large.

    Without a public disclosure of the President's business 
relationships, how can you and the American people know that your 
negotiations with other countries will not benefit the President at the 
expense of ordinary Americans?

    Answer. The President has spoken very clearly that we need the 
strongest possible trade agreements, and stronger ones than we have 
negotiated in the past, to stand up for Americans in every area of 
trade. From my experience, the President is completely committed to the 
America First agenda, and working together, we have a reasonable 
likelihood that we can change the paradigm and make things better for 
all Americans. I've never seen any hint in any way to the contrary.

    Question. And without a full public disclosure, how can you be sure 
that the person you're negotiating with doesn't know more about the 
President's business dealings than you do?

    Answer. The President has spoken very clearly that we need the 
strongest possible trade agreements, and stronger ones than we have 
negotiated in the past, to stand up for Americans in every area of 
trade. From my experience, the President is completely committed to the 
America First agenda, and working together, we have a reasonable 
likelihood that we can change the paradigm and make things better for 
all Americans. I've never seen any hint in any way to the contrary.
                                 mexico
    Question. NAFTA renegotiation could present an important 
opportunity to strengthen labor standards, defend U.S. intellectual 
property, protect the environment, and raise wages across the 
continent. But if done poorly, it could catastrophically disrupt 
businesses in New Jersey and across the country. As you know, our 
economic integration is deep and mutually beneficial. Canada and Mexico 
are our first- and second-largest export markets, and our three 
countries share important cultural, economic, and security ties. 
Maintaining strong, productive relationships with these countries is 
critical to our national interest. I hope you will keep these aspects 
in mind as you begin to renegotiate the deal, and that you, the 
President, and the entire administration conduct the negotiations in a 
way that minimizes collateral economic and political damage.

    What will the administration seek to achieve in these negotiations? 
Will those objectives be made public?

    How will you address the concerns of companies that have built 
complex value chains based on the assumption that NAFTA will remain 
intact?

    Answer. I understand that a renegotiation of NAFTA being considered 
by the President would be conducted pursuant to Trade Promotion 
Authority (TPA). TPA outlines a number of objectives that the United 
States should seek in any new trade negotiations, as well as 
requirements for consultations with Congress, with the private sector, 
and with other U.S. stakeholders and the public on those objectives and 
throughout the negotiating process.

    Regarding current trade flows, NAFTA has been in place for more 
than two decades and many of our workers, farmers, ranchers and 
businesses have expanded exports to Canada and Mexico under the 
agreement, as well as formed supply chains and other business 
relationships. If confirmed, I am committed to maintaining U.S. exports 
of goods and services, and will use the opportunity of renegotiating 
NAFTA as a way to seek changes that will expand U.S. exports to Mexico 
and Canada and generate increased economic opportunities for the United 
States.

    Question. Mexico has made some progress towards improving its labor 
law regime--though the states need to ratify the constitutional changes 
made. Still, even if the labor law reforms are eventually put into 
practice, they may not raise wages in a meaningful way for quite some 
time. In fact, the wage gap between the United States and Mexico is 
wider now than pre-NAFTA. Do you view this as a trade problem and do 
you have plans to address this issue within the administration?

    Answer. I am aware that Mexico is pursuing significant labor 
reforms. If those reforms are successfully implemented, they could lead 
to better working conditions for many Mexican workers. If confirmed, I 
will work with you and other members of Congress as we renegotiate and 
modernize NAFTA, and closely monitor Mexico's efforts to enhance its 
system of labor protections, as part of our examination of all aspects 
of the U.S. trade relationship with Mexico.
                  labor provisions in trade agreements
    Question. President Trump made trade enforcement a major component 
of his campaign. As you know, the Department of Labor has primary 
responsibility in enforcing the labor provisions of our free trade 
agreements. In early January, DOL found that Colombia was out of 
compliance with the terms of the U.S.-Colombia Trade Promotion 
Agreement and decided to initiate consultations with the Colombian 
government. I've been a strong supporter of increased U.S. engagement 
with Colombia, but at the same time I remain concerned about the lack 
of progress in Colombia's labor environment and the persistent violence 
against trade unionists in that country.

    How will you prioritize the enforcement of labor provisions of our 
trade agreements and what will you do differently from past 
administrations to ensure that other countries live up to their 
obligations so that American workers aren't undercut by unjust 
dilutions of labor rights?

    On Colombia specifically, do you support the Obama administration's 
decision to enter into consultations with Colombia under the terms 
specified in our free trade agreement?

    One of the major problems with enforcement of labor provisions is 
that often these kinds of consultations drag out without any 
improvement in the underlying situation. At what point would you 
recommend moving toward dispute settlement to resolve the dispute with 
Colombia?

    Answer. I appreciate your longstanding interest in and involvement 
in promoting our bilateral relationship with Colombia. Labor 
protections are important negotiating objectives that Congress has set 
out in TPA. If confirmed, I look forward to consulting closely with you 
and other members of Congress with an interest in using our trade 
agreements and enforcement efforts to promote high-standard protections 
for workers in Colombia and other key trading partners as a way to 
ensure a level playing field for American workers and businesses.

    Question. Ambassador Lighthizer, you and other administration 
officials have written and spoken about how China undermines American 
manufacturing through its lax labor and environmental standards.

    Are improved and enforceable environmental and labor standards 
going to be a priority for the administration in the NAFTA 
renegotiation and future trade deals?

    What specific provisions are you looking to include? Will they go 
beyond what was in TPP?

    Answer. If confirmed, I look forward to working with you, other 
members of Congress, and stakeholders as we renegotiate and modernize 
NAFTA, as well as in our negotiation of other future trade deals. In 
particular, if confirmed, I look forward to discussing ways in which we 
can strengthen labor and environmental provisions to meet the 
objectives in TPA and improve our efforts to seek to ensure that our 
trading partners adopt and maintain labor and environmental standards 
in ways that also help level the playing field for American workers and 
businesses.
                           trade enforcement
    Question. Ambassador Lighthizer, one of my longstanding concerns 
when it comes to trade is that once the deals are negotiated, many of 
the provisions are not thoroughly enforced. As you know from a letter 
many of us sent to the President, the Federal hiring freeze will 
compound the resource constraints faced by USTR and Customs and Border 
Protection when it comes to trade enforcement.

    What actions can we expect in the near future that will prove that 
this administration is serious about holding our trading partners 
accountable for their trade obligations?

    Answer. If confirmed, I will be a strong advocate for resources at 
USTR and, as I have been throughout my professional career, a strong 
advocate for enforcing U.S. trade laws and trade agreements. Sufficient 
resources are vital to a robust trade enforcement strategy. Many of the 
problems faced by U.S. exporters in foreign markets are hard to address 
due to lack of transparency or because they are legally or factually 
complex, requiring significant attorney, forensic investigatory, 
analytical, or translation resources. If confirmed, I will commit to 
use all the resources available to USTR, and seek to draw on the 
significant expertise in other agencies, to enforce fully U.S. trading 
rights and ensure that our trading partners comply with their 
international obligations.

    Question. Counterfeit imports from China has been a major concern 
for me and my constituents. What will you do to ensure that trade 
enforcement specialists are thoroughly investigating this issue and 
catching counterfeit goods before they enter our market?

    Answer. Counterfeit imports not only harm the commercial viability 
and goodwill of U.S. companies, but mislead and pose health and safety 
risks to consumers. If confirmed, I will draw on all relevant trade 
policy tools, including the Special 301 report, to engage with 
countries that fail to effectively combat counterfeit operations. If 
confirmed, I will also make monitoring and enforcement of trade 
obligations related to intellectual property a priority. In particular, 
I will work more closely than ever before with CBP and Commerce to 
develop and execute strategies to enforce U.S. law at our borders and 
ports of entry.
            china--currency and bilateral investment treaty
    Question. China has had a decades-long pattern of manipulating 
their currency, stealing our intellectual property, dumping products 
onto world markets, and systematically skirting their trade 
obligations. Leveling the playing field for American workers by taking 
aggressive action to stop China from gaming the international trading 
regime was a key theme of the President's campaign, and I hope the 
administration will follow through on that promise. And I'm sure that 
we all remember President Trump saying countless times that he would 
label China a currency manipulator on day one.

    If confirmed, what are you as USTR going to do to ensure that 
countries stop manipulating their currency? In my opinion, just 
labeling countries a currency manipulator isn't enough--we need to 
consider measures that raise the costs of engaging in currency 
manipulation in the first place.

    Is the administration going to continue the bilateral investment 
treaty negotiations with China? Will you pursue another type of trade 
agreement with China?

    Answer. The administration places a high priority on utilizing a 
broad range of tools to ensure that China treats the United States, 
U.S. exports, and U.S. companies fairly with respect to trade and 
investment. We will be reviewing the full range of potential tools, 
including the U.S.-China bilateral investment treaty negotiations, to 
assess the best path for the administration to achieve this objective. 
If confirmed, I look forward to consulting with Congress on these 
priority issues.
                      china--market economy status
    Question. China wants market economy status at the WTO. Given the 
continued trade-related problems we have with China, I don't think they 
deserve that status and I know President Trump has said he agrees. 
However, I'm concerned that the EU is considering changing its past 
position and is considering supporting granting market economy status.

    What are your thoughts on granting China market economy status?

    How will you work with the EU and other allies to defend the view 
that China is a non-market economy?

    How else do you think we can work with the EU to push back on some 
of China's market-distorting policies?

    Answer. I disagree with China's claim that the change in its 
Protocol of Accession requires WTO Members to treat China as a market 
economy in antidumping proceedings. If confirmed, I can assure you that 
USTR will do everything it can to defend the right of the WTO Members 
to use the strongest tools possible to counteract injurious Chinese 
dumping. This includes building a coalition of allies to defend our 
position at the WTO. I look forward to discussing with you the best way 
to work with the EU to defend the U.S. position on the Protocol and on 
China's continued intervention in its market, a practice which is 
harming producers both in the United States and the EU.
                             trade deficits
    Question. You and several other administration officials have said 
that reducing bilateral trade deficits will be one of the main 
objectives of any new trade agreement.

    Do you believe we should institute a test that any new trade 
agreement must lead to an increase in a certain number of jobs, or a 
certain amount of GDP or wage growth? And if not, the United States 
should retain the right to withdraw from the agreement?

    Answer. The aim of trade agreements is to achieve benefits for the 
United States, including boosting economic growth, increasing more 
productive, higher paying jobs (typical of the export industries), and 
raising family living standards. If confirmed, I look forward to 
working closely with members of Congress to ensure these benefits for 
workers, farmers and ranchers, and businesses of all sizes. The United 
States, as a sovereign nation, retains the right to withdraw from any 
agreement, trade or otherwise.
                                 taiwan
    Question. The United States for decades has benefitted from a 
strong economic relationship with Taiwan. Taiwan is currently our 10th 
largest trading partner, 7th largest importer of U.S. agricultural 
goods, and an important player in the global IT industry. The 
Government of Taiwan has expressed a strong interest to increase its 
economic and trade ties with the United States through a mutually 
beneficial bilateral trade agreement, or some other method of economic 
integration.

    Are you committed to strengthening our engagement with Taiwan and 
deepening our bilateral economic cooperation?

    Would you consider prioritizing negotiations with Taiwan to create 
a better environment for investment and trade?

    Answer. As you point out, the United States and Taiwan have a 
longstanding and important trade and investment relationship. If 
confirmed, I intend to work to strengthen further those trade and 
investment ties. Recognizing that foreign investment from Taiwan and 
elsewhere can create more jobs in the United States and increase U.S. 
economic growth and competitiveness, and increased trade can benefit 
U.S. agricultural, goods, and services trade, I intend to develop a 
trade and investment policy that promotes a stronger bilateral 
relationship with Taiwan and examine the prospects of additional 
negotiations with Taiwan, as well as addressing longstanding trade 
concerns such as market access for beef and pork.
                                soda ash
    Question. The U.S. soda ash industry is a shining example of U.S. 
competitiveness in manufacturing. The industry is the most competitive 
in the world due to unique deposits of the soda ash material, trona, in 
the United States. The industry exports over $1 billion annually, over 
half of its total output. However, like with the steel and aluminum 
industries, overcapacity and export incentives in China have undercut 
U.S. soda ash producers competing in key export markets.

    As USTR, will you plan to hold China to its JCCT commitment to 
exchange information on its soda ash excess capacity?

    Answer. I understand that U.S. soda ash producers are among the 
cleanest and most efficient producers of this important industrial 
input, an important U.S. exporting industry, and that they compete 
head-to-head with Chinese soda ash exports in many third-country 
markets. If confirmed, I fully intend to hold China to its commitment, 
at the November 2016 U.S.-China Joint Commission on Commerce and Trade 
(JCCT), to exchange information on the soda ash industry.

    Question. What specific steps might you pursue to ensure that China 
remedies its industrial excess capacity in sectors beyond the steel and 
aluminum industries, including soda ash?

    Answer. If confirmed, I will work to develop effective ways to 
ensure that China addresses its excess industrial capacity, both as a 
systemic issue and in relation to specific industries. This will 
include working with the soda ash industry to identify and address 
unfair trade practices that may contribute to excess capacity.
           intellectual property--international organizations
    Question. The United States has long promoted a fair, stable, and 
rules-based international system through organizations such as the 
United Nations and its sub-agencies, to promote U.S. national and 
economic interests and values around the world. Yet, manufacturers in 
the United States are seeing a rising tide of activities sponsored by 
these organizations--such as the disappointing findings with regard to 
intellectual property found in last year's U.N. High-Level Panel on 
Access to Medicines--that undermine core U.S. economic interests, 
values, and leadership. Such recommendations and related activities 
matter, particularly when they are adopted by national governments to 
the detriment of companies and workers here in the United States.

    How would you address this issue in dialogue with international 
organizations like the United Nations and World Health Organization?

    Answer. If confirmed, USTR will work closely with other agencies to 
stand up for U.S. trade interests in the United Nations, World Health 
Organization, and other relevant fora, including with respect to the 
U.N. High-Level Panel on Access to Medicines report.
                  australia-u.s. free trade agreement
    Question. Ambassador Lighthizer, as you are well aware, Australia 
is an important trading partner of the United States. Although the 
AUSFTA has been in place since 2005, various American companies and 
investors are finding the investment stability afforded by the treaty 
eroding. For example, a constituent has contacted me about regarding a 
concerning action in New South Wales which the Australia government has 
failed to address. As a result, U.S. investors in an Australian natural 
resources company have incurred losses without any recourse, which 
undermines the spirit of economic goodwill between the two countries. 
Legislation authorizing an expropriation indemnified all of those 
involved and specifically denied compensation for any innocent party.

    Mr. Lighthizer, will you commit to pressing the Australian 
government to resolve this matter so investors like my constituents 
will have a fair and transparent opportunity to make the case for 
restitution?

    Answer. Thank you for bringing this matter to my attention. If 
confirmed, I will direct my staff to look closely into this case as 
part of our ongoing review of investment issues.
                nafta investor-state dispute settlement
    Question. Ambassador Lighthizer, as you know from your experience 
advancing the interests of U.S. corporations abroad, where a U.S. 
investor in Canada is denied ``fair and equitable treatment'' under 
NAFTA, the recourse for the U.S. investor is to file a claim with an 
international arbitration panel. In certain cases, after a NAFTA 
arbitration panel decides in favor of a U.S. investor against Canada, 
the Canadian Government has resorted to its own domestic courts to 
strike down the decision. In one example, Bilcon, an aggregates company 
owned by the Clayton Group of New Jersey, won its case before a NAFTA 
arbitration panel, and now must fight the Canadian Government in the 
Canadian courts to preserve its victory.

    Mr. Lighthizer, as USTR, would you commit to work with me and your 
Canadian counterparts to find a just resolution of this issue?

    Answer. If confirmed, I will look forward to looking into this 
matter and, more generally, to working with you to ensure that foreign 
governments treat the United States, U.S. investors, and U.S. exports 
fairly with respect to trade and investment, and that these governments 
comply with their obligations under U.S. trade and investment 
agreements.

    Question. How will you seek to improve upon the arbitration 
provisions of NAFTA?

    Answer. If confirmed, I will look forward to working with the 
Congress on the 
investment-related elements to be pursued in U.S. trade agreements, 
consistent with the negotiating objectives set forth in the 2015 Trade 
Promotion Authority legislation. I will bear in mind the TPA 
objectives' specific guidance on potential improvements in key areas, 
such as enhancing transparency and eliminating frivolous claims.

                                 ______
                                 
              Questions Submitted by Hon. Thomas R. Carper
    Question. I was a big supporter of the Trans-Pacific Partnership 
(TPP). I was, however, disappointed that the TPP agreement excluded the 
financial services sector from the prohibition on data localization 
requirements. That exclusion was contrary to the direction that 
Congress gave the administration in our trade promotion authority 
legislation.

    Can you assure me and the other members of the committee that, if 
you are confirmed, you will follow the requirements of TPA by ensuring 
that the financial services sector is treated the same as every other 
sector when it negotiates future provisions on this issue?

    Answer. I am aware of the concerns raised by U.S. financial 
services companies regarding the importance of addressing data 
localization requirements by foreign governments. I understand that 
U.S. financial services companies engaged extensively with the previous 
administration to advocate for an approach that differed from the 
outcome in the final TPP agreement. If confirmed, I look forward to 
working with this committee on this matter.

    Question. I understand the State Bank of Vietnam is considering a 
proposal that would put U.S. payments companies at a competitive 
disadvantage relative to Vietnam-based competitors. This proposal goes 
directly against the commitment Vietnam made with regard to electronic 
payments in TPP. How will you ensure our former TPP partners like 
Vietnam follow through on the constructive commitments they made as 
part of the TPP negotiations?

    More broadly, can you tell us how the administration intends to 
prevent TPP countries from backing away from commitments that create 
valuable export opportunities for American businesses?

    Answer. If confirmed, I will direct my staff to review the proposal 
by the State Bank of Vietnam closely. Regarding how the administration 
intends to ensure export opportunities for U.S. companies in TPP 
countries, including the constructive commitments they made as part of 
that agreement, in withdrawing from TPP the administration expressed a 
desire consider pursuing bilateral FTAs with them. As I stated during 
my testimony, the TPP included several policies that I believe would be 
relevant to subsequent negotiations. If confirmed, as we develop our 
agenda for engaging with TPP countries, I will work closely with you 
and your staff to ensure that we approach those engagements in a 
productive manner.

    Question. I know that you share my concern that U.S. companies face 
a very uneven playing field in China. Increasingly, Chinese regulation 
is making it difficult or even impossible for U.S. cloud services 
companies to operate in China--likely in violation of World Trade 
Organization (WTO) commitments. Meanwhile, Chinese cloud service 
providers can operate in the United States today without similar 
regulatory restrictions.

    The U.S. cloud service industry supports thousands of American jobs 
and is growing strongly, and it is very troubling to think that they 
could be locked out of China entirely. Will you raise this issue in 
your discussions with Chinese officials and underscore that China must 
live up to its international commitments and stop discriminating 
against U.S. cloud service providers?

    Answer. I recognize that U.S. leadership in the technology sector, 
particularly in cloud computing, is a national strength and a source of 
our international competitiveness. I agree that our trade policy should 
work to ensure that U.S. companies in this sector can thrive globally, 
including in China, where I recognize that barriers have been severe 
and contrast sharply with the open market in the United States. If 
confirmed, I will make seeking progress in reducing barriers to U.S. 
companies in this sector, including in China, a priority.

    Question. A great deal of progress was made on core obligations and 
sector-specific issues in the multi-country Trade in Services Agreement 
(TiSA) negotiations, and TiSA participants are looking to the United 
States to continue that progress and produce a high standard agreement. 
If confirmed, what are your plans to ensure that the TiSA negotiations 
do not fall by the wayside?

    Answer. The U.S. services sector is highly innovative and a key 
driver of the U.S. economy. Maintaining a vibrant U.S. services sector 
and expanding U.S. services exports is vital to a healthy economy and a 
key objective of U.S. trade policy. If confirmed, I look forward to 
working with you to pursue this objective.

                                 ______
                                 
               Questions Submitted by Hon. Sherrod Brown
    Question. A recent report published by the Alliance for American 
Manufacturing found that the WTO ruled against U.S. trade remedy laws 
38 times since 1995. That's five times the number of these decisions as 
against any other member. Do you agree that the WTO has overreached its 
authority by striking down provisions of U.S. trade laws?

    Answer. Yes, I am concerned with the problem of WTO overreach. I 
believe that it is critical that WTO panels and the Appellate Body 
apply WTO rules as written and not ``add to or diminish the rights and 
obligations'' of the United States or other WTO Members. I am concerned 
that certain cases involve over-reaching by the WTO panels and the 
Appellate Body. If confirmed, I look forward to consulting closely with 
the committee on ideas for ensuring that the WTO dispute settlement 
system operates as intended.

    Question. In your testimony, you mentioned that we need to sit down 
with other WTO member countries to find new tools at the WTO to deal 
with a country like China and its industrial policies. What are some of 
the changes you think we should make to the WTO dispute settlement 
process or the new tools the WTO should establish so the body more 
effectively targets unfair trade practices instead of legitimate U.S. 
trade laws?

    Answer. U.S. trade laws, which are expressly sanctioned by the WTO 
agreements, are typically used in response to unfair trade practices by 
other countries. A key question is how we can respond most effectively 
to those practices so that they are less likely to cause the harm and 
dislocation that they do, while also preserving fully the ability of 
U.S. workers and businesses to use WTO-sanctioned trade remedy laws to 
address the consequences of those unfair trade practices. If confirmed, 
I look forward to working closely with the committee and the Ways and 
Means Committee on these issues, and continue to work with like-minded 
WTO Members.

    Question. In your testimony you stated that you believe we need to 
make it less economical for China to violate its trade obligations. 
What specific steps would you take to make it less economically viable 
for China's state-owned enterprises in both the steel and aluminum 
sector to continue to operate independent of market considerations?

    Are you committed to addressing the problem of aluminum 
overcapacity across the supply chain through all available means, 
including WTO litigation?

    Answer. If confirmed, I will vigorously enforce and defend our 
trade remedy laws, and aggressively utilize all available tools in the 
WTO and other mechanisms to deter Chinese government subsidies and 
other support that artificially lower costs to Chinese firms, including 
State-Owned Enterprises (SOEs), in the steel, aluminum, and other 
sectors. I will also engage China bilaterally and work with other 
economies to encourage China to move away from policies that contribute 
to excess capacity and distort markets including subsidies and raw 
material export restrictions.

    Question. In your testimony you stated that the United States 
should bring more cases at the WTO. Would you consider bringing a broad 
case against China for its distortive trade practices across multiple 
sectors?

    Answer. Distortive trade practices across multiple sectors is a 
significant concern. If confirmed, I will seek to combat distortive 
trade practices as effectively as possible, using all appropriate 
instruments.

    Question. Would you consider renegotiating China's WTO Accession 
Protocol if China continues to violate its WTO commitments and other 
efforts to get China to live up to its obligations are unsuccessful?

    Answer. I understand the importance of working on difficult trade 
issues to get trading partners to live up to their trade obligations. 
If confirmed, I intend to make China's compliance with all of its WTO 
obligations, including those in China's Protocol of Accession, a top 
priority, as I stated during my confirmation hearing. Where China fails 
to do so, I will also aggressively utilize, in cooperation with others 
in the administration, and in consultation with members of Congress, 
all available tools in the WTO and other mechanisms.

    Question. Will you advise President Trump to take unilateral trade 
action against our trading partners if that is needed to give U.S. 
companies and their workers a level playing field? Specifically, will 
you commit to using your authority under section 301 or other 
provisions of law to respond to the unfair advantages the Chinese 
government has given Chinese companies and products in international 
trade?

    Answer. If confirmed, I am committed to using all available tools, 
including section 301 where appropriate, to address unfair foreign 
trade practices of the Government of China.

    Question. What do you believe should be the objectives of auto 
rules of origin in our trade agreements? Will you commit to discussing 
improvements to the NAFTA auto rules of origin during the NAFTA 
renegotiations?

    Answer. I believe the objectives of rules of origin for automotive 
goods are to provide incentives for producers to source goods and 
materials here in the United States. These rules should support good 
jobs in the United States, rather than provide benefits for producers 
to outsource production and send jobs to other countries. If confirmed, 
I look forward to examining this issue closely to see where and how we 
can better meet these objectives.

    Question. If you undertake bilateral trade negotiations, do you 
expect to use the TPP agreement as a template?

    Answer. As I noted during my testimony, I would hope that we could 
take TPP and improve upon what was negotiated there. If confirmed, I 
look forward to working with Congress and other stakeholders to 
identify those areas where the TPP outcomes can be improved.

    Question. Do you believe strong and enforceable currency provisions 
should be included in FTAs? If so, do you believe they should be 
subject to dispute settlement mechanisms in the agreements?

    Answer. I have also long been concerned about the problem of 
currency manipulation. If confirmed, I will work with you and other 
members of Congress, as well as with other administration officials, to 
determine the best means to address this important issue.

    Question. I strongly supported the inclusion of state-owned 
enterprises disciplines in the Trans-Pacific Partnership. 
Unfortunately, those provisions were drafted in a way to exclude many 
SOEs that should be subject to these disciplines, for example state-
controlled enterprises that are not majority-owned by the state. Will 
you commit to including provisions on state-owned enterprises in any 
trade agreements that you negotiate? And will you commit to working 
with the committee to ensure such disciplines are meaningful tools?

    Answer. I agree that disciplines on SOEs are important to ensure a 
level playing field with our trading partners. If confirmed, I commit 
to working with Congress and stakeholders to ensure that future trade 
agreements include strong rules that address unfair competition from 
SOEs.

    Question. You have made public comments about the need to address 
the U.S. trade deficit. One way to reduce the U.S. trade deficit is to 
prevent U.S.-based production from moving overseas. Corporations often 
point to lower labor and environmental costs in U.S. trading partner 
countries as reasons for moving production offshore. Will you commit to 
strengthening labor and environmental standards in NAFTA to prevent 
more U.S. factories from offshoring to Mexico? Specifically, will you 
commit to negotiating improvements to Mexico's labor laws, including 
its laws protecting the right to organize and bargaining collectively, 
as part of the NAFTA renegotiations?

    Answer. If confirmed, I look forward to working with you, other 
members of Congress, and stakeholders as we update and improve NAFTA. 
In particular I look forward to discussing ways in which we can 
strengthen labor and environmental provisions to meet the objectives in 
TPA and to seek to ensure our trading partners adopt and maintain labor 
and environmental standards in ways that also help level the playing 
field for American workers and businesses.

    Question. Enforcement of labor obligations in U.S. FTAs has been 
inadequate. USTR has brought only one labor enforcement case, against 
Guatemala in 2008, and 9 years later it is still unresolved. What would 
be your priorities for demonstrating improved compliance by trading 
partners and more effective oversight and enforcement by the U.S. 
Government in this area?

    Answer. When trading partners fail to enforce labor laws and do not 
uphold high-standard protections for workers, it can create a 
competitive disadvantage for U.S. workers, farmers, ranchers, and 
businesses. If confirmed, I will work closely with you, other members 
of Congress, and stakeholders with an interest in directing our 
enforcement efforts to ensure that trading partners live up to their 
labor obligations in U.S. FTAs.

    Question. The practice of systemic illegal logging has been well-
documented in Peru, yet USTR has not initiated a dispute for these 
violations. Will you commit to fully enforcing the environmental 
obligations of the Peru FTA, including bringing a dispute against Peru?

    Answer. If confirmed, I am fully committed to ensuring that Peru 
and our other trading partners live up to their obligations under our 
existing agreements. I look forward to working with you and other 
members, as well as other stakeholders, to determine appropriate next 
steps with respect to Peru.

    Question. Investment provisions in FTAs have provided legal 
protections for corporations to move productions offshore. What 
suggestions do you have for reforming trade and investment rules to 
prevent further offshoring?

    Answer. The United States is the most attractive place in the world 
to invest. The administration is committed to creating conditions that 
make it even more attractive for companies to establish and maintain 
production activity in the United States. If confirmed, I will ensure 
USTR staff reviews provisions of U.S. FTAs that can help to advance 
this goal, in line with the negotiating objectives established in TPA.

    Question. Do you believe the United States should negotiate 
investment treaties with countries, even if they have persistently 
violated their existing trade obligations?

    Answer. The administration places a high priority on utilizing a 
broad range of tools to ensure that foreign governments treat the 
United States, U.S. exports, and U.S. companies fairly with respect to 
trade and investment, and that foreign governments comply with existing 
trade obligations. If confirmed, I will work closely with you and your 
staff to determine with which countries to negotiate. I look forward to 
your input on this issue.

    Question. Commercial aviation traffic rights have traditionally 
been negotiated through bilateral Air Transport, or ``Open Skies'' 
Agreements, which are jointly overseen by subject-matter experts at the 
Departments of State and Transportation. This Open Skies system has 
been successful in liberalizing international aviation markets in a way 
that increases competition and promotes growth opportunities for U.S. 
airlines, while protecting labor rights. In recent years, however, 
there has been steady pressure from foreign negotiators to include 
aviation services in FTAs. Including aviation services in FTAs would be 
unprecedented and is unnecessary.

    Will you oppose efforts by the EU or other foreign entities to 
include aviation services as part of broader trade negotiations?

    Answer. Aviation traffic rights have traditionally been covered by 
Open Skies agreements, not trade agreements. I am aware of the 
sensitivity around this issue and, if confirmed, USTR will remain in 
close communication with Congress should our trading partners seek to 
include the negotiation of these rights as part of broader trade 
negotiations with this administration.

    Question. How will you work to make U.S. trade negotiations more 
transparent and inclusive?

    Answer. I believe that transparency and inclusiveness in trade 
negotiations is important to get the best possible deal. If confirmed, 
I will ensure that USTR follows the TPA requirements related to 
transparency in any potential trade agreement negotiation. I also look 
forward to discussing with Congress ways to ensure that USTR 
understands fully, and takes into account, the views of all 
stakeholders during the course of a trade negotiation.

    Question. Will you commit to making all U.S. tabled FTA proposals 
public? Will you commit to releasing to the public draft, consolidated 
FTA text after negotiating rounds?

    Answer. If confirmed, I look forward to discussing with Congress 
the best way to ensure that USTR obtains public input during the course 
of a trade negotiation.

    Question. According to the Washington Post, approximately 85 
percent of the official trade advisors represent corporations. How will 
you ensure the Trade Advisory Committees members are not 
disproportionately representative of corporations and more 
representative of the U.S. public?

    Answer. It is important that USTR's Trade Advisory Committees 
represent all types of stakeholders to ensure that USTR fully benefits 
from a diverse set of viewpoints in considering the positions it takes 
in negotiations. If confirmed, I will work to ensure that USTR's Trade 
Advisory Committees are appropriately constituted in order to achieve 
this goal.

    Question. The GAO recently published a report titled ``Government 
Procurement: United States Reported Opening More Opportunities to 
Foreign Firms Than Other Countries, but Better Data Are Needed'' (GAO-
17-168), which concluded that the U.S. opened up more of its domestic 
government procurement opportunities to foreign competition than the 
next five largest trade agreement partners combined. Given the report's 
findings, will you commit to reevaluating U.S. procurement obligations 
under the Agreement on Government Procurement and any new trade 
agreements you negotiate?

    Answer. Thank you for this question. I hear your concerns about the 
recently released GAO report on government procurement that raises many 
important questions ranging from the gaps in U.S. and international 
procurement statistics to the comparative value of procurement market 
access in our trade agreements. I understand the importance of this 
issue, and if confirmed, I commit to working with you as we prepare a 
trade agenda that expands trade opportunities for U.S. suppliers.

                                 ______
                                 
             Questions Submitted by Hon. Michael F. Bennet
    Question. In November 2015, the Department of Treasury and 11 
countries adopted a Declaration to address unfair currency practices. 
This Declaration aimed to address the principal negotiating objectives 
on currency included in the Trade Priorities and Accountability Act of 
2015. This Declaration was intended to stand beside the Trans-Pacific 
Partnership Agreement (TPP).

    Does the Trump administration support the terms of that 
Declaration?

    How does withdrawal from TPP affect commitments made by the U.S. 
Government?

    Will the Trump administration adhere to the transparency and 
reporting commitments made in the Declaration?

    Answer. I understand the importance that you and Congress as a 
whole place on the issue of unfair currency practices. I have also long 
been concerned about the potential for currency manipulation and 
misaligned currency to affect international trade flows. If confirmed, 
I will work with you and Congress, along with the Treasury Department 
and others in the administration, to determine the best means to 
address this longstanding issue.

                                 ______
                                 
            Questions Submitted by Hon. Robert P. Casey, Jr.
    Question. Mr. Lighthizer, do you agree that adopting or maintaining 
lax labor and environmental standards is not a legitimate way for 
governments to manufacture a competitive advantage for their exporters?

    Answer. Labor and environment protections are important negotiating 
objectives that Congress has set out in TPA. If confirmed, I look 
forward to consulting closely with you and other members of Congress 
with an interest in using our trade agreements and enforcement efforts 
to promote high-standard protections for workers and the environment to 
ensure a level playing field for American workers and businesses.

    Question. According to the American Iron and Steel Institute, the 
steel industry employs about 19,000 people in Pennsylvania, and is one 
of Pennsylvania's biggest economic drivers.\1\ The steel and aluminum 
industries are facing a crisis because of global overcapacity, stemming 
from China. This glut in supply has cost American jobs and driven 
prices down. The steel industry is bringing trade cases, but more 
aggressive enforcement of U.S. trade laws is necessary to curb these 
practices. Countries that don't make things don't last for very long. 
To that end, preservation of our manufacturing base is not just an 
economic imperative; it is vital to our national security. We must take 
definitive steps to address the market failures, and unfair trade 
practices that put our domestic producers at a significant disadvantage 
in the global marketplace.
---------------------------------------------------------------------------
    \1\ https://www.steel.org//media/Files/AISI/Public%20Policy/
Member%20Map/2016/Pennsylvania.pdf?la=en.

    Can you please share what actions you intend to take to press China 
---------------------------------------------------------------------------
and other countries on overcapacity?

    Please discuss how you will work with our allies, including the EU, 
on taking collective action on this issue.

    Answer. If confirmed, I will conduct a review of all available 
tools to address serious overcapacity problems in the steel industry 
and other sectors, work to address the root causes of those problems, 
and continue to work closely with other leading steel producing 
countries in the Global Forum on Steel Excess Capacity and other 
contexts. I will also examine how we might use our existing bilateral 
dialogues to press China to fix its unfair trade practices and vast 
excess capacity problem in many industrial sectors.

    Question. What initial steps do you intend to take to address 
Mexico's lax enforcement of labor and environmental standards?

    Answer. When trading partners fail to enforce labor and 
environmental laws, it can create a competitive disadvantage for U.S. 
workers, farmers, ranchers and businesses. If confirmed, I will work 
closely with you, other members of Congress and stakeholders to ensure 
that trading partners like Mexico live up to their obligations to 
effectively enforce their labor and environmental laws. I also look 
forward to working with you, other members of Congress, and 
stakeholders as we update and improve on NAFTA. That process provides 
an opportunity to improve our trading partners' labor and environmental 
standards in ways that also help level the playing field for American 
businesses.

    Question. With respect to labor standards in our trade agreements, 
where do you think we have executed appropriate enforcement of labor 
obligations? What are your priorities in this area of enforcement?

    Answer. When trading partners fail to enforce labor laws and do not 
uphold high-standard protections for workers, it can create a 
competitive disadvantage for U.S. workers, farmers, ranchers, and 
businesses. If confirmed, I will work closely with you, other members 
of Congress, and stakeholders with an interest in targeting our 
enforcement efforts to ensure that trading partners are acting 
consistently with their labor obligations in U.S. FTAs.

    Question. With respect to uncompetitive market concentration of 
products or production, please discuss how you hope to work with the 
Department of Justice's antitrust division to evaluate the impact on 
prices in the United States, and where appropriate, develop remedies.

    Answer. If confirmed, look forward to discussing with you what 
appropriate role USTR may have in this area.

    Question. In your opinion, are the current funding and staffing 
levels at USTR sufficient to execute a robust trade and enforcement 
agenda that helps American businesses grow and gain market access?

    Answer. I'm not in the administration. In my personal view, we need 
more resources for USTR and with whatever we have we'll do the best job 
we can do.

    The President has made clear that trade policy negotiations and 
litigation are a top priority of the administration. Trade policy plays 
a critical part in every aspect of the economy and is essential to 
fulfilling the administration's goal of accelerating economic growth 
and improving U.S. standards of living. USTR's previous budget requests 
were based on the old status quo. Instead, President Trump places trade 
execution and enforcement at the top of his ``America first'' trade 
policy.

    USTR's capabilities must grow to execute the President's new 
strategy. Increased resources are necessary to reinforce USTR's 
statutory obligations to (1) monitor compliance by foreign governments 
with trade policy commitments to the United States, detect violations 
as quickly as possible and take swift and successful actions to enforce 
U.S. rights and at the same time, (2) vigorously and successfully 
defend the ability of the United States to exercise its rights to 
ensure fair trade in the U.S. market, and, (3) take action under U.S. 
law to advance U.S. economic interests. If confirmed, I will work to 
ensure that USTR has the resources it needs to fulfill its mission.

    Sufficient resources are vital to a robust trade enforcement 
strategy. Many of the problems faced by U.S. exporters in foreign 
markets are hard to address due to lack of transparency or because they 
are legally or factually complex, requiring significant attorney, 
investigatory, analytical, or translation resources. If confirmed, I 
will commit to use all the resources available to USTR, and seek to 
draw on the significant expertise in other agencies, to enforce U.S. 
trading rights fully and ensure that our trading partners comply with 
their international obligations.

    Question. Do you intend to self-initiate trade cases when the 
situation calls for it? If so, do you believe the current funding and 
staffing levels at USTR are sufficient to execute this agenda?

    Answer. If confirmed, I am committed to using all available 
statutory authorities, including possible self-initiation, where 
appropriate, to address unfair foreign trade practices and to open 
markets for U.S. exports.

    Question. On February 10th, I wrote a letter to the President 
discussing key areas where American workers have been disadvantaged by 
trade agreements, this includes investor-state dispute settlement 
(ISDS) provisions. In practice, ISDS has provided some foreign 
companies greater legal protection than U.S. employers.

    Do you support the inclusion of Investor State Dispute Settlement 
(ISDS) in its current form in future trade agreements?

    Answer. If confirmed, I will look forward to working with Congress 
on the investment-related elements to be pursued in future U.S. trade 
agreements, consistent with the negotiating objectives set forth in the 
2015 Trade Promotion Authority legislation.

    Question. How would you amend ISDS to ensure no special legal 
protection is afforded to offshoring jobs?

    Answer. If confirmed, in negotiating trade agreements I will bear 
closely in mind the negotiating objectives established on this point by 
Congress in the 2015 Trade Promotion Authority legislation.

    Question. What steps do you intend to build on, and initiate, to 
protect U.S. intellectual property from both coercive appropriation, 
and conventional and cyber-
enabled economic espionage?

    Answer. If confirmed, I will seek to use all appropriate trade 
tools to ensure that U.S. rights holders have a full and fair 
opportunity to use and profit from their intellectual property rights. 
Ensuring strong intellectual property protection, including against 
coercive appropriation and cyber-enabled economic espionage, and 
enforcement by our trading partners of their intellectual property 
obligations will be a top trade priority.

    Question. Please describe where you see the WTO dispute settlement 
process as deficient and outline how you would work to make the process 
fairer.

    Answer. USTR actively enforces WTO rules to ensure that U.S. 
producers, workers, ranchers, and farmers are able to achieve the 
market access to which they are entitled. USTR uses dispute settlement, 
as necessary, among other tools to achieve that goal. But to maintain 
U.S. confidence in the WTO, it is critical that WTO panels and the 
Appellate Body apply WTO rules as written and do not ``add to or 
diminish the rights and obligations'' of the United States or other WTO 
Members. If confirmed, I look forward to consulting closely with you, 
this committee and the Ways and Means Committee, on ideas to ensure the 
WTO dispute settlement system operates as intended, and as approved by 
Congress in 1994.

    Question. Trade is critically important to the agricultural 
economy. Canada and Mexico are major export markets for the U.S. diary 
sector, which is a significant industry in my State. I am concerned 
about recent changes in Canadian policies that are displacing U.S. 
exports to that country. I am equally concerned with recent press 
reports that Mexico, which takes nearly a third of U.S. dairy exports, 
has stepped up trade talks with the European Union and New Zealand.

    How will you ensure that Canada abides by the terms of NAFTA with 
respect to dairy trade?

    What will you do to ensure that U.S. dairy producers continue to 
have strong access to the Mexican market?

    Should the administration initiate a NAFTA renegotiation, will 
dairy access be a priority?

    Answer. I understand that Canada's supply management program for 
dairy is of high concern to you, other members of Congress, and the 
U.S. dairy industry. If confirmed, I will examine the details of the 
issue and consult with you on the most appropriate way to address this 
matter. If confirmed, I will be committed to the expansion of U.S. 
dairy exports through negotiations that create enhanced export 
opportunities for our dairy producers, while we maintain the current 
markets that we already have.

    Question. If confirmed, will you leverage the eligibility criteria 
found in AGOA to promote human rights and discourage anti-LGBT policies 
in sub-Saharan Africa, as the Obama administration did?

    Answer. If confirmed, I will commit to work with you to ensure that 
AGOA beneficiary countries adhere to all of AGOA's eligibility 
criteria, including with respect to human rights.

    Question. The USTR monitors and reports on whether trading partners 
adhere to eligibility criteria consistent with their receipt of trade 
preferences. This is an opportunity to promote cooperation in combating 
terrorism and terrorist finance, an area where both interagency and 
international collaboration is critical.

    How do you view your role within our national security apparatus in 
aiding efforts to combat terrorism, terrorist finance and trade based-
money laundering?

    Will you ensure that countries are closely evaluated to promote 
adherence to the statutory eligibility requirements found in trade 
preference programs or other obligations they may have taken on?

    There are well-documented links between the sale of counterfeits 
and illegally taken resources (such as wildlife and timber) to 
transnational criminal organizations and designated terrorist 
organizations. If USTR identifies trade or trafficking in counterfeits 
and illegally taken resources, will you be sure it alerts other 
appropriate agencies and encourages them to take appropriate actions to 
fully enforce U.S. law and advance U.S. interests?

    Answer. Fighting terrorism is a key priority of this 
administration. Our trade preferences programs such as AGOA, GSP, and 
the Nepal Preference Program can play an important role by requiring 
the beneficiary countries to support the U.S. effort in combating 
terrorism. If confirmed, I commit to work with you and the committee, 
along with the Ways and Means Committee, as well as other agencies and 
stakeholders, to ensure that beneficiary countries continue to meet the 
statutory eligibility criteria of these programs, including the 
criteria related to combating terrorism and adequate and effective 
protection of intellectual property rights. If confirmed, I also commit 
to coordinating with other agencies, as appropriate, on issues related 
to counterfeits and illegally taken natural resources.

    Question. Since the President has refused to disclose his taxes, we 
have no way of knowing where he has business interests or to whom he 
owes debts. However, it appears he has advocated for the elimination of 
a provision within the tax code from which he could directly benefit, 
to the tune of over $30 million, for one past tax-year, alone. Further, 
Mr. Trump did not disclose, nor does anyone have the information to 
ascertain, how he would currently benefit when he asserted his support 
for the elimination of this particular provision.

    Do you think it is appropriate for the President to sign an 
affidavit affirming he has no financial interests in a trade agreement 
prior to negotiations being initiated?

    How would you respond to and evaluate a direct request from the 
President concerning specific provisions within a trade agreement?

    Answer. In all my conversations with the President, he speaks very 
strongly on enforcement and getting the best possible deals for 
American workers, farmers, ranchers, and businesses. The President is 
completely committed to the America First agenda, and working together, 
we have a reasonable likelihood that we can change the paradigm and 
make things better for all of our workers and farmers. I've never seen 
any hint in any way to the contrary.

    Question. Counterfeits and theft of intellectual property not only 
threaten U.S. economic competitiveness, they can be a threat to 
consumer health and safety and to national security. The Pennsylvania 
defense industrial base helps ensure that our warfighters have the most 
innovative, most effective equipment and technology to ensure that they 
are never in a fair fight, as General Odierno used to say. I am 
concerned about the impact that counterfeiting has on the defense 
supply chain. China accounts for the lion's share of counterfeits 
seizures--with 52 percent by value coming from the Chinese mainland and 
35 percent by value from Hong Kong. U.S. agencies continue to take 
steps to curb counterfeits from entering the United States, including 
through Custom's Operation Chain Reaction, which addressed counterfeit 
circuits made in China.

    How do you hope to work with Customs, the Department of Defense, 
and the State Department to combat counterfeits and identify 
vulnerabilities in our supply chain?

    Answer. I am deeply concerned about the issues of counterfeiting 
and piracy in China, including as to integrated circuits and the 
impacts of these practices on the U.S. economy, U.S. jobs, and the 
threats that these practices pose to health and safety and national 
security. If confirmed, I will use all relevant trade policy tools, 
including the Special 301 report and the new procedures provided under 
the Trade Facilitation and Trade Enforcement Act of 2016 to spotlight 
and address this continuing problem. I look forward to engaging with 
other agencies in the government and to consulting with members of 
Congress on this important issue going forward.

    Question. How will you respond to countries that show themselves to 
habitually foster counterfeiters?

    Answer. The President has spoken very clearly that we need the 
strongest possible trade agreements, and stronger ones than we have 
negotiated in the past, to stand up for Americans in every area of 
trade. From my experience, the President is completely committed to the 
America First agenda, and working together, we have a reasonable 
likelihood that we can change the paradigm and make things better for 
all Americans . I've never seen any hint in any way to the contrary.

                                 ______
                                 
               Questions Submitted by Hon. Mark R. Warner
    Question. Two of the three largest export markets for Virginia are 
America's immediate neighbors to the north and south. So I have a few 
questions for you with respect to NAFTA.

    The administration has announced its intent to focus on bilateral, 
rather than multilateral, trade agreements. The President has also 
called for renegotiating NAFTA. How does the intention to focus on 
bilateral agreements affect a renegotiation of NAFTA, which is 
multilateral?

    Answer. As you note, Canada and Mexico are our largest export 
markets, and NAFTA is one of our oldest agreements, two reasons the 
President has made a renegotiation of NAFTA a priority. However, while 
I am not currently in the administration, I understand the 
administration has taken no decision on the structure of a renegotiated 
agreement. Should I be confirmed, I look forward to consulting with you 
on that topic.

    Question. You have stated that the United States has ``chronic 
deficits'' with Mexico--in 2016, Virginia had a $300 million trade 
surplus with Mexico and a $1 billion trade surplus with Canada. Can you 
assure me that any renegotiation of NAFTA will not worsen any 
individual State's net trade, or specifically, my State's net trade 
position? How will you do so?

    Answer. In updating NAFTA, we will seek to improve our trade 
relationship with Canada and Mexico in order to secure the greatest 
possible benefits for U.S. workers farmers, ranchers, and businesses. 
If confirmed, I look forward to working with you on how best to meet 
the needs of your State as we renegotiate NAFTA.

    Question. As the administration formulates a plan for renegotiating 
NAFTA, what priority will it place on intellectual property protection, 
including in the pharmaceutical space, where 28 U.S. drug patents have 
been invalidated by Canada in recent years?

    Answer. If confirmed, I will place a high priority on ensuring 
strong intellectual property protection and enforcement by our trading 
partners. This is necessary for future innovation, and it preserves a 
competitive advantage of the United States in the global market. I look 
forward to working with you to address your concerns about patent 
protection in Canada and how to best use all appropriate trade tools to 
address those concerns.

    Question. When he was campaigning, Mr. Trump espoused vile rhetoric 
towards Mexico and Mexicans. He also pledged to build a wall, and even 
threatened to send troops to Mexico recently. All of that rhetoric has 
consequences, including for Americans. You must be aware that the 
Mexican peso has dropped 20% since Mr. Trump's election in November.

    This makes U.S. exports to Mexico 20% more expensive, harming U.S. 
manufacturers and workers. As U.S. Trade Representative, will you work 
to ratchet down the racist and offensive rhetoric from the 
administration towards our ally Mexico?

    Answer. Mexico is our third-largest trading partner. I look forward 
to working with the Government of Mexico to renegotiate and bring NAFTA 
into the 21st century. Furthermore, I look forward to working with 
Mexico to achieve shared goals with respect to ensuring a level playing 
field for products and services made in the United States and Mexico, 
respectively.

    Question. Currency manipulation is a real issue, but we need to be 
careful to use real facts, rather than the alternative facts that the 
administration is so fond of. The President campaigned on a promise to 
designate China as a currency manipulator. The Treasury Department, 
however, has not done so, probably because the data currently shows--
and has shown for a while--China is not artificially holding down its 
currency. Making false designations based on the President's prejudices 
may set off a global trade war that will harm our economy. To the 
extent that you are consulted by Treasury on currency manipulator 
designations, will you support an objective analysis?

    Answer. If confirmed, I will work with other administration 
officials, including at the Department of the Treasury, to develop an 
effective approach for addressing the problem of currency manipulation.

    Question. Last month, the Wall Street Journal reported that ``Trump 
officials have asked employees at the Commerce Department and Office of 
the U.S. Trade Representative to calculate U.S. trade flows in a way 
that exaggerates the overall U.S. trade deficit, overstates deficits 
with countries like Mexico, and even creates the illusion of deficits 
where none exist.'' I don't know whether to call this ``alternative 
facts,'' or just making stuff up, but it is concerning. Will you pledge 
to this committee that, if confirmed, you will not manipulate trade 
statistics, or engage in what the Wall Street Journal called ``fuzzy 
math?''

    Answer. If confirmed, I will ensure that USTR relies on data 
related to flows of exports, imports, and other matters from the United 
States' professional statistical agencies, including Census, Bureau of 
Economic Analysis, and others, that provide the most complete and 
accurate picture of these matters.

    Question. As you know, China offers extensive state support for 
domestic industries. For example, China has announced more than $150 
billion in government projects to create a domestic semiconductor 
market, which distorts global markets and results in oversupply, 
imperiling American manufacturers. As U.S. Trade Representative, what 
tools will you use to address this concern?

    Answer. Semiconductors are one of the top five U.S. export sectors, 
and they are critical to advancing innovation in virtually all sectors 
of the U.S. economy, from automobiles to cell phones to medical 
devices. The Chinese government has launched an initiative to develop 
an indigenous, self-contained semiconductor industry--an initiative 
calling for government-directed funding in the tens of billions of 
dollars, with some estimates of over $150 billion, as your question 
notes. If confirmed, I will work to address this challenge and to 
identify and implement the most effective policies to combat the 
market-distorting impacts of China's semiconductor fund.

    Question. Similarly, China employs other trade barriers that make 
it difficult for U.S. cloud services companies to operate in China, 
likely in violation of WTO commitments. Meanwhile, Chinese cloud 
service providers can operate in the United States today without 
similar regulatory restrictions. This imbalance is inherently unfair 
and threatens to jeopardize one of America's critical areas of growth 
in the technology sector. Will you pledge to this committee that, if 
confirmed, you will make this a priority in your discussions with 
Chinese officials?

    Answer. I recognize that U.S. leadership in the technology sector, 
particularly in cloud computing, is a national strength and a source of 
our international competitiveness. I agree that our trade policy should 
work to ensure that U.S. companies in this sector can thrive globally, 
including in China, where I recognize that barriers have been severe 
and contrast sharply with the open market in the United States. If 
confirmed, I will make seeking progress in reducing barriers to U.S. 
companies in this sector, including in China, a priority.

    Question. One of the key reasons I supported President Obama's 
pivot towards Asia and his pursuit of TPP was because strengthening 
economic integration leads to stronger national security relationships, 
increases our ability to improve human rights and labor and 
environmental standards, and boosts American ``soft power.'' Now that 
this administration has abrogated TPP, China's economic might in East 
and Southeast Asia will grow. How will you, as USTR, address that to 
benefit American workers and exporters?

    Answer. The administration intends to maintain its leadership in 
the region through active engagement with countries in the Asia 
Pacific. The administration has also indicated it is considering 
pursuing bilateral FTAs with those countries. If confirmed, I will work 
to press China to provide a level playing field for U.S. exporters In 
addition, I will consult closely with you and other members of Congress 
on how best to maintain U.S. leadership in the region.

    Question. American farmers often face major barriers in attempting 
to export products to foreign markets. Prominent examples have included 
bone-in-beef to South Korea and Japan, or poultry to China, under 
spurious sanitary or phytosanitary conditions. Will you continue the 
fight that previous U.S. trade representatives engaged in to break down 
those trade restrictions for U.S. agricultural products?

    Answer. If confirmed, I am committed to tear down unwarranted 
sanitary and phytosanitary barriers to U.S. agriculture exports, 
including for U.S. beef and poultry. Ensuring that countries have 
regulations that are based on scientific principles and international 
standards is critical to the expansion of agricultural exports and the 
improvement of rural incomes.

    Question. How can the United States use new and existing trade 
agreements, including enforcement tools, to ensure U.S. businesses 
benefit from strong intellectual property protections and greater 
access to global markets?

    Answer. If confirmed, I would seek to use all appropriate trade 
tools to ensure that U.S. rights holders have a full and fair 
opportunity to use and profit from their intellectual property rights. 
Ensuring strong intellectual property protection and enforcement by our 
trading partners will be a top trade priority.

    Question. There has not been a successful sustained safeguard 
action that has not run afoul of the World Trade Organization (WTO). 
Knowing that WTO Safeguard actions provided for in the GATT article XIX 
(19) are available to the United States, how will USTR approach 
safeguard actions if deemed necessary and how will you ensure the 
United States sustains a case at the WTO?

    Answer. If confirmed, I will work with USTR staff and with other 
agencies to evaluate the most suitable response, including the use of 
our safeguard laws where appropriate, for addressing each particular 
situation where imports are harming U.S. workers and businesses. I will 
also take all possible steps to defend any safeguard action at the WTO.

                                 ______
                                 
              Questions Submitted by Hon. Claire McCaskill
    Question. Missouri is a major State exporter, with nearly $14 
billion in exports in 2016. More than 60 percent of Missouri's exports 
were to the State's top two trading partners, Canada and Mexico. The 
administration has announced that it will soon renegotiate NAFTA. What 
specific steps will you take as the U.S. Trade Ambassador to improve 
this trade agreement without putting the manufacturers and farmers in 
Missouri at risk of losing market access with these trading partners?

    Answer. I understand that NAFTA has been in place for a long time 
and that many of our workers, farmers, and firms have expanded exports 
to Canada and Mexico under the agreement. If confirmed, I am committed 
to maintaining U.S. exports of goods and services from Missouri and our 
other States, and will use the opportunity of renegotiating NAFTA as a 
way to seek changes that will expand U.S. exports to Mexico and Canada 
and generate increased economic opportunities for America's workers, 
farmers, ranchers, and businesses.

    Question. China's state-owned enterprises invested $45 billion in 
the United States during 2016. Are you willing to use regulatory tools 
to ensure that SOE investment in the United States does not distort our 
markets or threaten our economic security?

    Answer. If confirmed, I will look forward to working with the 
Congress, stakeholders and other U.S. Government agencies to consider 
appropriate ways of addressing concerns about Chinese SOE investment in 
the United States.

    Question. China negotiated 14 Free Trade Agreements since 2002, and 
is closing in on the completion of the Regional Comprehensive Economic 
Partnership, a 16-country agreement that includes India and Japan. What 
is the administration's plan to expand our market access in the Pacific 
Rim and how does the administration intend to combat the influence of 
China in that region?

    Answer. The Trump administration intends to play a strong 
leadership role in the Asia-Pacific, including through the active 
negotiation of bilateral free trade agreements and other trade 
initiatives aimed at ensuring that U.S. workers, farmers, and 
manufacturers have a fair opportunity to compete in these markets. If 
confirmed, I look forward to working closely with Congress to increase 
U.S. economic growth, foster job creation in the United States, promote 
reciprocity with our trading partners, and enhance U.S. competitiveness 
in the Asia-Pacific region and globally.

    Question. There is a global glut in steelmaking capacity caused by 
foreign government subsidies and other market-distorting policies. 
China's surplus capacity for steel production is greater than the 
entire steel production of the United States, the EU and Japan 
combined. The OECD has attempted to address this challenge through a 
global forum, however, there has been little action or results. What 
steps will you take to address the need to reduce global steel 
capacity?

    Answer. If confirmed, I will conduct a review of all available 
tools to address serious overcapacity problems in steel and other 
sectors, work to address the root causes of those problems, and 
continue to work closely with other leading steel producing countries 
in the Global Forum on Steel Excess Capacity and other contexts.

    If confirmed, I also will examine how we might use our existing 
bilateral dialogues to press China to fix its unfair trade practices 
and vast excess capacity problem in many industrial sectors. I will 
vigorously enforce and defend our trade remedy laws, and aggressively 
utilize all available tools in the WTO and other mechanisms to combat 
distortive trade practices.

    Question. Do you think the computable general equilibrium model 
used by the International Trade Commission provides the most accurate 
prediction of all the possible risks and benefits of new trade deals? 
Do you support making changes to the model to better account for 
investment, wage, and regulatory impact?

    Answer. Computable general equilibrium (CGE) models are one of many 
tools widely used to assess trade agreements. Other tools include 
econometric models, partial equilibrium models, as well as qualitative 
assessments. CGE and other models can and should be improved over time, 
consistent with maintaining the greatest possible confidence in the 
outcomes, as the model becomes able to incorporate additional features 
of trade agreements such as services, investment, rules of origin, and 
logistical efficiency. If confirmed, I will ask USTR's office of Trade 
Policy and Economics to work with the ITC to ensure that the models it 
is using to assess new trade deals and in other contexts are as strong 
as possible.

    Question. The Trade Promotion Authority includes the protection of 
cross-border data flows and opposition to data localization laws as 
core negotiating objectives for future U.S. free trade agreements. As 
the U.S. Trade Representative, what will you do to support these 
congressional objectives for data flows and local server prohibitions?

    Answer. Digital trade provides enormous value to the U.S. economy, 
and U.S. companies are uniquely competitive in this area. I recognize 
the significant challenges for U.S. firms when foreign governments 
impose restrictions on the ability to transfer data across borders or 
require data to be stored locally. If confirmed, I will look forward to 
working with the Congress to identify ways to promote open digital 
trade policies globally, including through implementation of specific 
objectives set out in TPA.

                                 ______
                                 
       Submitted by Hon. Pat Roberts, a U.S. Senator From Kansas
                key elements of a model trade agreement
     1. Rules of Origin Percentages and Loopholes
     2. Trade Deficit Reduction
     3. Dumping, Diversionary Dumping, and Evasion of AD/CVD Duties
     4. Currency Manipulation
     5. Strict Environmental and Labor Standards
     6. Intellectual Property Protection
     7. Restrictions on State-owned and State-financed Enterprises
     8. Investor-State Dispute Resolution
     9. Chapter 19
    10. Non-Tariff Barriers
    11. Government Procurement
    12. Joint Cooperation on Issues Related to the WTO
    13. Enforcement, Monitoring, and Compliance
    14. Corruption
    15. Country of Origin Labeling
    16. Evasion of Antidumping and Countervailing Duties
    17. Forced technology transfer
    18. Geographical indications to restrict trade
    19. Quotas
    20. Phytosanitary standards
    21. Processed foods
    22. Stumpage
    23. Tax rebates on exports
    24. Technology transfers

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    After several weeks during which the only insight the public has 
gotten into this administration's trade policy has come in head-
scratching 140-character bursts, today's hearing may finally provide 
some real specifics. I want to thank Mr. Lighthizer for being here 
today as the committee considers his nomination to be the U.S. Trade 
Representative. And I hope that at the end of this hearing, Americans 
will have heard more detail about how the administration plans to meet 
the extensive promises then-candidate Trump made in the 2016 campaign.

    Before diving into policy, however, there's another issue this 
committee must address as it considers this nomination. As a legal 
matter, Mr. Lighthizer's previous work for foreign governments makes 
him ineligible to be appointed as the United States Trade 
Representative, pursuant to the Lobbying Disclosure Act. The facts are 
clear, but as with Secretary Mattis, this administration and others 
before it have worked with Congress when appropriate to make 
exceptions.

    Speaking for Democrats, we are willing to work with Republicans to 
provide a statutory exception for Mr. Lighthizer, but we also insist 
that Republicans work with Democrats to provide a lifeline to America's 
hardworking mineworkers who face losing their health care and 
retirement benefits.

    Mr. Lighthizer has an understanding about the impact of unfair 
trade on America's manufacturers and workers that could be a valuable 
asset for our country. The country needs a USTR that will stand up for 
our rights on behalf of American workers and businesses at the WTO, and 
that will partner with Customs and Border Protection, the Department of 
Commerce, and the full range of agencies responsible for trade 
enforcement to crack down on trade cheats hurting workers and 
businesses here at home.

    After a campaign of shouting that NAFTA could be the worst trade 
deal ever, the President got into office and said our trade 
relationship with Canada--a NAFTA member--only needed ``tweaking.'' He 
spent the campaign talking tough about China, but his administration 
has largely been quiet about their plans when it comes to China's 
unfair trade practices. So what I say is that our trade policy needs to 
deliver results, not just talk.

    That starts with applying a full court press on trade enforcement. 
In my view, there are two prongs to effective trade enforcement. The 
first is to fully enforce U.S. trade laws here at home. Foreign 
subsidies and dumping that harms American workers must be quickly 
identified and remedied, and that requires strong enforcement at the 
border by U.S. Customs officials. Goods made with forced labor must be 
barred from entering our country. Trade in stolen timber and other 
natural resources that damage the environment and edge out hard working 
Americans in the forestry sector must be stopped. Thanks to the work of 
this committee, especially by Senators Brown, Casey and Stabenow, our 
country's trade remedy laws are now more responsive to American 
producers besieged by foreign trade cheats.

    The second prong of effective trade enforcement is holding other 
countries to their commitments under deals that are already on the 
books, whether that means enforcement of labor obligations, the 
protection of the environment, or stopping countries from applying 
discriminatory policies to block our digital goods and services.

    Now when it comes to aggressive trade enforcement, the U.S. 
Government can't deploy a full court press with only half a team. 
That's why many Democrats like myself thought the President's hiring 
freeze was so short-sighted--because it leaves resources on the 
sideline, and it suggests that the tough talk on trade is really 
nothing more than talk. I hope that the President's forthcoming budget 
doesn't take even more trade enforcers out of the game, endangering 
good-paying American jobs, just to fund a $54 billion giveaway to 
defense contractors.

    In order to maximize economic opportunities for American exporters, 
our trade policy cannot end with effective enforcement of existing 
rules. It also must reach overseas to dismantle foreign trade barriers 
that prevent American goods and services from competing on a level 
playing field.

    The fact is that around 140 million people are joining the middle 
class every year, most of them in Asia. I've always said that our goal 
should be to make things here, add value to them here, and ship them 
around the world. These opportunities will be missed if the United 
States remains on the sidelines while other nations negotiate trade 
deals that advantage their exporters over ours.

    This is particularly true in the Asia-Pacific region. And that is 
exactly what is happening as we sit here today--Pacific Rim countries 
are meeting in Chile to discuss trade in the region and U.S. leadership 
is nowhere to be found.

    With that said, whether it's through renegotiating NAFTA, looking 
to Asia, or working on any other trade deal, transparency with the 
public and with Congress will be absolutely essential. The previous 
Congress passed a law that requires critical actions to ensure that the 
public and its representatives in Congress are active partners in 
efforts to negotiate and implement future trade agreements. But with 
the American people sitting in the dark with respect to the specific 
actions the President intends to take on trade, the first months of 
this administration leave Mr. Lighthizer, if confirmed, with a steep 
hill to climb on transparency.

    In my view it's also critical that the American public knows 
whether the President is advocating for trade policies to create red-
white-and-blue jobs or to help his own business interests. That's why I 
introduced the Presidential Trade Transparency Act with several dozen 
members from both chambers of Congress.

    The bottom line is that the administration has talked a big game 
when it comes to trade, but now it's time to act. That means more 
transparency, a full court press on trade enforcement, and being on the 
offense in overseas markets. Mr. Lighthizer, I look forward to your 
testimony.

                                 ______
                                 

                MEMORANDUM FOR FINANCE COMMITTEE MEMBERS

From: Senate Finance Committee Bipartisan Staff

Date: March 13, 2017

RE:   Nomination of Robert Lighthizer (USTR)
_______________________________________________________________________

    This memo describes the Senate Finance Committee bipartisan staff 
review of the nomination of Mr. Robert Lighthizer to be United States 
Trade Representative (USTR). As background, Mr. Lighthizer has been a 
partner at the law firm Skadden Arps Slate Meagher and Flom (Skadden) 
since 1985.

Background

    Finance Committee staff conducted a review of Mr. Lighthizer's 
Committee Questionnaire, tax returns for 2013, 2014, and 2015, 
financial disclosure statement (OGE Form 278e), and Ethics Agreement 
certified by the Office of Government Ethics (OGE). As part of this 
review, a due diligence meeting was held with the nominee and his legal 
representation on Friday, March 3, 2017. His accountant participated 
via telephone for tax-related questions. Prior to the due diligence 
meeting, staff submitted multiple rounds of written questions to the 
nominee.

    Committee staff received Mr. Lighthizer's tax returns on January 
9th, followed by his questionnaire on January 17th, which was 
subsequently revised January 27th. The nominee's OGE Form 278e and 
Ethics Agreement were submitted January 31st; the nominee later amended 
his 278 form on February 17th after conversations with the designated 
agency ethics official (DAEO) at USTR.

    At the conclusion of this process, three issues have been 
identified and deemed appropriate to bring to the attention of 
Committee Members in advance of the hearing.

Representation of Foreign Entities

    In the Finance Committee questionnaire, Part C, Potential Conflicts 
of Interest, Question 6 asks nominees for the positions of U.S. Trade 
Representative and Deputy U.S. Trade Representative:

``Have you ever represented, advised, or otherwise aided a foreign 
government or a foreign political organization with respect to any 
international trade matter? If so, provide the name of the foreign 
entity, a description of the work performed, the time frame of the 
work, and the number of hours spent on the representation.''

    Federal law prohibits appointment as USTR or Deputy USTR if a 
person has directly represented a foreign entity in a trade negotiation 
or trade dispute with the United States government. These restrictions 
are contained in the Trade Act of 1974. In particular, Section 141(b) 
of the Act (19 U.S.C. Sec. 2171(b)) prohibits the President from 
appointing as USTR or Deputy USTR ``[a] person who has directly 
represented, aided, or advised a foreign entity (as defined by section 
207 (f)(3) of title 18) in any trade negotiation, or trade dispute, 
with the United States.'' 19 U.S.C. Sec. 2141(b). This provision was 
included in the Trade Act of 1974 as part of the Lobbying Disclosure 
Act of 1995.

    A foreign entity is defined in section 207(f)(3) as ``the 
government of a foreign country as defined in section 1(e) of the 
Foreign Agents Registration Act of 1938, as amended, or a foreign 
political party as defined in section 1(f) of that Act.'' The Foreign 
Agents Registration Act (FARA) defines government to include ``any 
group or agency to which [] sovereign de facto or de jure authority or 
functions are directly or indirectly delegated.'' 22 U.S.C. Sec. 611.

    Mr. Lighthizer's response to Part C, Question 6 (Have you ever 
represented, advised, or otherwise aided a foreign government or a 
foreign political organization with respect to a trade matter?) on his 
initial questionnaire was ``None.'' He later revised his questionnaire 
on January 27th to include representation between October 1985 and 
February 1986 of the Sugar and Alcohol Institute of Brazil (IAA). No 
other representations of a foreign government or foreign political 
organization with respect to an international trade matter were 
reported in the amended questionnaire.

    Following discussions with Committee staff on February 1st and 
responding to the written question--``For each matter you worked on for 
a client that was a foreign entity (whether you regard them to be a 
government entity or a non-government entity) during your employment at 
Skadden, please provide [information and supporting documentation]''--
submitted February 2nd, Mr. Lighthizer prepared a summary of the work 
he performed for all of his clients that were a foreign government, 
foreign business, or non-governmental organization with foreign 
ownership during his employment at Skadden. After review, Committee 
staff determined one instance in which Mr. Lighthizer's work may 
constitute representation of a foreign government in a trade 
negotiation or trade dispute with the United States, within the meaning 
of Section 141(b). To be clear, while staff wishes to bring this 
representation to your attention, it is not the position of Republican 
Committee staff that the following representation clearly constitutes a 
representation of a foreign entity in a trade dispute or trade 
negotiation with the United States within the meaning of 19 U.S.C. 
Sec. 2141(b). Mr. Lighthizer maintains that this matter does not fall 
within Section 141(b).

      Sugar and Alcohol Institute of Brazil. As described in his 
amended questionnaire, Mr. Lighthizer represented the Sugar and Alcohol 
Institute of Brazil (at the time, part of Brazil's Ministry of Industry 
and Commerce) between October 1985 and February 1986 in negotiations 
concerning resolution of antidumping and countervailing duty 
investigations regarding Brazilian ethyl alcohol. As part of this 
representation, Mr. Lighthizer conferred with U.S. officials in 
Congress and the U.S. Department of Commerce with respect to the 
potential for a settlement. Mr. Lighthizer stated during discussions 
with Committee staff on February 1st that these efforts included one 
meeting at Commerce concerning a possible suspension agreement.

    In addition, Democratic staff determined an additional instance in 
which Mr. Lighthizer's work may constitute representation of a foreign 
government within the meaning of Section 141(b). To be clear, while 
staff wishes to bring this representation to your attention, it is not 
the position of Republican Committee staff that the following 
representation clearly constitutes a representation of a foreign entity 
in a trade dispute or trade negotiation with the United States within 
the meaning of 19 U.S.C. Sec. 2141(b). Mr. Lighthizer maintains that 
this matter does not fall within Section 141(b).

      China Chamber of Commerce for Machinery and Electronics 
Products. As described in his written summary of work performed for 
foreign entities, between March and November 1991, Mr. Lighthizer 
assisted another partner with respect to the injury phase of U.S. 
antidumping litigation regarding electric fans from China. Democratic 
staff review found that the Chamber of Commerce's articles of 
association from 2009 lists 10 areas of its business scope, including 
``To perform other duties entrusted or assigned by the government or by 
the member enterprises and in accordance with the fellow trade 
agreements.'' The Chinese government has taken the position in U.S. 
courts that it exercises ``plenary'' authority over other chambers of 
commerce.

Representations in Pending Trade Matters

    In both written responses and in-person meetings with Committee 
staff, Mr. Lighthizer addressed matters involving other representations 
through his work at Skadden.

    For example, Part C., Potential Conflicts of Interest, Question 2 
of the Committee questionnaire states: ``Describe any business 
relationship, dealing or financial transaction which you have had 
during the last 10 years, whether for yourself, on behalf of a client, 
or acting as an agent, that could in any way constitute or result in a 
possible conflict of interest in the position to which you have been 
nominated.'' OGE Form 278e, Section 4 requires nominees to report 
sources of compensation exceeding $5,000 in a year during the reporting 
period (in this case two calendar years preceding the filing date).

    In written follow-up responses to question C.2 from the 
questionnaire, Lighthizer listed United States Steel Corporation (U.S. 
Steel), Tensar International Corporation (Tensar), Cummins Allison 
Corporation and Dun and Bradstreet, Inc. The cases of U.S. Steel and 
Tensar drew particular attention.

    With respect to U.S. Steel, the nominee's February 6th response 
indicated ``I have an ethics agreement with the Office of Government 
Ethics which covers possible conflicts of interest.'' Regarding Tensar, 
Mr. Lighthizer noted ``I did no legal work for Tensar at any time and 
never billed any time to them.''

    With respect to the nominee's OGE 278 form, Mr. Lighthizer 
identified two sources of income exceeding $5,000 during any year of 
the reporting period: U.S. Steel and Skadden. However, public records 
available at the U.S. International Trade Commission (USITC) indicated 
the nominee represented Tensar in two cases since September 2016. In 
response, Mr. Lighthizer noted ``Tensar's billing did exceed $5,000 in 
the last year, but I performed no work for it. I also did not perform 
work on U.S. Steel Corporation during the 2 years prior, but I listed 
it because I have done work for it for many years in the past.''

    After subsequent conversations with the USTR ethics official, Mr. 
Lighthizer amended his OGE 278 form on February 17th and removed U.S. 
Steel from Section 4: ``. . . because I did not bill for any work for 
United States Steel Corporation in calendar years 2015, 2016, or 2017, 
this line item should not have been included on my report.'' Mr. 
Lighthizer's stated position throughout the process has been that the 
recusal paragraph of the Ethics Agreement would apply to U.S. Steel.
Public Docket Information
    The nominee has explained to the Committee he was not representing 
parties in pending trade cases. He has repeatedly stated that he 
performed no legal work for Tensar International Corporation ``at any 
time,'' nor did he perform any legal work for U.S. Steel during the 
past 2 years. However, public records in these proceedings identify him 
as counsel for two parties in those proceedings.

    Due diligence review by Committee staff of dockets before the 
International Trade Administration at the Commerce Department,\1\ the 
U.S. International Trade Commission (USITC),\2\ and the U.S. Court of 
International Trade \3\ found dozens of proceedings in which Mr. 
Lighthizer and his firm represented to these agencies--and to parties 
in ongoing proceedings--that he served as counsel for these two 
companies. Among the hundreds of filings in these proceedings, he 
personally signed several dozen applications for access to confidential 
business information subject to an administrative protective order 
(APO) in these cases, two as recently as December 19, 2016 on behalf of 
U.S. Steel.\4\ With regard to Tensar, he is identified as counsel in 
his firm's submission to the USITC of Tensar's Post-Hearing Brief as 
recently as December 30, 2016, a date after he was aware that he was 
under active consideration for the USTR position.\5\
---------------------------------------------------------------------------
    \1\ A Trade Administration docket search shows that during the past 
2 years, Mr. Lighthizer and his firm represented in some 192 filings to 
that agency and to parties in some 52 proceedings that he was counsel 
for either U.S. Steel or Tensar. These filings include some 46 filings 
in which he signed documents related to access to proprietary 
information (APOs).
    \2\ A USITC docket search shows that during the past year, Mr. 
Lighthizer and his firm represented to the USITC and to parties in an 
ongoing proceeding--Certain Biaxial Integral Geogrid Products from 
China--that he was counsel for Tensar Corporation in 14 filings in 
2016. The search also shows that during the past 2 years, Mr. 
Lighthizer and his firm represented in some 57 filings to the USITC and 
to parties in 9 different proceedings that he was counsel for the U.S. 
Steel Corporation. In five of those filings pertaining to access to 
protected proprietary information (APOs), he signed those applications.
    \3\ A docket search of the U.S. Court of International Trade shows 
that during the past 2 years, Mr. Lighthizer was identified as counsel 
for U.S. Steel in some 18 cases pending before the Court.
    \4\ On December 19, 2016, Mr. Lighthizer personally signed two 
different APO applications on behalf of U.S. Steel--Certain Oil Country 
Tubular Goods from the Republic of Korea (Case No.: A-580-870) and 
Certain Oil Country Tubular Goods from India (Case No.: C-533-858).
    \5\ Mr. Lighthizer confirmed this in his interview. His nomination 
was formally announced on January 3, 2017.

    Mr. Lighthizer's explanation for these representations is that, (1) 
with respect to briefs, it was standard procedure for his firm to list 
all partners in the trade practice on filings in trade cases until they 
resign; and (2) with respect to requests for access to APO information, 
the firm included a broad cross-section of employees to avoid breaching 
the APO, even those unlikely to work on a particular case. During his 
due diligence interview on March 3rd, he explained with respect to 
briefs that ``Skadden lists all their partners on these documents. . . 
. My name is on the pleadings until I resign. That is how Skadden does 
it.'' Regarding APO applications, he stated, ``You fill these out in 
case something comes across your desk. . . . Unless someone is very 
junior and not involved, you have them sign the APO.'' Mr. Lighthizer 
also reiterated that he did not participate in his firm's work on these 
proceedings in any way, nor did he supervise the other attorneys 
working on these cases. He further stated that his compensation from 
the firm during this period was not tied to the firm's representation 
---------------------------------------------------------------------------
of Tensar or U.S. Steel.

    On March 8th, the nominee clarified additional points. With respect 
to Skadden's policy of signing legal documents, he wrote ``. . . it is 
the general practice of the International Trade Group to list the names 
of senior members of the group on pleadings. I understand that this is 
not a standard litigation practice at Skadden. We generally require all 
lawyers in the International Trade Group to sign APO papers for all 
cases subject to an APO. This is a prophylactic measure to prevent an 
unintended violation of an order.''

    With respect to U.S. Steel during 2015-2017, ``I again spoke to my 
colleagues about the timing of conversations I may have had with U.S. 
Steel. . . . On reflection I may have had conversations with company 
officials about billing or other matters. I do not recall specific 
conversations and, as I previously noted, I did not bill the client for 
any such conversations.'' Furthermore, Mr. Lighthizer emphasized that 
both U.S. Steel and Tensar, for purposes of recusal, are covered in the 
fourth paragraph of his Ethics Agreement, which states: ``I will not 
participate personally and substantially in any particular matter 
involving specific parties in which I know a former client of mine is a 
party or represents a party for a period of one year after I last 
provided service to that client. . . .'' The nominee confirmed that his 
position and that of his Designated Agency Ethics Official is that ``by 
having my name on pleadings for U.S. Steel and Tensar I provided a 
service to them within the meaning of that word in paragraph four, 
sentence two of my Ethics Agreement. Thus my involvement with these two 
companies is subject to those constraints.''

Taxes--Employee Documentation

    Committee staff received copies of Mr. Lighthizer's 2013, 2014, and 
2015 federal tax returns on January 9, 2017, and submitted an initial 
round of written questions on February 1, 2017. Mr. Lighthizer 
responded on February 7, 2017. After the due diligence meeting with 
staff, an additional round of written questions was submitted on March 
3, 2017.

    Employers are required to complete Form I-9 for each of their 
employees to verify their identity and employment authorization. This 
form is not submitted to U.S. Customs and Immigration Service but is to 
be retained by the employer.

    On Schedule H of his 2013, 2014, and 2015 tax returns, Mr. 
Lighthizer retained a household employee. However, when Committee staff 
requested a Form I-9, Mr. Lighthizer responded that one could not be 
located. He stated that he had verified the employee's identity and 
employment authorization by examining her passport upon initially 
hiring the employee in 1998, but could not locate a Form I-9. Mr. 
Lighthizer then completed a new Form I-9 and submitted it to Committee 
staff on March 7, 2017.

                                  _____
                                 
                                 [GRAPHIC] [TIFF OMITTED] T31417.001
                                 

                                 [GRAPHIC] [TIFF OMITTED] T31417.002
                                 

                                 [GRAPHIC] [TIFF OMITTED] T31417.003
                                 

                                 [GRAPHIC] [TIFF OMITTED] T31417.004
                                 
                Skadden, Arps, Slate, Meagher, and Flom

                       919 Eighteenth Street, NW

                          Washington, DC 20006

                             (202) 453-8700

                                                  November 14, 1985
Willes Martins Banks Leite, Director
Exports Department
Sugar and Alcohol Institute
Largo do Paco, #42, 4th Floor
Rio de Janeiro, Brazil 20010

Dear Mr. Banks:

    This document, when signed by you, will be a letter Agreement 
between the Government of Brazil through the Sugar and Alcohol 
Institute (the ``IAA'') and Skadden, Arps, Slate, Meagher, and Flom, 
(the ``Firm''), for legal services.

    The Firm agrees to work for the IAA, part of the Brazilian Ministry 
of Industry and Commerce, in a broader effort to resolve disputes 
between Brazil and the United States involving ethanol trade. This work 
will include general legal services related to this litigation and 
specifically those related to an attempt to settle the cases. The Firm 
will participate in the efforts to persuade the administration, 
particularly the Department of Commerce, the U.S. domestic ethanol 
producers, U.S. agriculture producers and the Congress of the 
desirability of Brazil and the United States resolving outstanding 
difficulties concerning ethanol on a friendly and equitable basis. The 
Firm will also participate in any legislative efforts that might be 
related to a settlement.

    It is understood that the lawyers from Willkie, Farr, and 
Gallagher, previously with the firm Wald, Harkrader, and Ross, will 
continue representing the Government of Brazil and the producers in the 
above mentioned pending antidumping and countervailing duty cases, and 
that we shall assist them to the extent possible in the defense of such 
cases.

    This matter will involve the concentrated efforts of at least two 
of the Firm's partners and two associates over the next several weeks. 
Other Firm lawyers will also be needed from time to time. The matter 
will involve legal interpretations and advice, the drafting of legal 
documents and briefs, strategy sessions, as well as numerous meetings 
with administration, congressional and U.S. business interests.

    The IAA agrees to pay the firm for all legal services and out-of-
pocket expenses incurred in this representation. The legal services 
fees will be based on time spent on this matter by Firm attorneys. 
Partners' time will be billed at approximately $200 per hour and 
associates' time at approximately $100 per hour. (These rates may vary 
slightly depending on the level of expertise of the attorneys. Mr. 
Lighthizer's time will be billed at $200 per hour.) The IAA agrees to 
pay out-of-
pocket expenses on a monthly basis.

    The IAA further agrees to pay the firm a minimuml retainer fee of 
$125,000 within one week following signature of this agreement. Fees 
for legal services will be credited against this amount until the 
$125,000 is used up. After the retainer is used up, periodic bills for 
such services will be presented and paid by IAA. If the fee for actual 
legal services is less than $125,000, no refund will be due. Out-of-
pocket expenses will be paid separately and will not be credited 
against this payment. The remittance of the retainer fee, as well as 
the refund of out-of-pocket expenses and fees will be paid under the 
rules and authorization of Bacen-Banco Central Do Brasil.

    You may terminate our services at any time upon 48 hours telex 
notice subject to payment of any time actually spent, if in excess of 
the $125,000 retainer and all expenses actually incurred to that date.

    This agreement will have retroactive application to October 13, 
1985. This is the day before Mr. Lighthizer travelled to Brazil for 
preliminary meetings on this matter.

    In order to execute this agreement, please sign two copies, return 
one to us, and retain one for your files.
        For Skadden, Arps, Slate, Meagher, and Flom
                               Robert E. Lighthizer

                For The Alcohol and Sugar Institute
                          Jose Ribeiro Toledo Filho

                                 ______
                                 

                             Communications

                              ----------                              


           International Corporate Accountability Roundtable

                     1612 K Street, NW, Suite 1400

                          Washington, DC 20006

February 2, 2017

The Honorable Orrin Hatch
Chairman
Committee on Finance
U.S. Senate
Washington, DC 20510

The Honorable Ron Wyden
Ranking Member
Committee on Finance
U.S. Senate
Washington, DC 20510

SUBJECT: Hearing to Consider the Nomination of Robert Lighthizer, of 
Florida, to be United States Trade Representative, with the rank of 
Ambassador Extraordinary and Plenipotentiary, Tuesday, March 14, 2017.

Dear Chairman Hatch, Ranking Member Wyden, and members of the Committee 
on Finance,

We, the undersigned organizations, write to you concerning the 
nomination of Robert E. Lighthizer as the United States Trade 
Representative (USTR). We urge you to use the confirmation hearings to 
clarify Mr. Lighthizer's commitment to promoting a U.S. trade policy 
that benefits all Americans by protecting and promoting labor, 
environmental, and human rights worldwide.

International trade has long been an integral part of the U.S. economic 
system, but U.S. trade policy has not consistently benefited all 
Americans. Nor has it succeeded in uplifting many of the developing 
countries it claims to serve. Instead, U.S. trade deals have created an 
environment where companies have sought to lower costs by doing 
business in countries with the lowest labor, environmental, and human 
rights standards, thus perpetuating misery in developing countries and 
simultaneously driving Americans out of work. As such, opposition to 
these trade deals, such as the North America Free Trade Agreement 
(NAFTA) and the Trans Pacific Partnership Agreement (TPP), that place 
corporate profit over people and the environment, took center stage in 
both the Republican and Democratic primaries as well as the general 
election.

In his inaugural address, President Trump promised that ``[e]very 
decision on trade . . . will be made to benefit American workers and 
American families.'' \1\ U.S. trade policy should be aimed toward 
raising labor, environmental, and human rights standards worldwide and 
enforcing such standards consistently. This will ensure that American 
workers are not ``priced out'' by foreign workers who are deprived of 
basic labor and human rights, and U.S. companies that follow the law do 
not have to unfairly compete with those that do not.
---------------------------------------------------------------------------
    \1\ Inaugural address: Trump's full speech, CNN (January 21, 2017), 
http://www.cnn.com/2017/01/20/politics/trump-inaugural-address.

Mr. Lighthizer has recognized the need to use U.S. trade policy to 
raise and enforce standards in this way. In a 2010 New York Times op-
ed, he wrote, ``[f]oreign companies often benefit from relatively weak 
labor and environmental rules that enable them to operate with 
significantly lower costs than their U.S. competitors. This leaves 
American manufacturers with three options: lose market share, cut 
profit margins or move abroad. . . . If we want an efficient global 
market, we should be more serious about making sure companies in all 
nations play by the same rules.'' \2\
---------------------------------------------------------------------------
    \2\ Robert E. Lighthizer, ``Stifling the Economy, One Argument at a 
Time,'' New York Times (March 21, 2010), http://www.nytimes.com/2010/
03/22/opinion/22lighthizer.html.

The next USTR will play a critical role in determining what rules the 
world plays by. Americans across the political spectrum are counting on 
the USTR to ensure that these rules promote, not erode, the 
---------------------------------------------------------------------------
international standards for labor, environmental, and human rights.

As such, we urge you to use the confirmation process to clarify Mr. 
Lighthizer's views and commitments to the following:

    1.  Should NAFTA and other trade agreements be re-negotiated, as 
President Trump has indicated,\3\ will Mr. Lighthizer support improved 
labor, land, and environmental provisions being added to the agreements 
and ensure that such provisions are enforceable, for example, through 
trade sanctions? Will he support including such provisions in new trade 
deals?
---------------------------------------------------------------------------
    \3\ Megan Cassella and Jason Huffman, ``Trump orders imminent to 
renegotiate NAFTA, back out of TPP,'' Politico (January 23, 2017), 
http://www.politico.com/story/2017/01/nafta-tpp-trade-deals-trump-
234031.

    2.  Investor-state dispute settlement (ISDS) allows foreign 
corporations to bypass domestic courts by suing the government before a 
panel of three private attorneys when such corporations claim that a 
particular law, regulation, or court decision amounts to direct or 
indirect expropriation, a violation of the vague ``fair and equitable 
treatment'' standard, or violations of other investor rights. ISDS 
threatens national sovereignty and American labor, environmental, and 
health standards, and can have a chilling effect on regulation. The 
United States has been sued at least 20 times by Canadian investors 
under NAFTA's ISDS provision, with many of the challenges attempting to 
undermine U.S. environmental protections.\4\ What is Mr. Lighthizer's 
opinion on ISDS? Would he support removing ISDS provisions from 
treaties the administration is seeking to re-negotiate, such as NAFTA? 
Would he oppose the inclusion of ISDS provisions in future trade 
agreements?
---------------------------------------------------------------------------
    \4\ ``Table of Foreign Investor-State Cases and Claims Under NAFTA 
and Other U.S. `Trade' Deals,'' Public Citizen, 2-12, (October 2016), 
http://www.citizen.org/documents/investor-state-chart.pdf.

    3.  Transparency in trade negotiations is an important method for 
ensuring that trade deals benefit all Americans. Without transparency 
to the negotiation process, including the text of the agreement, it is 
impossible for the public to accurately assess the impact of the 
agreement. As a result, such decisions are left in the hands of very 
few people, who could not comprehensively consider the concerns of all 
stakeholders. Does Mr. Lighthizer support greater transparency in trade 
negotiations? How would he make the negotiations process more 
transparent for the public? How does he propose to include the 
perspective of a broad range of stakeholders in the negotiation 
---------------------------------------------------------------------------
process?

    4.  The Office of the USTR plays a substantial role in enforcing 
anti-dumping and countervailing duty provisions to protect the U.S. 
from foreign exporters that receive unfair subsidies from their 
governments and dump cheap goods in the U.S. market.\5\ Mr. Lighthizer 
has called for rigorous enforcement of such laws.\6\ He has also called 
for the United States to ensure that companies in all nations play by 
the same labor and environmental rules. Governments' failure to enforce 
international standards on labor, the environment, and human rights 
against corporations may be seen as a form of unfair government subsidy 
under the concept of ``social dumping.'' Will Mr. Lighthizer support 
the use of anti-dumping and countervailing duty provisions to ensure 
that U.S. manufacturers do not have to unfairly compete with foreign 
companies that import cheap goods produced in violation of labor, 
environmental, and human rights laws?
---------------------------------------------------------------------------
    \5\ Peter D. Ehrenhaft, Remedies Against ``Unfair'' International 
Trade Practices, SN056 ALI-ABA 131 at 159.
    \6\ Robert E. Lighthizer, ``Testimony Before the U.S.-China 
Economic Security Review Commission: Evaluating China's Role in the 
World Trade Organization Over the Past Decade,'' 29 (June 9, 2010), 
http://www.uscc.gov/sites/default/files/6.9.10Lighthizer.pdf.

    5.  The U.S. Generalized System of Preferences Program (GSP) 
provides preferential duty-free treatment for 3,500 products from 
designated beneficiary countries (BDCs) in the developing world.\7\ One 
of the criteria for GSP eligibility is that the BOC needs to take steps 
to ``afford workers . . . internationally recognized worker rights.'' 
\8\ Other USTR-administered preference programs contain similar 
conditions.\9\ Yet, in the past, USTR has reinstated GSP eligibility to 
multiple countries with rampant labor rights violations. One example is 
Burma, which Human Rights Watch says continues to allow forced 
labor.\10\ The Department of State made similar findings: it downgraded 
Burma to Tier 3 in its 2016 Trafficking in Persons report because of a 
lack of progress in areas such as forced labor.\11\ What is Mr. 
Lighthizer's opinion on Burma's reinstatement to GSP? What is his 
opinion on the GSP petitions pending against Uzbekistan for forced 
labor in the cotton sector and Thailand for forced labor in the fish 
and shrimp industry? How will Mr. Lighthizer use GSP and other trade 
preference programs to improve and enforce human rights standards 
worldwide?
---------------------------------------------------------------------------
    \7\ U.S. Generalized System of Preferences Guidebook, U.S. Trade 
Representative, 3 (September 2016), https://ustr.gov/sites/default/
files/GSP-Guidebook-September-16-2016.pdf.
    \8\ 19 U.S.C. Sec. 2462(c)(7).
    \9\ For the relevant provision in the Caribbean Basin Economic 
Recovery Act, see 19 U.S.C. Sec. 2702(c)(8). For the same in the 
African Growth and Opportunity Act, see 19 U.S.C. Sec. 3703(1)(F).
    \10\ World Report 2017: Burma, Human Rights Watch, https://
www.hrw.org/world-report/2017/country-chapters/burma.
    \11\ Trafficking in Persons Report 2016, U.S. State Department, 112 
(June 2016), https://www.state.gov/documents/organization/258876.pdf.

    6.  The United States has recognized the fight against human 
trafficking as a foreign policy goal and trade priority. The Trade 
Promotion Authority was amended in June 2015 to exclude any country 
designated Tier 3 in the Trafficking in Persons Report from ``fast-
track'' status in trade agreements signed with the United States.\12\ 
In July 2015, the Department of State upgraded Malaysia, a participant 
in TPP negotiations, from Tier 3 to Tier 2 Watch List,\13\ even though 
Malaysia's ``record on stopping trafficking is far from sufficient to 
justify this upgrade by Washington,'' according to Human Rights 
Watch.\14\ Does Mr. Lighthizer agree that such action may compromise 
the integrity of the Trafficking in Persons Report and undermines 
USTR's authority to develop trade agreements that protect the interests 
of the American people by promoting labor and human rights abroad? Will 
Mr. Lighthizer continue to fulfill the U.S. commitment against human 
trafficking by including provisions barring states with rampant human 
trafficking from future trade deals? Will he work with the Department 
of State to ensure that potential parties to such deals are accurately 
assessed for their compliance with such provisions?
---------------------------------------------------------------------------
    \12\ David Dayen, ``Blocked From Trade Pact By Its Failure on 
Slavery, Malaysia Suddenly Gets a Passing Grade,'' The Intercept (July 
27, 2015), https://theintercept.com/2015/07/27/blocked-trade-pact-
failure-trafficking-malaysia-suddenly-gets-passing-grade.
    \13\ Vicki Needham, ``U.S. boosts Malaysia's human rights status,'' 
The Hill (July 27, 2015), http://thehill.com/policy/finance/trade/
249249-us-boosts-malaysias-human-rights-status.
    \14\ Vicki Needham, ``Feds face blowback over Malaysia human 
trafficking upgrade,'' The Hill (July 17, 2015), http://thehill.com/
policy/finance/trade/249321-feds-face-blowback-over-malaysia-
trafficking-upgrade.

We are thankful for your consideration, and look to you to ensure that 
U.S. trade policy uplifts the American people by ensuring 
---------------------------------------------------------------------------
accountability for human rights worldwide.

Sincerely,

AFL-CIO
Amazon Watch
EG Justice
FIDH-International Federation for Human Rights
Human Rights Watch (HRW)
International Corporate Accountability Roundtable (ICAR)
International Labor Rights Forum (ILRF)
International Rights Advocates
Northwest Coalition for Responsible Investment

                                 ______
                                 
              Motion Picture Association of America (MPAA)

           Statement of Chairman and CEO Senator Chris Dodd 
              in Support of Robert E. Lighthizer for USTR

March 21, 2017

WASHINGTON--The following is a statement from Senator Chris Dodd, 
Chairman and CEO of the Motion Picture Association of America, in 
support of President Donald Trump's appointment of Robert E. Lighthizer 
for United States Trade Representative (USTR).

``The MPAA supports the nomination of Robert E. Lighthizer to serve as 
the next USTR. The American film and television industry is a key 
driver of the U.S. economy, and effective trade policies are crucial to 
its continued success. Our sector employs 2 million American workers, 
while generating $17.8 billion in exports and registering a positive 
trade balance with nearly every country around the world.

``The USTR plays a critical role in fostering America's creative 
industries by negotiating and enforcing trade agreements that protect 
U.S. intellectual property rights and expand access to foreign markets. 
Mr. Lighthizer's extensive experience--which includes working for the 
Senate Finance Committee under Senator Bob Dole, serving as Deputy USTR 
in the Reagan administration, and representing the economic interests 
of numerous American industries in the private sector--will enable him 
to be immediately engaged on the numerous issues facing USTR and makes 
him well-qualified to work with Congress and other key government 
agencies on trade policies that benefit consumers, creators, and the 
national economy.''

                                  [all]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
